<html>
<title> - THE CRISIS IN COLOMBIA: WHAT ARE WE FACING?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




              THE CRISIS IN COLOMBIA: WHAT ARE WE FACING?

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 15, 2000

                               __________

                           Serial No. 106-151

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
66-788                     WASHINGTON : 2000

                                --------

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                 Gil Macklin, Professional Staff Member
                          Lisa Wandler, Clerk
                    Cherri Branson, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 15, 2000................................     1
Statement of:
    Busby, Morris, former U.S. Ambassador to Colombia and 
      president, B.G.I. International; Ted McNamara, former U.S. 
      Ambassador to Colombia, Council of the Americas; and 
      Lawrence Meriage, vice president, Occidental Petroleum Corp   149
    McCaffrey, General Barry R., Director, Office of National 
      Drug Control Policy........................................    35
    Wilhelm, General Charles, Commander, U.S. Southern Command; 
      William Ledwith, Director of International Operations, Drug 
      Enforcement Administration; Ana Maria Salazar, Deputy 
      Assistant Secretary of Defense for Drug Policy and Support; 
      and Ambassador Peter Romero, Assistant Secretary for Latin 
      America, Department of State...............................    87
Letters, statements, et cetera, submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, prepared statement of..........................    24
    Busby, Morris, former U.S. Ambassador to Colombia and 
      president, B.G.I. International, prepared statement of.....   153
    Ledwith, William, Director of International Operations, Drug 
      Enforcement Administration, followup questions and 
      responses..................................................   127
    McCaffrey, General Barry R., Director, Office of National 
      Drug Control Policy, prepared statement of.................    42
    Meriage, Lawrence, vice president, Occidental Petroleum 
      Corp., prepared statement of...............................   168
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, U.S. Support for Plan Colombia and the 
      Andean Region..............................................     3
    Mink, Hon. Patsy T., a Representative in Congress from the 
      State of Hawaii, prepared statement of.....................    18
    Romero, Ambassador Peter, Assistant Secretary for Latin 
      America, Department of State, prepared statement of........   118
    Salazar, Ana Maria, Deputy Assistant Secretary of Defense for 
      Drug Policy and Support, prepared statement of.............   107
    Schakowsky, Hon. Janice D., a Representative in Congress from 
      the State of Illinois, article by Robert White.............    73
    Wilhelm, General Charles, Commander, U.S. Southern Command, 
      prepared statement of......................................    90

 
              THE CRISIS IN COLOMBIA: WHAT ARE WE FACING?

                              ----------                              


                       TUESDAY, FEBRUARY 15, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2247, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Barr, Gilman, Shays, Ros-
Lehtinen, Souder, Ose, Mink, Cummings, Kucinich, Tierney, and 
Schakowsky.
    Also present: Representatives Burton, Ballenger, and Green.
    Staff present: Sharon Pinkerton, staff director; Gil 
Macklin, professional staff member; Charley Diaz, congressional 
fellow; Lisa Wandler, clerk; Cherri Branson, minority counsel; 
and Jean Gosa, minority assistant clerk.
    Mr. Mica. Good morning. I would like to call this hearing 
of the Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources to order. Today, our topic is the United States' 
response to the crisis in Colombia.
    We will start today's proceeding with opening statements by 
Members. We have three witness panels to hear from today, so we 
will move forward and hopefully be joined by some of our other 
colleagues in the next few minutes.
    With those comments, let me first make my opening 
statement.
    Today, this House subcommittee will examine the United 
States' response to the growing crisis in Colombia. We will 
take this opportunity to review the administration's track 
record of delivering resources, including previously authorized 
counterdrug aid and equipment to Colombia, as well as examine 
the current Colombian aid proposal.
    This hearing will serve as the first real public hearing of 
the issue since the administration submitted its billion-
dollar-plus emergency supplemental aid package.
    Our hemisphere and the United States are facing one of the 
greatest challenges to its national security as the situation 
in Colombia continues to deteriorate. Left unchecked, the 
narco-terrorist threat in Colombia will continue to spiral out 
of control, threatening Latin America's oldest democracy and 
leading to regional instability.
    As the illegal drug trade continues to grow, it fuels 
narco-terrorism, undermines legitimate government institutions, 
and leads to increasing violence in the region. The impact of 
this destabilization in the region will have a devastating 
impact on the U.S. national security interests.
    After years of pleading and pressure by House Members and 
Members of Congress, I appreciate that, finally, the 
administration has submitted to Congress a Colombian aid 
proposal, which has just arrived. It arrived 7 months after 
General McCaffrey sounded the alarm, calling the situation in 
Colombia an emergency, and 4 months after the Pastrana 
government submitted Plan Colombia, asking for United States 
assistance.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6788.001
    
    [GRAPHIC] [TIFF OMITTED] T6788.002
    
    [GRAPHIC] [TIFF OMITTED] T6788.003
    
    [GRAPHIC] [TIFF OMITTED] T6788.004
    
    [GRAPHIC] [TIFF OMITTED] T6788.005
    
    [GRAPHIC] [TIFF OMITTED] T6788.006
    
    [GRAPHIC] [TIFF OMITTED] T6788.007
    
    [GRAPHIC] [TIFF OMITTED] T6788.008
    
    [GRAPHIC] [TIFF OMITTED] T6788.009
    
    [GRAPHIC] [TIFF OMITTED] T6788.010
    
    Mr. Mica. Because the United States' response has been slow 
to assist Colombia in combatting narco-terrorism, that country 
now supplies 80 percent--some 80 percent of the world's 
cocaine. This explosion in coca cultivation from Peru and 
Bolivia to Colombia has occurred in just the past 4 or 5 years.
    The explosion in poppy cultivation in Colombia is equally 
disturbing and even more recent than what we have seen with 
coca. Through the DEA's Heroin Signature program, we know that 
Colombia, not the Far East, accounts for some 75 percent of the 
heroin seized on United States streets. We have a chart up here 
that denotes that. From the Signature program, they can almost 
identify the fields where that heroin is coming from, the 
source of it.
    Several years ago, Colombia grew only enough poppies to 
fill a flower arrangement. What used to be a supply of hard 
drugs being processed and transited through Colombia has turned 
into a torrent and glut of deadly narcotics pouring across our 
borders.
    Both drugs and the death that accompany drugs are spilling 
onto our shores, and American blood also has been spilled on 
Colombian soil. Last summer, five American men and women from 
the United States Army were killed in the line of duty in 
Colombia when their United States' reconnaissance plane crashed 
on a mountain in a counterdrug mission which took place in 
narco-guerilla territory. This marks the first time in United 
States history that American military personnel have been 
killed in action in Colombia's drug war.
    In addition to these five Americans, three United States 
contract pilots have been killed in Columbia over the past 2 
years. Three Americans were abducted and brutally murdered by 
the FARC, which is Colombia's largest group of drug trafficking 
guerrillas, and that took place earlier this year. Numerous 
Americans have been kidnapped by Colombian narco-guerrillas. In 
fact, the longest held U.S. hostages are three American 
missionaries from my district, who have been unaccounted for 
since 1993.
    In short, despite years of congressional pleas for 
counterdrug assistance to Colombia, countless hearings and 
intense congressional efforts, resources approved by Congress 
have failed to be provided to Colombia. Someone must be held 
accountable for the disaster that is now at our doorstep.
    Time and again, the Clinton administration has ignored the 
emerging situation in Colombia, despite congressional oversight 
hearings that have tried repeatedly to call attention to the 
impending crisis.
    To borrow a phrase, the record is a ``flipping disaster.''
    First, information sharing was denied--and let's just take 
a quick second to look at how we got in this situation.
    First, information sharing was denied in 1994, turning the 
situation into sheer chaos, as my colleague from California, 
Steve Horn, so aptly described. As you will recall, as of May 
1, 1994, the Department of Defense decided unilaterally to stop 
sharing real-time intelligence regarding aerial traffic and 
drugs with both Colombia and Peru. Now, as I understand it, 
that decision, which hasn't been completely resolved, has 
thrown diplomatic relations with host countries into chaos.
    That was a comment in a hearing by Congressman Steve Horn, 
August 2, 1994. I put that up for the subcommittee to review.
    In 1996 and 1997, when this administration decertified 
Colombia without a national interest waiver, it severely 
undermined the legitimate drug-fighting efforts of General 
Serrano and the Colombia National Police, cutting off 
international military education, training, and critical 
equipment to that country.
    Even worse, today, the absence of United States 
intelligence sharing, due in part to the reduced air coverage 
after the forced closure of Howard Air Force Base in Panama, 
our drug counterefforts in the region have been further 
crippled.
    We held a hearing on this GAO report, and I think it was 
quite enlightening to see that even pleas by the United States 
Ambassador from Peru asking that surveillance flights be kept 
up and also warning that, if we didn't participate, we would 
see more cocaine coming out of Peru and also out of Colombia. 
In fact, that prediction in 1998 has come true; because we have 
not paid attention to the requests even of officials of this 
administration who are on the front line.
    While very publicly calling for $1.6 billion in emergency 
aid last month at the White House, this administration 
requested only $85 million in State Department INL funding for 
Colombia in the fiscal year 2000. The Congress passed a 
supplemental aid package to increase the funding for 
counternarcotics work in Colombia. Sadly, less than half of the 
equipment Congress funded in that bill has been delivered in an 
operational fashion. In fact, we found that up until just a few 
weeks ago, the three helicopters which account for the bulk of 
aid dollars, when finally delivered, sat idle for lack of 
proper armoring or ammunition.
    The headline that is posted is interesting because--this is 
not the headline from a few weeks ago. This is a headline from 
1998, in the Washington Times, ``Delay of helicopters hobbles 
Colombia in stopping drugs.'' As I said, we have been trying 
for years to get this equipment on-line in the real war on 
drugs. We find ourselves in the same situation, when we can't 
get three helicopters to Colombia with proper armoring and 
ammunition even in the last few months.
    Another story that appeared in the paper--I haven't 
confirmed this, but I am told that it is certain--that the 
ammunition we asked to get to Colombia was delivered during the 
holidays to the loading docks of the State Department. It 
appears that, unfortunately, we have a gang that can't get the 
ammunition to shoot straight to Colombia where it is needed.
    This administration, unfortunately, has resisted 
congressional efforts to ensure that needed drug-fighting 
equipment makes it to Colombia in a timely manner. This 
administration has fought the Congress for years on Blackhawk 
utility helicopters for the Colombian National Police and, 
unfortunately, has a pathetic track record of delivering the 
assistance. And I have shown, again, we are back here looking 
at trying to get these resources to where we know they are 
needed.
    Unfortunately, nearly half of the $954 million that is 
provided in the supplemental aid package for Colombia is for 30 
Blackhawk helicopters for the Colombian military, again, which 
we requested years ago to be on-line in Colombia to fight this 
battle.
    Given the high costs of these assets and the poor delivery 
track record of the State Department, I am concerned about 
committing this amount of money to a program that has not 
worked well in the past. As chairman of this subcommittee, I 
want to ensure that the final aid package contains funds for 
programs that have a proven track record of success, and 
guarantees some way to transport this equipment in a timely 
fashion.
    There are reports of increased activity by the 17,000 
Marxist narco-terrorist guerrillas, also known as the FARC. 
This army of insurgents controls nearly 40 percent of the 
Colombian countryside. The FARC and the ELN are heavily 
financed by drug traffickers, with an estimated $600 million 
coming directly or indirectly from illicit drug trade. The FARC 
army has gone largely unchecked and is now expanding beyond 
Colombia's borders.
    I am deeply concerned about reports of FARC incursions into 
neighboring countries. The basic tenet of the administration's 
aid package is to use the Colombian military and the police to 
push into southern Colombia. I am also concerned that we do not 
allow the drug traffickers to simply shift production 
operations to neighboring countries, especially those with 
nonsecure borders like Ecuador, which has recently experienced 
domestic turmoil, and Panama.
    With the price of coca leaf rising above the profitability 
level in Peru and Bolivia, I am also concerned that drug 
traffickers are not allowed to reactivate coca fields in those 
countries. We cannot afford to roll back years of successful 
eradication efforts in both Peru and Bolivia.
    One of the points that will be made in today's hearing is 
that Colombia matters. It matters both economically and 
strategically. The United States can ill afford further 
instability in that region. With 20 percent of the United 
States daily supply of crude and refined oil imports coming 
from that area and with the vitally important Panama Canal 
located just 150 miles to the north, the national security and 
economic implications of Colombia's rebel activity spilling 
over into neighboring countries are enormous.
    For all these reasons, I believe the final aid package must 
have a balanced regional approach. This subcommittee will 
continue to play a key role in ensuring that the United States' 
counterdrug aid to Colombia is both sufficient, appropriate, 
and also that those resources are delivered in a timely manner.
    I am committed to continued congressional oversight of this 
issue, because I believe both the influx of illegal drugs to 
the United States is our greatest central challenge and also we 
face an insidious national security threat from the situation 
there.
    I know that many of my colleagues share this concern. As we 
face this serious and growing challenge in Colombia, our vital 
interests are at stake. The situation in Colombia requires our 
immediate attention, but the nature and extent of the United 
States' aid needs to be carefully considered, especially in 
light of this administration's past track record.
    This hearing hopefully will shed light on the situation in 
Colombia as we help frame the national debate on how to address 
the growing crisis.
    I am pleased at this time to yield now to the ranking 
member of our subcommittee, the gentlelady from Hawaii, Mrs. 
Mink.
    Mrs. Mink. Thank you very much, Mr. Chairman, for your 
opening remarks, which I believe sets an appropriate tone for 
these hearings and for the congressional discussions to follow.
    There is absolutely no doubt that there is a crisis in 
Colombia and that the United States has a great responsibility 
in addressing this particular crisis, particularly because of 
the drug issue. Colombia supplies 80 percent of the world's 
cocaine, and the DEA administration here in this country 
estimates that as much as 75 percent of the heroin that enters 
the United States originates in Colombia.
    The aid package proposed by the President is $1.6 billion 
total for Colombia, and it is the United States' response to 
requests from the Colombian Government to adopt its plan, which 
is basically to support the government's efforts in its own 
economic development or redevelopment, and at the same time 
answer the tremendous demands that the U.S. Government has with 
respect to limiting the production and transport of these 
dangerous drugs into the United States.
    I believe that it is important, as we consider and 
deliberate on this issue of this particular package of 
assistance to Colombia, that we understand that there has been, 
in effect, a 35-year-old civil war in that country, which has 
killed 30,000 people and displaced over a million. We know that 
40 percent of Colombia's territory is controlled by left-wing 
rebels. And the U.S. State Department, as well as human rights 
groups, have reported that paramilitary groups murder and kill 
civilians largely because of their political beliefs.
    I have to note that, in February 1999, one of my 
constituents, Lahe'ena'e Gay, from the Big Island, was among 
three individuals who were brutally murdered. So I come to this 
hearing with no small concern about the situation in Colombia, 
the takeover by rebels and guerrillas and other individuals 
making governance almost impossible.
    But, Mr. Chairman, it is unlikely that this long-standing 
pattern of civil war within Colombia can be changed by a $1.6 
billion insertion of money, certainly not in 2 years. It will 
probably require continued consideration by the Congress and 
continued allocation of funding.
    Our primary concern, of course, is the continued enormous 
increase of the flow of illegal drugs into this country, and 
that is the national security issue that we are attempting to 
address. If we provide aid primarily in the form of military 
equipment, military expertise and military personnel, I believe 
it is naive to think that we will not become drawn deeper and 
deeper into the civil war unrest within their country. 
Therefore, we must consider the grave consequences to the 
United States of the introduction of increased numbers of U.S. 
service personnel who may become the next casualties in the 
Colombian civil unrest.
    Americans have a long-standing skepticism about 
intervention in other country's civil wars. There have been 
notable exceptions in the interests of enforcing human rights 
abroad. The doctrine of nonintervention requires that we must 
be able to justify military action in terms of our national 
security interests. It is true that the insurgents are funding 
their military efforts with the cultivation and sale of illegal 
drugs, most of which comes to the United States, but this does 
not obscure the fact that the support of the Government of 
Colombia will, with this type of an aid package, draw us 
further and further into the internal political situation of 
that country.
    I believe it will be more sensible for us to tilt the 
balance of aid to direct more funding to nonmilitary purposes. 
If we were to assist the Colombian Government in developing its 
economy and building a viable infrastructure so that the goods 
and commodities that are grown by the people of Colombia can 
reach the international markets, I believe we would be better 
able to answer the long-range problems of that country.
    While we, of course, support the Pastrana government, and I 
do so, I visited the area earlier in 1999, we have to remember 
that our primary interests of intervention in any form is the 
necessity to stop the production of cocaine and heroin and to 
prevent its introduction into the United States. We have to 
focus on this issue of interdiction and also with the 
additional funds enhance our law enforcement activities within 
the United States.
    I am pleased that we have a very important and 
distinguished array of witnesses who can add to this debate, 
and I will be here to listen to their advice and response to 
questions which we put to them. Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentlelady.
    [The prepared statement of Hon. Patsy T. Mink follows:]

    [GRAPHIC] [TIFF OMITTED] T6788.011
    
    [GRAPHIC] [TIFF OMITTED] T6788.012
    
    [GRAPHIC] [TIFF OMITTED] T6788.013
    
    Mr. Mica. I would now like to recognize the chairman of our 
full committee, the gentleman from Indiana, Mr. Burton.
    Mr. Burton. Thank you, Chairman Mica.
    Let me say that a lot of the things that I was going to 
cover have been covered, so I would like to submit my statement 
to the record and just make some brief comments.
    Mr. Mica. Without objection.
    Mr. Burton. First of all, let me just say that the war in 
Colombia is our war as well as the Colombians'. Every year, 
14,000 Americans die from drugs and drug-related violence; and 
those drugs are coming mainly from Colombia. So it is not just 
their war, it is our war.
    In Baltimore, a councilman recently said that one out of 
eight--one out of eight of the citizens there is a drug addict. 
They also stated that the drug enforcement administration says 
that Baltimore has 45,000 heroin addicts. Now, this is just one 
major city in the United States. So for anybody to say that 
this is not our war as well as the Colombians, they are just 
not reading the statistics and the facts. People are dying in 
the United States as a result of the flood of drugs coming in 
from that part of the world, and we haven't been doing anything 
about it.
    We talked with General McCaffrey back in 1996 about three 
Blackhawk helicopters. We wanted to spend $36 million for those 
Blackhawks. And he said we shouldn't be taking that money 
because a lot of it was supposed to go to Bolivia and Peru; 
and, as a result, the Blackhawks weren't sent.
    Congress has been talking about getting these Blackhawks 
down there for years. Denny Hastert, the Speaker of the House, 
Chairman Gilman, Chairman Mica, and myself have all been 
hollering to high heaven about the need to get those Blackhawks 
down there; and we have run into opposition from the State 
Department.
    I would like to read from a statement before Chairman 
Gilman's committee on February 12, 1998.
    Secretary Albright: Mr. Chairman, on that issue, let me say 
that I think there is some dispute as to whether those 
helicopters are needed or not. General McCaffrey, with whom I 
spoke just before I came to have breakfast with you, discussed 
this issue, and he believes that they are not necessary.
    General McCaffrey said February 1998 they are not 
necessary. And, as I said, we have this budget of $230 million 
or so, and $50 million of that would have had to be spent on 
the helicopters. It would have a cascading effect on our drug 
programs throughout the world.
    Well, they are necessary. They were necessary. This was a 
miscalculation by the administration, and I think history will 
prove that.
    Now, I welcome the administration to this fight in 
Colombia. I appreciate that. I appreciate General McCaffrey 
stepping up to the table and saying it is time we did 
something. I only wish that we had started doing it earlier. 
Because we haven't done it earlier, it is going to cost more 
money now than it would have otherwise. And the surrounding 
countries are at risk. Peru, Ecuador, Venezuela are at risk as 
well.
    Now the State Department and their subsidiary, the Bureau 
of International Narcotics and Law Enforcement, the INL, are 
charged with delivering most of the assistance to Colombia; and 
the State Department has not been doing its job.
    Just last week, Mr. Beers, who is the INL Assistant 
Secretary, informed the committee staff that the standard floor 
armoring for the Blackhawk helicopters funded for the CNP did 
not fit. We sent three helicopters down there. We actually have 
six in the pipeline. Three of them were delivered. They have 
been sitting there for how long? 100 days. They have been 
sitting there for 100 days. They said they didn't have the 
proper armor on them. Well, they finally got the armor down 
there. It didn't fit. So they are still sitting there. Now they 
have gone out on some missions and risked the lives of the 
people in the CNP without that armor. But that shouldn't be 
necessary.
    Once again, it was a screw-up over at the State Department. 
50,000 rounds of ammunition were sent down there, 50,000 rounds 
of ammunition. Only problem with that ammunition was it was 
made in 1952, and it wouldn't work.
    So you have got helicopters that they can't fly and 
ammunition they are sending down there that won't work. So they 
said, OK, we made a mistake. We are going to send them another 
50,000 rounds of ammunition. Where did they send it? As 
Chairman Mica said, they sent it over to the State Department 
over from Washington. Now, I don't know how many machine guns 
they have in the State Department, but they are not focused on 
Colombia.
    So we have screw-up after screw-up after screw-up, and we 
have the State Department saying we don't need those 
helicopters. Secretary Albright said: I just talked to General 
McCaffrey. We don't need those helicopters down there.
    At the same time, the guerrillas are being well funded by 
the drug cartel. They have been getting as much as $100 million 
a month, and the estimates of their force is between 17,000 and 
30,000, and they are growing every single day.
    You know, it has been stated I think here today that we 
ought to be dealing with this from an economic standpoint, 
getting economic assistance down there. Well, I think that is 
one of the things that needs to be done. But the fact of the 
matter is appeasement is not going to work with those 
guerrillas.
    They started talking about a peace agreement not too long 
ago, and all the while they were talking about a peace 
agreement they were involved in attacking cities surrounding 
the area they control. So you can't trust those guys. You have 
to deal with them from a position of strength. That means we 
have to get them the military assistance they need, and we have 
to get it down there to them as quickly as possible.
    Now, a lot of the things that are supposed to be in the 
pipeline have not yet been delivered. I don't have my figures 
right here in front of me. But there are a lot of things that 
the Defense Department was supposed to get down there that 
haven't been sent.
    Aid not delivered or operational to Colombia: Three UH-60 
Blackhawk helicopters, which I mentioned; funding for 
operations and support for Colombia National Police Air Wing, 
$6 million.
    Funds that are programmed, but not spent: Procurement of 
mini-gun systems and ammunition for Colombia National Police, 
$3.2 million.
    Things that are partially delivered: Reconstruction of 
Miraflores counternarcotics base. That was canceled. That was 
$2 million.
    Moneys to be reprogrammed: Security enhancements for 
forward locating Colombia National Police bases, $6 million.
    And I can go on and on and on. There is a whole bunch here.
    Podded radar for aircraft reprogrammed, $5 million; DC-3 
operating funds, $1 million.
    There is a whole list of these things.
    We learned at our last hearing here at the subcommittee 
there are still items from the 1997, 1998, and 1999 drawdowns 
which I was just talking about, excess U.S. military equipment 
that has not been delivered to the CNP. Why haven't they been 
delivered? Well, probably because Secretary Albright had been 
told that it wasn't necessary for that stuff to be down there, 
like the helicopters.
    It is necessary. It should have been done previously. I am 
glad it is being looked into and done now. Better late than 
never. But we need to get on with it.
    And one other thing I would like to say. The DANTI forces 
down there, the part of the CNP that has been dealing with the 
drug problem, have experience in this area.
    The proposal made by the administration is going to give $1 
out of every $17 to the CNP and the rest to other agencies, 
mainly the Colombian military which do not have the expertise.
    Now General McCaffrey will probably tell us today that the 
CNP does not have the ability to get all around the country 
like the army does. Well, they would have if we had gotten the 
materials down there to them earlier, the Blackhawk and other 
things; and that can still be done.
    In any event, we welcome the administration to this fight. 
Congress is not trying to micromanage, we are just trying to 
make sure the job gets done before we have to send American 
young men and women down there. We don't want that to happen. 
We don't need a war we are involved in in Central America. But 
if we don't do something about this situation rather quickly, 
we are going to have a big problem, and we may have to be 
involved.
    So let me end up by saying I appreciate the administration 
seeing what needs to finally be done. We appreciate their 
participation, and I hope we get on with it as quickly as 
possible.
    [The prepared statement of Hon. Dan Burton follows:]

    [GRAPHIC] [TIFF OMITTED] T6788.014
    
    [GRAPHIC] [TIFF OMITTED] T6788.015
    
    Mr. Mica. I would like to recognize the gentleman from 
Massachusetts, Mr. Tierney.
    Mr. Tierney. I thank you, Mr. Chairman. But with my voice 
the way it is, I think I will wait for the question and answer 
period. Thank you.
    Mr. Mica. I will go to Mr. Gilman, chairman of the 
Committee on International Relations and also a member of our 
subcommittee. You are recognized.
    Mr. Gilman. Thank you, Mr. Chairman; and I want to thank 
you for today's hearing and keeping focused on the Nation's 
drug policy. And we welcome our witnesses who will be here, and 
particularly General McCaffrey.
    These hearings and your continuous interest, Mr. Mica, in 
the vital issue of drug trafficking, have helped keep the heat 
on our Nation's policy, which has been notoriously slow to 
react to the threat which illicit drugs pose to our Nation's 
security.
    Colombia, now the source nation for more than 80 percent of 
the world's cocaine and most recently up to 75 percent of the 
heroin sold or seized on our streets, is a major national 
security concern, not only for our Nation but it should be 
similarly for the rest of the world as well.
    For years, many of us in the Congress have been urging the 
administration to pay attention to what is happening to our 
neighbor to the south. Colombia is now capable of producing 
more than 400 tons of deadly cocaine annually. That massive 
drug production capacity, along with Colombian drug lords' 
creative ability to market and to create demand for heroin here 
in our own Nation, should be a wake-up call for both our Nation 
and for Europe. It should set off an alarm throughout the globe 
for everyone truly concerned about the safety and security of 
our young people and communities in the scourge of illicit hard 
drugs originating in America's backyard.
    We had good testimony the other day when you arranged that 
summit of world leaders with regard to narcotics, and I was 
pleased that General McCaffrey was able to be there to hear 
their concern as well as our own.
    The administration, which regrettably fought us tooth and 
nail a few short years ago over just a few helicopters for the 
narco-police to be able to eradicate the growing opium and coca 
leaf production in Colombia, fortunately is now sounding the 
alarm by the beleaguered Andean nation. And the Supreme Court 
Justice Felix Frankfurter once said, ``Wisdom too often never 
comes and one ought not to reject merely because it comes 
late.'' Let us hope it isn't too late for the case in Colombia.
    We now welcome these serious concerns about Colombia and 
about our drug policy. Along with many of my colleagues in the 
Congress, particularly in this committee, we have raised 
similar concerns years ago when Colombia became a major player 
in the heroin business and again in 1997 when it first became 
the world's greatest coca leaf producer, exceeding Peru.
    We are pleased that General McCaffrey, our Nation's drug 
czar, will be testifying this morning.
    General McCaffrey, we want to congratulate you on the new 
counternarcotics intelligence sharing plan which you announced 
yesterday at the White House to improve coordination and 
information sharing. Hopefully, with the help of this new 
program, in the future we can avoid being caught off guard on 
developments like the Colombian and heroin crisis we are now 
facing.
    Yesterday, General McCaffrey stated, ``We have a drug 
emergency in Colombia. Support for the administration's plan is 
critical if we are going to be able to stop increased 
production in Colombia from outstripping gains made in the rest 
of the region.''
    Now that we have admitted that the serious problem exists, 
we can start going about treating the cause in Colombia.
    The President of Colombia, recently on 60 Minutes, hit the 
nail on the head on what the problem is. According to President 
Pastrana, the $1 million to $2 million a day which insurgents 
earns from drug trafficking now threatens his nation's survival 
as a democracy.
    Until recently when Congress took the lead, we had averaged 
less than $100 million to United States counternarcotics aid to 
Colombia each year. That is equal to 6 weeks' income from the 
Colombian narco-guerrillas. These massive amounts of illicit 
moneys make them the best-armed, the best-trained, the best-
equipped guerrillas anywhere in the world with their war chest 
financed from the sale of drugs. Hopefully, now the 
administration is getting serious, and it needs to treat 
Colombia as a serious national security regional threat.
    Several past Presidents have called our drug crisis a 
national security threat. Only when we get this serious and 
when we give the courageous Colombians, like General Jose 
Serrano, whose antidrug police is DANTI, the means and 
sustained support for their fight against drugs at the source, 
can we expect to turn this crisis around.
    Regrettably, I am skeptical of the State Department's 
performance. Witness that latest mess that Congressman Dan 
Burton just mentioned, the delivery of armor flooring which did 
not fit the Blackhawks which we had earlier provided to the 
antidrug police, causing them to sit on the tarmac for months 
without the ability to participate in Colombia's drug war.
    These endless series of failures don't give us much 
comfort. It is essential that we face the reality that there is 
a narco-based war raging in Colombia; and the good guys, our 
friends and neighbors in Colombia, are losing. Our national 
security is at stake, and so is the future of Colombia, and so 
is the future of many other nations.
    It is encouraging that yesterday a high-level United States 
delegation went to Colombia to meet with their leaders to 
discuss Speaker Hastert's $1.6 billion aid package to Colombia 
that will escalate Colombia's war on drugs. We will be taking 
up that planned Colombia aid package in early March.
    I look forward to our witnesses' testimony today, Mr. 
Chairman; and particularly I am anxious to hear how the 
administration reached its decision to heavily tilt this 
counternarcotics aid package toward the military over the 
police. As we all know, the elite antidrug police in Colombia 
have a proven track record fighting drugs consistent with the 
fundamental respect for human rights.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    I would like to recognize now the gentleman from Ohio, Mr. 
Kucinich. You are recognized.
    Mr. Kucinich. Thank you very much, Mr. Chairman; and I want 
to compliment you on your sensitivity to these issues. I think 
your leadership in the Congress in this area has been 
important.
    I want to say from the outset that the administration has 
worked cooperatively, as I understand, with President Pastrana 
in trying to create an environment which would be conducive to 
the maintenance of that democracy. I think that as we review 
the testimony today, we are going to see that the quality of 
the democracy is in danger because of this narco-terrorism.
    I think that General McCaffrey has certainly given us solid 
leadership in trying to see the U.S. interests are protected. 
But I hope that in the hearing today we will be able to 
determine the extent to which President Pastrana's efforts 
toward trying to achieve a peaceful negotiation with FARC has 
been undermined by the rising narcotics trade in Colombia and 
that if we can see what the linkages are with not only FARC, 
but any of the other elements that are involved in narco-
traffic we can perhaps learn a little bit better why efforts 
toward peaceful resolution have been frustrated.
    I want to again thank the Chair for his leadership, and I 
look forward to reviewing this testimony. I have, as I am sure 
some Members do, competing claims on my time right now. But I 
do want to thank you for pursuing a necessary, important 
subject. Thank you.
    Mr. Mica. I thank the gentleman.
    I now recognize the gentleman from Connecticut, Mr. Shays.
    Mr. Shays. Thank you.
    I deeply regret that President Clinton, when he took office 
in 1993, deemphasized the war on drugs and cut the drug czar's 
budget by nearly half in the first 2 years. Colombians have 
been fighting the drug war for years with their lives.
    Over 10 years ago, I went to Bogota with a delegation of 
Members of Congress to visit with government officials and the 
victims of the bombing of their DAS building, which is their 
FBI building. 700 people were injured; over 70 were killed.
    It is true, Colombians export the bulk of drugs to the 
United States. But it is equally true that we, the United 
States, still export the chemicals to make the drugs. We, the 
United States, still export the weapons to protect the 
terrorists and drug lords. And we, the United States, still 
export the dollars to pay for the drugs.
    We clearly have a practical and deep moral obligation to 
help our brothers and sisters in the south fight this drug war.
    Mr. Mica. I thank the gentleman.
    The gentlelady from Illinois is recognized.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    I wanted to raise some serious questions that I raised last 
August when we had a similar hearing and that I feel still have 
not been answered and are now being also raised by other 
credible voices, including the New York Times and Chicago 
Tribune editorial boards and former Ambassador to El Salvador 
and Paraguay, Robert White.
    The administration's $1.3 billion aid package to Colombia, 
$955 million in security assistance puts the United States at a 
crossroads. Do we invest in a militaristic drug war that 
escalates the regional conflict in the name of fighting drugs, 
or do we attack the drug market by investing in prevention and 
treatment at home and seek to assist in stabilizing Colombia?
    According to the General Accounting Office, ``Despite years 
of extensive herbicide spraying, United States estimates show 
there has not been any net reduction in coca cultivation. Net 
coca cultivation actually increased 50 percent.'' And this 50 
percent increase in coca cultivation comes after $625 million 
in counternarcotics operations in Colombia between 1990 and 
1998.
    So, considering that demonstrated failure of militarized 
eradication efforts to date, why should we believe that 
investing even more money in this plan will achieve a different 
result? And what will it take to achieve total victory in 
Colombia? Are we prepared to make that type of investment in 
dollars and in lives? How many lives? And, if not, what is the 
purpose of this aid?
    Considering the fact that more than 100,000 civilians have 
died in Colombia's civil war and five servicemen perished on 
our reconnaissance flight last year, is it ethical to escalate 
the war in Colombia in order to prevent Americans from 
purchasing cocaine? Will the aid achieve a 10 percent reduction 
or a 20 percent reduction or a 50 percent reduction in drugs? 
What is the target amount? Or is the purpose to degrade the 
military capability of the FARC or bomb them to the negotiating 
table?
    I am mystified that there is nothing in this package aimed 
at paramilitary groups, despite their known involvement in the 
drug trade. And why are we investing so heavily with so few 
accountability measures in the Colombian armed forces, which 
has long had a history of human rights violations, including 
support for military groups?
    The New York Times on Sunday warned, ``Washington should 
have learned long ago that partnership with an abusive and 
ineffective Latin American military rarely produces positive 
results and often undermines democracy in the region.''
    Exactly what is it that we believe this aid will 
accomplish? Is it the first in a series of blank checks for a 
war with no foreseeable end game? What is the exit strategy? 
With the continued failure of a military solution to drug 
production in Colombia, why shouldn't an innovative alternative 
development approach be used instead? Why not spend half or all 
the money on crop substitution or development?
    A landmark study of cocaine markets by the RAND Corp. found 
that providing treatment to cocaine users is 10 times more 
effective than drug interdiction schemes and 23 times more cost 
effective than eradicating coca at its source.
    If decreasing drug use in America is the ultimate goal, why 
aren't we putting equal resources into domestic demand 
reduction where each dollar spent is 23 times more effective 
than eradication? Today we are discussing $1 billion plus for 
Colombia, and yet we aren't doing enough for treatment here at 
home.
    A recent study by researchers at SAMHSA, the Substance 
Abuse and Mental Health Service Administration, has indicated 
that 48 percent of the need for drug treatment, not including 
alcohol abuse, is unmet in the United States. Why is it that we 
can find funds for overseas military operations while 
continuing to ignore the enormous lack of drug treatment here 
at home?
    Mr. Chairman, before becoming entangled in a foreign war, 
it seems to me that the Congress should use its oversight 
authority to require the administration to explain how this 
escalation will reduce illicit drug use at home better than 
investment in prevention and treatment in the United States.
    The administration should also explain how increasing funds 
for a policy will change the result when past increases and 
support have not changed the outcome. These troubling strategic 
issues need to be resolved in a satisfactory manner before we 
increase our involvement in Colombia.
    I appreciate your indulgence on the time. I thank you very 
much.
    Mr. Mica. I thank the gentlelady. I look forward to General 
McCaffrey's response to some of the points she has raised. This 
must be fun, General, to get it from both sides here.
    Let me recognize, if I may, the gentlelady from Florida, 
Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    As you pointed out in your opening statement, Colombia is 
one of our oldest democracies; and it is a shame to see this 
beautiful country mired in crisis after crisis with the 
increasing control of the narco-guerrillas in Colombia and in 
surrounding areas with the increase in coca production.
    When the U.S. Congress does step in and try to help the 
Colombian people who have sacrificed so much, as Mr. Shays has 
pointed out, with their own blood in this ongoing drug war, the 
administration looks like the Keystone Kops, sending in the 
wrong armor kit to fund the Blackhawk helicopters that 
especially Mr. Burton and Mr. Gilman have fought so long to 
give to the Colombians to fight the narco-guerillas. We sent 
them the wrong armor kit to outfit these Blackhawks. We sent 
them outdated and useless ammunition and also sent it to the 
wrong place.
    And while all of this crisis looms over Colombia and law-
abiding Colombians pay the price, the continuing threat of the 
tentacles of FARC looms over all the neighboring countries. 
Because hemispheric stability is very important to United 
States interests, what happens in Colombia can have a 
devastating effect on the very fragile democracies of 
Venezuela, of Ecuador and Peru. And to say nothing, as the 
gentlewoman from Illinois pointed out, of our ongoing crisis 
here in the United States, our alarming drug statistics, the 
increasing number of young people who are dying from drug 
abuse.
    So I agree with what Chairman Burton had said, that this is 
not a war on drugs just for Colombia, that this is a war that 
has got to engage all of us. It is an international war on 
drugs. It is not just a domestic war.
    And we need to ask some real questions in the coming months 
as the debate heats up on this aid package: Will this aid 
package work? Is it going to do what we hope that it will do? 
Are the funds going to the right organizations? Is it correct 
to continue to fund the Colombian military? And should we be 
increasing the role of organizations such as the CNP?
    So we look forward to engaging the administration at long 
last on this very important topic, and we hope for the sake of 
our young people and for the sake of stability in our southern 
neighbors that we will have an end soon to this narco-drug war. 
And we think that it will be once we get engaged and once we 
give the proper folks the tools they need to get rid of this 
venom that is increasing its deadly toll on our young people.
    Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentlelady.
    I now recognize the vice chairman of our panel, the 
gentleman from Georgia, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Chairman, you indicated that you look forward to the 
General perhaps enlightening the gentlelady from Illinois whose 
hostility to helping Columbia has blinded her to the facts. One 
doesn't even have to wait in order to hear from General 
McCaffrey. One simply has to look at the facts and look at what 
the General released in his written testimony.
    Demand reduction activities account for 32.3 percent of the 
national drug control budget. That is one-third. International 
efforts are only 8.4 percent of the budget, and interdiction 
activities are only 10.4. So, by any measure, the amount of 
money that we are expending for interdiction and international 
efforts is, in fact, currently far less than that devoted to 
demand reduction.
    Perhaps the gentlelady's hostility to interdiction in 
international efforts might be directed to asking some very 
tough questions of the administration as to what is happening 
to all of that demand reduction money that is already being 
placed into treatment, prevention, and research. That might be 
a little bit more productive.
    The gentleman from Indiana, the chairman of the committee, 
was very kind, as he usually is, and very soft in his 
statements. He used the word--the term ``screw-up'' several 
times. I think a better word is sabotage. Very few things 
happen at the Department of State or at any agency of our U.S. 
Government simply by incompetence or mistakes. In my 
experience, Mr. Chairman, things happen because they are 
planned to happen that way. Steps are taken or not taken 
because an intended result is sought to be accomplished. 
Sometimes that intended result can be accomplished by taking 
positive action. Sometimes, as in the case of this 
administration and this Department of State, and frequently, it 
is accomplished by not doing certain things.
    In fact, I believe that the lack of equipment going to the 
heroic efforts of General Serrano and the Colombian Government, 
in fact, is a calculated effort by the State Department to 
sabotage our efforts to get the material, to get the resources 
to the forces in Colombia that are fighting the narco-
terrorists and is not the result of simple incompetence. I hope 
that this hearing today and the other hearings that we have in 
the future will highlight that.
    Mr. Chairman, I would ask unanimous consent, at this point, 
to have inserted in the record an article that you authored 
which appeared today in the Washington Times entitled, ``Was 
war on drugs sabotaged'' which, as is par for your writings and 
your comments, was direct, to the point, substantiated by 
substantial references to the record and facts. And I ask 
unanimous consent to have them inserted.
    Mr. Mica. Without objection, so ordered.
    Mr. Barr. During the course of these hearings and future 
hearings--and I know, Mr. Chairman, both you and the two other 
chairmen that are with us today, Mr. Gilman and Mr. Burton, 
intend to have further hearings as well--I do hope that one of 
the things we focus on is that we, and our partners in 
Colombia, learn from success. Frequently, people don't learn 
from their mistakes; we are refusing to learn from our 
successes.
    When we had a balanced, comprehensive, tough policy against 
drugs in the Reagan and Bush years, the success was palpable. 
We saw demand reduced. We saw the use of drugs, particularly by 
teenagers, drop dramatically when our colleague, President 
Fujimori in Peru, took tough, consistent steps. One of his 
policies was, ``you fly, you die,'' his shoot-down policy. 
Amassing troops in areas such as the northern border of Peru, 
bordering the southern region of Colombia, amassing troops 
there and taking concrete steps in Iquitos and the riverine 
traffic areas has paid tremendous dividends.
    That is why, as General McCaffrey has stated in his written 
testimony, the production of raw coca and the production of 
cocaine in those two Andean countries to the south of Colombia, 
Peru and Bolivia, has dropped dramatically.
    This didn't happen by chance or screw-up. It happened 
because those countries are taking a tough, consistent, 
aggressive stance against these people. They don't negotiate 
with them; they fight them, and the sooner the Colombian 
Government realizes that, the sooner we can get people in the 
administration that realize that, then we will continue to see 
the successes that we saw earlier in the 1990's and that we are 
not seeing today.
    While I certainly agree with Chairman Burton in saying that 
to the administration, we would rather have them here later 
than not at all, that is not the end of the game. We have to 
monitor this assistance if we can get it through the Congress 
and the President signs it, because this administration has a 
sorry record of not doing what the law provides.
    We even had a United States Ambassador to Colombia appear 
before one of our committees a couple of years ago who 
basically said, under oath, in response to questions as to why 
the law was not being carried out in Colombia by him, he said, 
well, I work for the President, and if I'm directed not to do 
something, then I don't do it.
    That is the sort of problem that we have here, Mr. 
Chairman, and I commend you for holding these hearings and the 
future hearings, and the other chairmen who are here today, to 
not only get to the bottom of this but to constantly draw 
attention to what is happening with this administration and why 
we are losing the interdiction effort when the success stories 
are out there. What works, we know works. It has worked in the 
past, and let's use it now.
    Mr. Mica. I thank the gentleman.
    I now recognize the gentleman from Indiana, Mr. Souder.
    Mr. Souder. I think it is sad that we are at this point 
when we could see many years ago that we were going to get to 
this point. And I do believe that we were slow in getting 
there. But I also want to thank not only General Serrano and 
the people in Colombia who have been dying and fighting because 
of the drug abuse in this country but to thank General 
McCaffrey because, I think, since he has come in, he has 
aggressively fought inside an administration that had seriously 
neglected this problem and has been an advocate internally.
    I want to thank General Wilhelm and Randy Beers, who have 
been through many battles as we tried to get additional 
narcotics funding.
    I have been down there for 5 straight years. I have worked 
to get the Blackhawk helicopters to the police. We have battled 
over every dollar. We argued about the diversion to the Balkans 
when I believe that the compelling national interest was in the 
Southern Hemisphere.
    Clearly, our No. 1 oil supplier is Venezuela. Colombia is 
our second biggest supplier of oil by-products. We have the 
Panama Canal now questionable whether it can be defended with 
the narcoterrorists continuing to move up from the Darien 
peninsula, in addition to the children dying in Fort Wayne and 
all over this country because of this drug program.
    Clearly, this is a compelling national interest, and we 
need to figure out how to best accomplish the goals as fast as 
possible. As someone who has been aggressively an advocate of 
the best equipment possible, and the Blackhawks, I think we 
need to look at our mix package to see how much we can get 
delivered, how fast, what is the most effective mix.
    I think we need to look at the question of--I understand 
the argument that the national police may not be able to carry 
out all this battle without the defense and the military, and I 
agree with that basic premise, but we need to make sure that 
when we are transferring the funds to the military that, in 
fact, they change, which they are committed to trying to 
change. But I don't want to hear about them only having non-
high school graduate draftees, as opposed to volunteer people 
at adequate numbers that have been trained who have a long-term 
commitment to this group, like they do to the national police, 
and that this is an elite unit.
    Because if we pour these dollars into a defense department 
that, in fact, has not developed an elite unit, they will be 
wasted dollars, and then the charges will become true in and of 
themselves. That suggests that in the phase-in process, we may 
want to have a little bit different mix as their defense 
department and their military gets up to speed.
    We know the human rights record of the national police. I 
believe that this administration under President Pastrana and 
the new defense minister are committed to cleaning up the past 
problems in human rights, whether it be with the right-wing 
terrorist groups or with the paramilitary or the FARC or the 
ELN. But, in fact, we need to make sure of that before we put 
all of our eggs, or the bulk of our eggs and dollars, in this 
one area.
    So I hope we will have a fair debate as we work through the 
specifics of the package. I believe that there are people in 
this administration who have been battling, and it is good to 
see that the President is now on board, too. We need to figure 
out how to reduce this incredible increasing supply coming into 
our country and work together to get it done.
    I yield back.
    Mr. Mica. Thank you.
    And recognize now the gentleman from California, Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. I am pleased to be here. 
I came this morning primarily because every time I have the 
opportunity to visit with General McCaffrey, I learn something 
new, and I am grateful for his appearance today.
    Of specific interest to me today--and I regret he is not on 
the witness list, is I was hopeful of visiting with Mr. Beers 
about what intestinal fortitude it took to actually come 
forward with the news that we had been so brilliant as to 
deliver 50-year-old ammunition to the Colombian National Police 
and then turn around and replace that by shipping 50,000 more 
rounds to the State Department. I understand Foggy Bottom is 
not very dangerous this time of year, but I was hopeful that we 
would have an adequate explanation from that.
    General McCaffrey, I have the utmost respect for you. You 
have the most difficult job possibly in this entire 
administration, and I am looking forward to your testimony 
today.
    I yield back.
    Mr. Mica. Thank you.
    I think that concludes our opening statements. I want to 
take just a moment to thank the members of our subcommittee and 
also Mr. Gilman, who chairs the International Relations 
Committee, the Speaker of the House, Mr. Hastert, for their 
cohosting the recent International Drug Summit that our 
subcommittee and committee participated in, and the chairman of 
our full committee, Mr. Burton, for also helping to sponsor 
that, and everyone who participated.
    We brought together nearly 50 parliamentarians from around 
the world, representatives of other congresses, leaders in the 
international antinarcotics efforts, heads of Europol, 
Interpol, and also demand and treatment programs from 
throughout the world because we know we cannot win this war on 
drugs fighting it alone.
    I also want to pay particular tribute and thanks to General 
McCaffrey who was a full participant in those proceedings, and 
hopefully they will be productive and fruitful.
    With that, I would like to now recognize our first panel, 
and that consists of one individual who is well-known to all of 
us, General Barry McCaffrey, who is Director of the Office of 
National Drug Control Policy.
    Welcome back. I think you saw that we have some diversity 
of opinion, certainly no loss for words.
    And I would like to, again, advise you this is an 
investigations and oversight subcommittee of Congress. If you 
would stand, please, sir, and be sworn. Raise your right hand.
    [Witness sworn.]
    Mr. Mica. Thank you.
    General, welcome back. This is a very serious topic. To 
update members of the panel, the latest statistics we have 
received is, in 1997, 15,973 Americans lost their lives to 
drug-related causes and over 100,000 probably since 1992. So 
this has an incredible impact on our society.
    With those opening comments, General, we will not run any 
clock on you; and we appreciate your patience in hearing the 
diversity of opinion from our panel and welcome your testimony.

 STATEMENT OF GENERAL BARRY R. MCCAFFREY, DIRECTOR, OFFICE OF 
                  NATIONAL DRUG CONTROL POLICY

    General McCaffrey. Well, thank you, Mr. Chairman, to you 
and Congresswoman Mink, the opportunity to meet with you to 
respond to your own interests and to try and put some context 
in what has been an enormously complex and challenging problem 
that we have faced over the last several years. One, which I 
might add, that I bring sort of an unusual historical 
perspective to, having worked not only for 4 years in the 
current position as drug policy director but also 2 years prior 
to that, happier times I can assure you, as commander in chief 
the Southern Command, proceeded by several years of service on 
the Joint Staff working for General Powell. And I would be glad 
to try and put into perspective what it is we are trying to 
achieve and how we're going about it.
    Let me also, if I may, thank you for including the right 
people in this hearing: Ambassador Pete Romero, Assistant 
Secretary of Defense Ana Maria Salazar, DEA Ops officer William 
Ledwith and most particularly, CINC U.S. Southern Command, 
General Charles Wilhelm. All have been enormously effective 
partners in this effort.
    Someone who is not here today and has actually been the 
quarterback of this effort is Tom Pickering, who, with an 
interagency team of Randy Beers and others, is now in Colombia 
dealing with just this issue.
    So I think your timing on the hearing is appropriate, and I 
welcome the diversity of viewpoints represented in your opening 
statements.
    Let me also take note that you called former Ambassador to 
Colombia Morris Busby, a figure of enormous courage and 
dedication to this issue and currently Council on the America's 
President, former Ambassador Ted McNamara, another extremely 
knowledgeable and thoughtful person on the issues we face.
    I am going to give you five brief sets of comments to show 
you where we are, and then I'll be glad to respond to your own 
interests.
    Let me, if I may though, begin by asking your permission to 
put into the record both written comments and copies of the 
charts I will show you. We have done a tremendous amount of 
work to capture the numbers that will allow us to have an 
adequate policy debate on this issue.
    Mr. Mica. Without objection, that material will be made 
part of the record.
    General McCaffrey. Chris, if you would go ahead and take 
down that first chart.
    Let me, if I may, talk generally to this issue. First of 
all, to say that we do have an overall strategy, U.S. national 
drug strategy. What we are talking about is goal No. 5: How do 
we reduce the supply of drugs, both foreign and domestic? And 
this national strategy has a classified secret annex in which 
we lay out the supporting symmetrical guidance to overseas 
intelligence, law enforcement, the armed forces, et cetera.
    It's working pretty well. The general element of the 
national drug strategy on the north-south axis was to build 
multinational cooperation, and so we are trying to move from 
what I would characterize as a series of bilateral 
confrontations to one of multinational cooperation.
    On 4 October, in Montevideo, Uruguay, we signed an 
enormously important document. It came from the Santiago Summit 
of the Americas. It basically committed all of us in the 
hemisphere to building practical ways of cooperation not only 
in the obvious ways--intelligence sharing, interdiction, 
extradition, evidence sharing, precursor chemicals--but also 
indeed to broaden this discussion to include demand reduction 
topics, science, and media campaigns targeted to reducing 
consumption among adolescents. We think we are moving that 
general larger concept in the right direction.
    The second thing we did was we went to the Andean Ridge. 
It's important for us to understand the overview facts. The 
supply of drugs in the world grossly exceeds U.S. demand. We do 
not consume most of the drugs in the world. We roughly consume, 
as an example, around 3 percent of the world's heroin. We 
roughly consume a quarter of the world's cocaine. Our problem 
is we have too much money, and so our money fuels international 
crime and indeed one could argue has a corrosive impact on 
democratic institutions through violence and corruption.
    Having said that, the cocaine in the world comes out of 
three nations essentially: Peru, Bolivia and Colombia. And, in 
sum, these numbers I placed into the record now to give you the 
CNC's overview of where we are; we have achieved dramatic 
successes in two of those countries. Peru, the dominant 
cocaine-producing nation on the face of the Earth, under 
President Fujimori's leadership has reduced production by more 
than 66 percent. Bolivia, under the Banzer-Quiroga team, has 
cut down in a very short period of time, essentially 2\1/2\ 
years, production by more than 55 percent.
    I have personally seen this. This comes out of our CIA crop 
analysis studies. I have flown over the Chapare Huallaga. The 
coca is disappearing from the valley floors. They are on the 
right track. And we ought to be a little modest in claiming 
undue credit on this, because I would argue it was the 
political will of the Peruvians and the Bolivians and their 
police forces and democratic institutions that achieved most of 
it. But we are moving in the right direction.
    The problem is Colombia. We have just published in the last 
3 weeks a revised past crop estimates on cocaine production. We 
went back and revised our algorithm on alkaloid content in the 
plants. They have a new species they are using. We went back 
and looked at laboratory effectiveness. They are using new, 
better industrial techniques. And we looked at, of course, our 
very solid data of overhead satellite photography, and we came 
up with an analysis that suggests that cocaine production in 
Colombia has gone up 140 percent in a little less than 4 years.
    Today--yesterday, we released the crop estimates for this 
year. Colombia produced, in our view, 520 metric tons of 
cocaine. It is astonishing. We're talking 70 percent or more of 
the world total. And that cocaine, we would argue, is at the 
heart and soul of the incredible impact that 26,000 armed 
people are having on Colombian democratic institutions.
    The FARC, the ELN, the AUC, so-called paramilitary 
terrorist groups, if they were just using bank robberies, 
kidnappings, extortion, blowing up the oil pipelines, Colombia 
would be in mayhem. But when you add to that total in President 
Pastrana's terms a million or two a day, we're talking money of 
$300 million to $1 billion a year.
    So when you see the video outtakes of the FARC units in the 
field, they are wearing shiny new uniforms. They have more 
machine guns than the Colombian infantry battalions have. They 
have planes and helicopters and wiretap equipment, and they are 
assassinating mayors and intimidating journalists and 
corrupting public officials.
    And, oh, by the way, it is not just in Colombia. It has 
spilled over in a significant way in the neighboring regional 
partners of Venezuela and Ecuador and Panama in particular, and 
it has an enormous impact on the United States.
    And if you would allow me to correct the number I am trying 
to drive into our public debate, it isn't 14,000 dead a year. 
It is 52,000 dead a year.
    Your congressional funds went to do a recent study that 
went through the autopsy reports across the Nation, and that is 
our view of the unmistakable impact of drug abuse by 6 percent 
of our population on the death rates, along with the $110 
billion in damages, along with the fact that it drives our 
criminal justice system, our health care system, and our 
welfare system.
    And as you look at the Andean Ridge, Colombia is now the 
nexus, the center of mass of 80 percent of the illegal drugs 
coming into America in terms of heroin and cocaine. And we 
think we need to stand with democratic partners in the region.
    Let me, if I may--go ahead and put up the next chart--
again, show you the numbers and to show the drug problem, which 
is my legal responsibility. My portfolio is related 
unmistakably to two other problems. One of them is the peace 
process. And I think there is no question, the misery of the 
Colombian people, which has been caused by decades of endemic 
violence, almost unimaginable violence with no apparent 
outcome, is the top national priority not only for the 
President but for the people, the 36 million people that live 
in this country.
    And yet when you look at it, as long as the FARC, the ELN 
and the paramilitaries have this tremendous wealth, if there is 
no quid pro quo, if there is no reward and punishment, why 
would they talk instead of fight?
    Now, the third issue that President Pastrana has to face up 
to is the economy. Colombia is a huge country, and I have been 
trying to correct ``tiny Colombia'' to remind us it is probably 
a third to part the size of Western Europe. It has got a lot of 
people. They are wealthy in terms of natural resources--oil, 
gas, flowers, coffee beans, et cetera. They have tremendous 
economic potential, and they have had smart economic 
leadership. But they are in an economic crisis--20 percent 
unemployment, enormous impact on the inflation rate. Why would 
anyone invest in Colombia with 26,000 people in the field who 
will abduct you and torture you until you pay money to get 
free?
    And so Colombia has become a net importer of food. And 
there is a strong argument out of our own intelligence system 
that within the coming 5 years or so they may actually turn 
into a net importer of energy. It is an outrage, and, again, it 
comes from the drug issue.
    Next chart.
    We can't just deal with Colombia. Several of you made that 
point. I think you're quite correct.
    We've done an enormously good job in supporting Peruvian 
and Bolivian authorities. And as you look around the world, 
particularly the DEA with their worldwide mission has been 
skillful in creating new realities. But, in this region, we 
have to take into account with the package, the $1.6 billion 
that we forwarded to Congress, that this is not a Colombian 
problem. It is regional. So you will see in there significant 
assets first for Peru and Bolivia, and both the Vice President 
of Bolivia and the Prime Minister of Peru have been up to see 
me to express their view that there should be more. I think the 
logic is tenuous, but I am not prepared to argue publicly 
against it.
    There is money in here potentially--we have not made the 
final calls on Brazil, Venezuela--we have a problem with 
overflight--as well as Panama and other nations. We clearly see 
Ecuador as involved in the drug issue.
    We have got to approach this as a regional problem. And, 
finally, we can't do this if we don't provide CINC U.S. 
Southern Command with the assets they require to support the 
effort with adequate air interdiction assets and, second, if we 
don't give them the intelligence collection tools and training 
tools he needs to do its job. And with the enormous drawdown in 
the Department of Defense and with the kind of assets that are 
being retired out of the force, we are inadequately supporting 
our CINC in the U.S. Southern Command. We're going to have to 
think through this and sort out how do we go about it.
    Fortunately, we have had U.S. Customs Service step in and 
provide a tremendous air interdiction and surveillance 
capabilities as well as other government agencies. The U.S. 
Coast Guard has done a superb job also with FLIR aircraft and 
direct intelligence collection. A regional problem. Thank you.
    Chris, next chart.
    We sent over a plan totaling $1.6 billion. We look forward 
to hearing your own viewpoints on this plan. It's not written 
in concrete. There is something important, though, to 
understand about the $1.6 billion. We can't talk about it 
unless it's in the context of the Colombian devised strategy, 
``Plan Colombia.'' We cannot substitute United States thinking, 
certainly neither among congressional staffs nor in the 
administration, for having the President of Colombia, its 
Minister of Defense, Foreign Minister, Interior, PLANTE and 
others, devise their own approach to this; and that is what we 
did.
    They have come up with a document. It's conceptual in 
outline. It needs meat on it. It is not yet a planning 
document. But it called for $7.5 billion. That was $4 billion 
out of the Colombian budget. That's where the CNP is getting 
resourced. It called for $3.5 billion out of the European 
Union, international banks, et cetera. And that's where an 
enormous amount of what I think is a very coherent, integrated, 
alternative economic development, building judicial systems, et 
cetera. That's where the preponderance of that money will come, 
from their international loans as well as support from the 
European Union, a process in which the administration has 
actively supported their attempts to gain international 
support.
    And I tell you that because, otherwise, one could make an 
argument that I think is incorrect, that it doesn't take into 
account the broader requirements in Colombia.
    Now if you look at $1.6 billion itself, to simplify it, it 
is a $950 million supplemental, and it is a $350 million add-on 
in fiscal year 2001 budget to the $300 million we already had 
in there for the Andean Ridge.
    If you look at the total package, essentially 85 percent of 
it goes to Colombia. The rest goes to Peru and Bolivia. They 
are just about flatlined, I would argue, at fairly high levels 
of resources. We have not decremented them as coca production 
has plunged.
    Of the remainder of the program, if you look at it, half of 
it is a mobility package. That's what that is. It is 63 
helicopters, 30 Blackhawks, 33 UH-1Ns rebuilt, with the 
operational requirements of spare parts, the training package 
to get the crews. That's what it is. And that mobility package, 
in our view, in the Colombian plan allows Colombian democratic 
institutions to regain sovereignty over their own terrain, 
particularly in the south.
    And I'll be in Colombia next Tuesday through Thursday. We 
are going to Tres Esquinas. As you land in Putumayo or anywhere 
down in that southern zone, essentially a third of the land 
area is under coca cultivation. It is unbelievable. And there 
are five FARC fronts down there, thousands of them armed to the 
teeth, and they are targeting our aircraft going in and out of 
those fields right now.
    This is, in that part of Colombia, an out and out war over 
drugs. And I would add to that, if you would allow me, some 
notion of are--what's the debate between supporting the police 
and the armed forces? In our view, this should be Colombian 
strategic thinking, not United States. But I would tell you 
straight up, the Colombian police, who are enormously 
courageous, this General Serrano has cleansed their ranks. He 
fired 3,000 cops when he took over. By and large, they are 
doing pretty well as a high integrity, high courage force. 
There is 2,500 of these cops that are essentially assault 
units.
    We do not want to militarize the Colombian police and make 
anemic the Colombian armed forces. Those 2,500 DANTI cops are 
not going down south and kicking buns on five FARC fronts and 
cutting down the coca. We have to allow the Colombians to 
reassert control, and that means their navy and marine corps 
has a first-rate conceptual plan to go get control of the 
riverine system. Those are the roads down there. They have got 
to go down there and do that. The Colombian army has got to get 
back into these places on the frontier, Larondia, Tres Esquinas 
in particular, and regain control so that the police can enter 
in a law enforcement way, provide alternative economic 
development as well as crop eradication.
    That's what the Colombians are going to try to achieve. It 
looks sensible. I think it is well thought out, and I do 
believe it is achievable. Thanks.
    Finally, just if I may in sort of a conceptual outline of 
what are we trying to do down here, what is the deal. I don't 
think it is useful to any of us to waste too much time on the 
history of it. Mr. Chairman, without question, your leadership 
and others has been instrumental in achieving adequate levels 
of support for this counterdrug strategy; and I am publicly 
appreciative of what you have done, along with many of your 
colleagues.
    I think the history of it is not terribly important to me, 
but I'm worried that we not get involved in anemic political 
theater over who lost Colombia. Nobody lost Colombia, and we 
are not going to save it; 36 million Colombians are.
    Now, having said that, we all learned in college in 
freshman logic class, you shouldn't argue about facts. I don't 
think we are going to argue about facts. I think the facts are 
this is what has happened since 1995 on support to Colombia. 
These are the facts. We went up 3,500 percent in the support we 
provided Colombian authorities, 1995 to 2001. Congress had a 
great deal to do with that. But it started at 29.8, went to 
62.8, 117.5, 166, 367, and we just sent down over $1 billion. 
That's the facts.
    Now, another set of facts. I don't want us to get too far 
down in the details of one helicopter, two or three. I've got 
the details. I know what they are, and I'd be glad to share 
them with you. But I would like you to understand if you start 
in 1994 and go to 2000 on helicopters to Colombia, you find 
that we've put 28 Blackhawks in there, 10 Huey 2s, 24 Bell 
212s, 22 UH-1N.
    What about the CNP? The police? We have got 47 aircraft on 
the ground, of which 42 were provided by the United States. Is 
this adequate? No. Are there three more to go? Yes. Of the six 
we authorized, three are there minus armor packages. But you 
have got to understand, the Blackhawk, the best helicopter on 
the face of the Earth--the next time you see me I'll probably 
be peddling them, I hope--it is an incredible piece of 
machinery, but it takes 10 months to build one.
    The first three went down there in 8 months. Sikorsky has 
done a tremendous job supporting us, and there's three more to 
go, and they're customized to CNP. That is why armor kits don't 
automatically fit. And, by the way, there are 30 more in this 
plan; and, beyond that, the Colombians are going to buy 17 
more. So it is clear to me, with your support, we can finally 
get an adequate level of mobility.
    We are still hung up, Mr. Burton, on the six of them; and 
did I flip-flop. And let me just tell you again quite clearly, 
when the six helicopter question came up, I am unabashedly in 
favor of it, but not at the cost of jerking out of Bolivian and 
Peruvian INL funding at the last minute 50 percent of the 
dollars for a nation that finally started eradicating cocaine. 
That was the deal. When Congress wisely, congressional 
initiative, provided funds for six with their spare parts, et 
cetera, I was glad to support it. And I am certainly glad to 
support the robust package we've now placed in front of you.
    Final note, even on the notion of a robust package, I would 
argue that the reason to support this package, taking into full 
account the legitimate concerns on human rights and the peace 
process which need to be answered to your satisfaction, I think 
when we do this we need to understand this is a huge national 
security and health and educational threat to us. That's why we 
are doing it.
    By the way, Colombia and the Andean Ridge are important 
international partners. But the number of aircraft we are 
talking about is half the number of aircraft that I had in my 
division as one of nine United States military divisions in the 
Gulf war attack.
    So this is a reasonably sized package to let General 
Wilhelm and others, the United States Ambassador, support 
Colombian planning.
    I think we sent you something that merits your full 
consideration. I thank you for the chance to lay out this 
thinking; and I look forward, sir, to responding to your own 
questions.
    Mr. Mica. Thank you for your comments and your testimony.
    [The prepared statement of General McCaffrey follows:]

    [GRAPHIC] [TIFF OMITTED] T6788.016
    
    [GRAPHIC] [TIFF OMITTED] T6788.017
    
    [GRAPHIC] [TIFF OMITTED] T6788.018
    
    [GRAPHIC] [TIFF OMITTED] T6788.019
    
    [GRAPHIC] [TIFF OMITTED] T6788.020
    
    [GRAPHIC] [TIFF OMITTED] T6788.021
    
    [GRAPHIC] [TIFF OMITTED] T6788.022
    
    [GRAPHIC] [TIFF OMITTED] T6788.023
    
    [GRAPHIC] [TIFF OMITTED] T6788.024
    
    [GRAPHIC] [TIFF OMITTED] T6788.025
    
    [GRAPHIC] [TIFF OMITTED] T6788.026
    
    [GRAPHIC] [TIFF OMITTED] T6788.027
    
    [GRAPHIC] [TIFF OMITTED] T6788.028
    
    [GRAPHIC] [TIFF OMITTED] T6788.029
    
    [GRAPHIC] [TIFF OMITTED] T6788.030
    
    [GRAPHIC] [TIFF OMITTED] T6788.031
    
    [GRAPHIC] [TIFF OMITTED] T6788.032
    
    Mr. Mica. One of the concerns I've had is that it's common 
knowledge, and the press has reported, that Colombia is now the 
third largest recipient of United States assistance, after 
Israel and Egypt, and that funding took place, I believe, a 
year ago this past October, appropriated by the Congress.
    I tried to give a full year of time for those funds to be 
appropriated in their fiscal year up to October 1st, then 
became concerned that less than half the money was actually in 
Colombia and held several closed-door meetings, not to 
embarrass the administration, but to see if we could work 
together to get those resources on line.
    It still appears that we have problems in getting that 
equipment to Colombia, General. And now we have $1 billion-plus 
package here. What would you say that you will be able to do to 
make certain that things that have been promised--the President 
has made several pronouncements of surplus material back to 
1997, that haven't been delivered. How are we going to ensure 
that this equipment and these resources get there?
    General McCaffrey. Well, I think you have put your finger 
on an enormously legitimate concern. You know, you look at the 
management tools we have in place--the United States Embassy in 
Colombia, the interagency process here in Washington, it is 
inadequate to handle this workload. We will screw this up 
seriously if we don't put together a mechanism that is adequate 
for the challenge--assuming Congress passes the program--
adequate to the task.
    So I think the fellow who most clearly understands that, 
besides Mr. Berger, is--Madeleine Albright's asked Under 
Secretary Pickering to be our quarterback. So we are not ready 
to reveal how exactly we are going to do this. We're putting 
together a team, a high-level team to be a permanent 
secretariat for the interagency process. We have got to give 
our CINC the right guidance. We have 800 people in a 
headquarters in Miami perfectly prepared to manage heavy 
lifting, and then we're going to have to look at the U.S. 
Embassy and make sure we have got the right kinds of people.
    Mr. Mica. Well, one of the things I did on the short term 
was call in every agency. We did this behind closed doors, and 
we did it fairly regularly up to just recently. I really would 
like your assurance that you are doing the same thing. Because 
somebody has to be constantly on top of this, General.
    The other concern I'd have, and let me say--we have General 
Wilhelm who will be here. I must say that the military has been 
able to get some of the resources in place rather efficiently, 
and I think they've got one battalion trained. They had one 
incursion, I think, that was successful, as opposed to the 
Colombians getting their pants beaten off.
    But this report that I ordered from GAO came out in 
December. I'm sure you are somewhat familiar with it, and maybe 
we could put that one chart up there. That doesn't match 
exactly to this, but, this is DOD's Intelligence Surveillance 
Reconnaissance Counter Drug Aircraft Support in Central and 
South America, and it has what's requested by the Southern 
Command and then provided by DOD, and it shows actually a 
declining from 1998 to 1999--I mean, only a fraction of what 
was provided.
    There are two ways to go after this. One is stopping it at 
its source through eradication and alternative development, et 
cetera, and the other is getting it as it's coming out, but 
that requires intelligence and information.
    Now, we provided in 1998 an unprecedented amount of funds 
from the Congress for all aspects of this effort. However, in 
1999, DOD, which I think has been doing a good job with what 
they have been given, got very little of what was requested.
    What's happening here?
    General McCaffrey. Well, we've got some force structure 
problems. The military now, U.S. Armed Forces, is the smallest 
since 1939, the year my dad was sworn in as an infantry 
officer. We are moving some of the more suitable platforms out 
of the active inventory and into retirement. We have other 
worldwide assets. I won't pretend to speak to those 
responsibilities. That's sort of an overview of the challenge 
that we face on, you know, some very serious efforts.
    Now, having said that, I think one of the biggest single 
problems we had was the withdrawal from Panama. When we lost 
Airfield Howard, we lost a superb 2,000-airmen, 7-day-a-week, 
24-hour-a-day operation, providing 2,000 to 3,000 flights a 
year. That was one of the biggest problems.
    We've now reset our assets. We are operating in many 
locations. Congress has given us the funds to begin three FOLs: 
Aruba; Curacao; Manta, Ecuador. We are operating out of 
Roosevelt Roads. I believe the Customs Service has stepped up 
in a major way to support us, as has the Coast Guard. But we 
have a tremendous decrement based on the loss of Panama, 
forward basing in Panama.
    Mr. Mica. Well, General, finally, probably one of the most 
difficult parts of my job has been to deal with the parents of 
children who have died, the 50,000 and 15,900 direct deaths in 
my district. Even more so, I had to write the parents of one of 
the individuals who was killed over in Colombia who was from 
central Florida and tell them that their young person died in 
an effort so that thousands of others wouldn't die with drug 
overdoses and the ravages of drugs on our streets.
    I think one of the concerns we have heard expressed here is 
how many United States troops will be dedicated to this effort, 
and maybe you could tell us what you think this will take in 
Colombia. Now, I know there will be no fighting, but in 
training and other missions--how many individuals we will have 
at risk? Again, the toughest part of our job is when something 
goes wrong and we lose an American life in this combat.
    General McCaffrey. Well, I don't know the answer. And I say 
that--you know, I was in uniform from age 17, essentially for 
35 years. But you are also talking to a guy whose daughter is a 
captain in the National Guard, and my son is an infantry major. 
So I am very keenly aware of the threats to our young people in 
their worldwide deployments. I don't know what the answer is. I 
think we ought to tell the CINC to sort this out.
    Mr. Mica. Are we going to have double or triple the 
training folks?
    General McCaffrey. I don't know. You will have to let the 
CINC get the mission and do the planning.
    Right now, it runs to between 80 and 200 people in-country. 
I can't imagine that we're talking a substantial increase. That 
is principally a mobility package, and it's two more battalion 
training packages. So I wouldn't imagine the in-country 
footprint would be very large. But I would rather have the CINC 
design the answer than me wing it.
    Mr. Mica. Thank you.
    I yield to the gentlewoman from Hawaii, our ranking member.
    Mrs. Mink. I thank the chairman.
    General McCaffrey, your testimony has been very 
enlightening.
    The first chart that you showed the committee at the 
beginning had to do with the cocaine production and the very 
dramatic reductions in both Peru and Bolivia in production as 
well as in cultivation. My question goes to the remarkable 
results that have been achieved by these two countries, and I 
assume from what I know about the alternate development 
programs that were instituted by both countries that there was 
not a large infusion of military equipment or military 
personnel that achieved these results.
    Could you explain what the American policy or American 
participation was, the cost of it which so dramatically changed 
the situation in both of those two countries?
    General McCaffrey. Let me, if I can, start by underscoring 
the enormous difference among these nations. And I know you're 
aware of it and all of you on the committee are, but they have 
very different legal traditions, social organizations. The 
military, police, and judicial systems are unlike each other 
throughout these 34 nations. I mean, they don't even speak the 
same languages. In these cases, they do. The historical context 
is quite different.
    Having said that, let me assure you we put a lot of money 
into Bolivia and Peru. We put $1 billion into Bolivia over the 
space of 8 years, and it paid off. It didn't pay off until the 
last 3 years when we had the political will, the national 
conversation Banzer and Quiroga engineered, which then allowed 
some very effective use of police and military who reinserted 
them in the Chapare and who then combined with the very 
intelligent use of alternative economic aid tied to a reward-
punishment system. Up until then, we have been paying people to 
not grow cocaine, and that doesn't work.
    In Peru, we had some brilliant leadership by President 
Fujimori and his people. They went after the political basis of 
the Sendero Luminoso. They did use military and police power 
with incredible effectiveness.
    We did support them. I was the Commander in Chief, U.S. 
Southern Command. We began the air bridge into Peru--Peru, 
Colombia. We used United States intelligence assets, AWACS, 
U.S. Navy, ground training groups to reinforce their police, 
the Umapar police, out in the Huallaga Valley; and it paid off 
much more effectively, to be honest, than I anticipated. I was 
astonished. And that's why I would rather give the credit to 
the Peruvians necessarily than to us, but we put in a lot of 
assets.
    Now, Colombia is a different thing. Colombia is a giant 
country with trackless jungles and rivers for highways, with a 
huge armed insurgency of people who, in many of our viewpoints, 
have walked from ideology to banditry and who are now fighting 
over huge flows of money. And to them that's worth fighting 
over. And we've got a democratic government, a pretty decent 
democratic government with great traditions of military 
subservience to civilian institutions, and they are in an 
emergency situation.
    So this package is our best thinking on how to support Plan 
Colombia which they put together. That's the differences, Madam 
Congresswoman.
    Mrs. Mink. In your printed testimony on page 4, you have a 
listing of the five strategic issues that President Pastrana 
has incorporated in his $7.5 billion Plan Colombia.
    Now, do you have a monetary distribution of that $7.5 
billion in each of the five areas? For instance, in the peace 
process, the Colombian economy, the reform of the justice 
system, and on democratization and social development? What 
would be the distribution of that $7.5 billion, putting aside 
the counterdrug strategy which is item No. 3?
    General McCaffrey. Yes, the Colombians, of course, came up 
with that plan; and I would call it a conceptual framework as 
opposed to detailed plans. I don't think they have an adequate 
answer. They have got to go get some of that money as an 
example in the European Union, in the IADB and the World Bank.
    Mrs. Mink. As I understand, they have commitments of loans 
from various international groups.
    General McCaffrey. Pretty good. Right. I think it is $1.3 
billion, if I remember, that they have already got. But they 
haven't fleshed out either the resources for sure, nor the 
details of their plan.
    Having said that, take our piece of it as an example. Of 
that $1.6 billion, last year the U.S. total, about 5 percent of 
it, was in noninterdiction, nonintelligence, nonpolice-military 
activities--5 percent of it.
    In this package we sent over to you, it goes up to 20 
percent. It's got a $240 million package in there for 
alternative economic development, development of the judicial 
system, reform of the prison system, the peace process, et 
cetera.
    So our own U.S. funds are clearly a greatly increased 
weighting toward these other areas.
    Mrs. Mink. Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    I'd like to recognize now the chairman of our full 
committee, Mr. Burton.
    Mr. Burton. General McCaffrey, let me just start off by 
saying I have been quite critical in the past of many of the 
things that have not been done and some of the things that you 
have said, but I want to tell you your presentation today was 
very impressive. It sounds like we are on the right track, and 
I want to compliment you for what you said today.
    Now if we could just follow through, I think it would be 
great. I do have a couple of comments I'd like to make for the 
record, and I'd like to ask a couple of questions.
    First of all, you said that the Blackhawks take 10 months 
to produce; and I think that's probably an accurate statement. 
The problem is, to get the Blackhawks that we need down there 
in a proper timeframe, Sikorsky probably cannot get them 
produced that fast.
    I want to read to you something that was said back in 
September 1996. This is an exchange before the International 
Operations Committee. I was talking to Colonel Colante, and it 
went like this.
    I said, ``I don't understand this. If new Blackhawks are 
required and the drug war is as important to the United States 
of America as we all know that it is, why couldn't we use some 
of the Blackhawks that are already in our arsenal to send to 
Colombia in lieu of the new ones until they arrive? I mean, 
don't we have any Blackhawks available? If we don't have any 
Blackhawks that are already produced in our arsenal, why not, 
Colonel?''
    And Colonel Colante said, ``I'm afraid I can't speak for 
the Army. I wear a purple suit working for the DSAA, but the 
decision to do that would have to be made by the Chief of Staff 
of the Army, and it hasn't been posed to him.''
    I went on to say, ``I'm posing it right now. If we are 
talking about the need for 11 Blackhawks to assist in the war 
against drugs against the drug cartel and the communists down 
there who are supporting them, why in the world can't we take 
the Blackhawks that are currently in existence in the Army and 
send them down there and replace them as new ones come on line? 
Why should we wait 6 months to a year? The war is going on 
right now.''
    And he said he would take that under advisement and work on 
it. That was in 1996; and, of course, we haven't done that.
    Also, I'd like to comment on--in 1996, the White House 
promised the House International Relations Committee that they 
would send 12 Huey 2s down there and 6 Blackhawks. As of this 
year, the Huey 2s have not been sent; and three of the 
Blackhawks have been sent down, which we referred to 
previously.
    So what I'd like to ask you, General, after saying what I 
said earlier about the plan you have talked about today sounds 
very good, why can't we take out of the military arsenal some 
of the Blackhawks that we already have, send them down there, 
along with Huey 2s that we probably have, so that they can get 
started as quickly as possible, rather than waiting for new 
ones to be produced by Sikorsky?
    General McCaffrey. Well, Mr. Chairman, if I may, I spent 
all my life organizing machinery, people, spare parts, et 
cetera; and the most important thing you get out of that 
background is you have got to do a system. You can't just send 
machinery. You have got to train the crews. The hardest part is 
getting the maintenance system up in advance of deploying 
machinery. You have to build the hangars, and the lead times on 
learning to fly a Blackhawk helicopter is an 18-month 
proposition.
    So when we get ahead of ourselves, when we send six 
Blackhawks to the Colombian army, which we did several years 
ago, they now have, as you know, 28 total in the force. I flew 
in there and looked at them painting over the $100,000-plus 
radar reflective paint job so they could get Ejercito de 
Colombia on the tail boom; borrowing pilots from the Colombian 
air force to put them in a Colombian army uniform so they would 
have their own helicopters.
    The program we are now doing, I can assure you we are not 
going to do that. So we just got the hangar built for the 
Blackhawks. That is a $6 million flying machine. When you do 
the advanced phase maintenance, you have got to have a hangar. 
And we are just now getting trained people on line. Some of 
those UH-1N aircraft down there have contract pilots. And, by 
the way, you can't just crank these guys out even at 18 months 
and put a bunch of new kids behind the control of a $6 million 
plane that flies at night as effectively as it does in the 
daytime. That's the answer.
    Now on the drawdown authority, I couldn't--I wouldn't 
substitute my judgment for the Secretary of Defense, but we 
need to be very careful. We did a lot of thinking about this 
hearing, Mr. Chairman, in the last several days. The drawdown 
authority as a tool to support U.S. foreign policy interest is 
about over. We're going to have to be very careful about this 
entire program.
    When the U.S. Armed Forces cut itself by a third in 
structure or more, we had plenty of equipment that was 
available to use for other purposes. But we are now down at the 
point where our ability to deter attack in the Korean 
peninsula, in the Gulf, in the peacekeeping operations is 
seriously strained.
    So, again, drawdown authority is for the Secretary of 
Defense to decide. Do we accept the risk of handing over U.S. 
Armed Forces materiel?
    Mr. Burton. Let me just followup on that.
    I think this is a problem of military significance to the 
United States right now. And I certainly would not want to 
diminish our ability to protect the United States in the event 
we had a problem in two theaters in other parts of the world, 
as we are supposed to be prepared to do. But I do think that 
since this problem is getting worse and worse by the day down 
there and the FARC guerrillas and others are growing rapidly 
and getting resources from the drug cartels, I think it is 
imperative that we move as rapidly as possible while at the 
same time making sure that we have qualified personnel to use 
this equipment. And if it is possible to get helicopters down 
there, Blackhawks and Huey 2s, quicker and get people trained 
more quickly, I think that that is something that you and 
others ought to take a serious look at. I would just urge to 
you do that.
    And with that, once again, I thought your presentation was 
very good today, and since I've been so critical in the past, 
it's time I threw a few accolades at you.
    General McCaffrey. Thank you, Mr. Chairman. We'll look very 
carefully at your notion of accelerating the delivery of this 
equipment.
    Mr. Mica. Thank you.
    I will yield to the gentleman from Massachusetts.
    Mr. Tierney. Thank you very much.
    I am going to try some questions, General, as long as the 
voice holds out. I know you must be beside yourself with joy 
over being congratulated by the chairman.
    Let me just ask you a question. There are some, including 
the former Ambassador to El Salvador and Paraguay, who think 
that what we're doing here is simply having a policy of 
interfering in another country's civil war. And, in fact, I 
would like to get your reaction to that. Are we not just saying 
on the one hand that we are going after narcotics when in fact 
we are involving ourselves in a dispute that is 40 years old?
    General McCaffrey. I think not. I think that the 
responsibility for sorting these questions out belong in 
Colombian hands, not United States. We've got a responsible, 
thoughtful, democratic government we are dealing with, the 
Colombians. They're in absolute misery. I mean, some of these 
numbers, it astonishes me that the American people haven't yet 
learned of the cost to Colombia of this drug problem.
    And I took into account the comments of one of your 
committee members earlier, that it starts with the money we 
spend on illegal drugs. But a half million of these poor people 
have fled the country in the last several years. We've got 
brain drain going on in Colombia. Maybe that is to the 
advantage of the United States and Spain and the other places 
they are going--and Canada.
    Internally, there are as many as a million people in the 
last decade who have lost their homes because of the savagery 
that comes out of this drug issue.
    It's impacted on the economy. It's imperiled the ability of 
the government to have elections. One of the districts in 
Bogota couldn't elect a mayor because they were so intimidated 
by the thought of getting murdered by FARC operatives. It is 
right in the national capital.
    So I think the Colombians have suffered enormously. We, in 
my view, and her regional partners, deserve to support them not 
just with police and military and intelligence and interdiction 
and precursor chemicals and arms control for smuggling but also 
with economic aid and political goodwill.
    Your point is a good one.
    Mr. Tierney. General, it strikes some people as odd, if our 
intention really is just to focus on narcotics and not to be 
involved in a civil war, why it is that we seem to be focused 
pretty much exclusively on FARC and that entity and to the 
exclusion of the paramilitaries?
    You talked about displacement, but credible sources 
indicate that 47 percent of the displacement is created by 
paramilitaries and 35 percent probability by the guerrillas, 
about 8 percent from the Colombian armed forces. Human rights 
and international humanitarian law violations in 1999 were 
accredited 78 percent to the paramilitaries and 20 to the 
guerrillas and 2 percent to state security forces.
    The fact is, there is significant evidence that a lot of 
the Colombians don't see a great distinction between the 
Colombian military and police and the paramilitaries. And if we 
wanted to have a credible policy that really looked like we 
were going after narcotics and not after interference in an 
internal dispute, wouldn't we want to put some condition on 
this that the government would, in fact, not just tell us that 
they are going to do that, as they have done in the past, but 
actually do something about the paramilitaries? That, I think, 
the evidence is overwhelming that there has been some collusion 
between the military and the police and the paramilitaries; and 
the people in Colombia, frankly, I don't think are going to 
have a lot of faith that you are sending this money down there 
so heavily lopsided down toward military intervention is going 
to be much comfort to them.
    General McCaffrey. I think your point on this AUC, quote, 
self-defense units, is entirely correct. I mean, these are some 
of the most brutal people imaginable. I mean, the level of 
violence in Colombia is beyond imagination for Americans. The 
murder rate is up over 90 per 100,000 per annum. Ours, which is 
shameful, is around 8 per 100,000 per annum. And a lot of that 
mayhem does come out of these so-called paramilitary forces. I 
think you are quite correct.
    It is my own view that the support we are providing to 
Colombian democratic institutions, to the CNP and the armed 
forces will be used to provide the rule of law in southern 
Colombia.
    I think they will use it against AUC, who are clearly 
involved in the drug business themselves, to include directly 
in one occasion at least running a laboratory. These are 
criminals. They have attacked the Colombian police and murdered 
them. They had a death threat on President Pastrana. That was 
the paramilitary groups.
    Mr. Tierney. Ought we not get more of an assurance that 
they will, in fact, go after those in an even-handed manner? I 
don't see anything in this package that gives me the comfort 
that they are going to take as aggressive a stand against the 
paramilitaries and break some of that cooperation that various 
people have had in the past. I know there have been isolated 
incidents where they have stood up in some progress. But ought 
we not to have with any of the aid that we send down there the 
conditions that make it clear to us and give us a comfort level 
that they are in fact going to go after those paramilitaries.
    Because I feel for sure, General, the people that live in 
that country, as terrorized as they are, don't make a 
distinction right now between what is going on in the 
government military and the police and the paramilitaries. And 
they are not going to be greatly comforted if we give them more 
money.
    General McCaffrey. Let me if I may, though, your point is a 
good one. I essentially agree. We have to fully comply with the 
Leahy Act. We have to be observant, not of rhetoric, but watch 
what are they doing. We need to vet units. We need to listen to 
human rights community. I will report out to them when I come 
back from Colombia next week. I think your point is a good one.
    Now, having said that, if I may, let me strongly, though, 
put on the table an observation. The Colombian people do not 
have a problem distinguishing between the FARC, the 
paramilitaries and the police and the armed forces. There is--
by any measure of polling or knowing these people, overwhelming 
support for the police, the Army, the Catholic Church, and 
democracy. There is--the last poll I saw was around 6 percent 
for the paramilitary, and around 3 percent for the FARC.
    The FARC and these units are terrorists. They are not going 
to win at the ballot box. They are trying to win through 
savagery. But the people do not feel that way. There is a 
tremendous respect for the police and democratic institutions.
    They voted, at risk of their lives, at the last election. 
And the FARC did not--does not credibly plan that process. 
Never mind these criminal paramilitary units.
    Mr. Tierney. General, I think there has been a remarkable 
indication that the people in Colombia have one thing they can 
do which is organize and pull together, and they have been 
unbelievably resilient. Ought we not insist that we show some 
signs to the reallocation or the different allocation of this 
money by more support to crop alternatives, to ways to get that 
crop to market, to roads, to things of that nature? Shouldn't 
we build their confidence by putting more of the money in that 
direction than by putting it to military uses, which I still 
say, despite your remarks which I give you due credit for them, 
but I have other people telling me different things, and they 
are fairly credible also, that there is a concern by great 
people down there that, in fact, the government and the 
paramilitary still are engaged in supporting one another.
    And I think we need to build support and have this package 
be conditioned on some of these things like better support for 
the judicial system, better assurances that there will be civil 
trials. And as people will be pursued, that those outstanding 
warrants will in fact be enforced. That people will get their 
crop to market and be able to safely reclaim some of their 
lands or at least go out and pioneer new lands with support on 
that.
    I think that I would like to hear your discussion on why we 
can't condition this aid on those types of situations.
    General McCaffrey. Well, I think, fundamentally, the 
program we sent down to you doesn't make sense unless you see 
$7.5 billion. There is a, in our view, a coherent, well thought 
out Colombian plan to take all these issues into account.
    And then in addition, even within our $1.6 billion piece, 
as I mentioned, there is a massive increase in alternative 
economic development supports, support for the judicial system, 
prison reform, the peace process, et cetera. It is a $240 
million package that is in there. And it has gone up from 5 
percent to 20 percent of the total, notwithstanding, in 
addition the World Bank loans, et cetera.
    Now, finally, I think, going back to what it is we are 
asking you to consider, this is a mobility package to reinsert 
in the coca growing regions of the south democratic control. 
That is what that is. And when I find the Tres Esquinas, I can 
assure you, sir, there is no democratic control down there. 
This is five FARC fronts armed to the teeth, and they are 
fighting for heroin production and cocaine production, which is 
killing Americans and Venezuelans and Colombians all throughout 
the hemisphere.
    That is what we are doing. We are going after the 
production of heroin and cocaine in southern Colombia and 
giving them the mobility and the training they need to do their 
job.
    Mr. Tierney. Let me just end then, please, General, by 
suggesting that when we attack country by country like that, 
doesn't it just move the supply from one country to another, 
from Southeast Asia to Peru, from Peru to Colombia, from 
Colombia to where we are now if we do this?
    General McCaffrey. I think your point is a good one. We 
need to be concerned about that. There ought to be a regional 
approach. You are quite correct. At the same time, we ought to 
be happy that Thailand in 15 years with our help has worked 
itself into a situation where it is 1 percent of Southwest 
Asian heroin production. And they have got a tremendous 
treatment system. Things are better off in the long-standing 
ally, Thailand, because of our support.
    Pakistan has largely eliminated drug production. This is 
working. In Peru and Bolivia. And we ought to be happy for 
them.
    The problem we are now focusing on is Colombia and its 
spillover effect. I think you are quite correct. We have to 
keep our eye on a regional responsibility to confront this 
evil. But the same time we have got to remember what we are 
doing. This is devastating in its impact on America. Those are 
520 metric tons of cocaine that will come out of Colombia. By 
the way, they have a huge drug abuse problem, and it is 
growing, to include heroin addiction.
    Dr. Nelba Chavez and I went there the last time. We went to 
a drug treatment facility for children to underscore our 
concern for their kids. Those drugs are all over Western 
Europe, Spain, Amsterdam, Russia.
    Mr. Tierney. I guess my only point was it was no less of a 
concern to this country and other places when it was in Peru or 
Bolivia. And we still have it with us today. After decreasing 
the situation in those countries, we now have it in Colombia.
    General McCaffrey. Yeah.
    Mr. Tierney. And my concern is, you know, if we go down 
there and use the military and all of this in Colombia, we are 
next if we don't deal with the supply and demand.
    General McCaffrey. Well, your concern is a correct one.
    Let me also, if I can, leave on the table, in 3 years there 
has been a net reduction in cocaine production in the world of 
7 percent. It was 11 percent last year, and this explosion in 
Colombia has changed it. So there is actually a lot less 
cocaine killing somebody's children and destroying the work 
force than there were 3 years ago.
    This is actually working. We have got to stay at it for 10 
years, I would agree. And we have got to watch the regional 
total, not just go to one spot and think we can find the 
Schweinford ball bearing factory of the drug business. It 
doesn't exist. I think you're correct.
    Mr. Mica. I thank the gentleman. I might just say that one 
of the things we did with Mr. Hastert was, when we went down 
into Peru and Bolivia several years ago, to help start those 
programs for crop eradication and substitution. And they have 
been very effective. We have done it also with the United 
Nations, and we cosponsored last week's summit with the U.N. 
with Pino Arlacchi, and they have been very successful in that 
effort.
    The first thing that we needed, though, in Peru was 
stability. I remember going to Peru 9 years ago and bombs were 
going off. You could not have any crop substitution-eradication 
program. So they had to have stability. And there are only so 
many places you can produce cocaine. And this summit last week 
also pledged to participate in the eradication, if you can 
believe this, of cocaine production in Bolivia within the next 
year, year and a half. So it can be done. But you do need the 
stability, a joint effort. And in this case, an international 
effort. I just wanted to interject that.
    I will recognize the gentleman who chairs our International 
Relations Committee, Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman. General McCaffrey, I 
was looking over your chart, and in support for Plan Colombia, 
and I note that Colombian National Police receive only $95 
million of that proposed, out of $1.5 or $1.6 billion proposal. 
Why are we giving such a small amount to the Colombian National 
Police, who have demonstrated an excellent record in achieving 
a reduction in cocaine, a reduction in heroin and have been 
doing a courageous effort? And the military apparently is 
getting close to $600 million for pushing the southern 
Colombia. Why is there such an inequitable distribution between 
the police and the military?
    General McCaffrey. You're quite correct in your confidence 
and respect for the Colombian police. And General Serrano's 
leadership and these field combat units of the police, the 
DANTI, some 2,500, they are equipped with now 47 aircraft. They 
have got a decent, pretty decent mobility capability. But there 
is 2,500 of them. There is 26,000 people organized with heavy 
mortars, helicopters, aircraft. They are using essentially 
chemical weapons. The 30 manned detachments of the Colombian 
National Police are not who will intervene at Tres Asquinas and 
go out and start operating against the coca division.
    Last year, the Colombians had more than 25 aircraft hit by 
ground fire. This is incredibly dangerous work. They have got 
to get, in our judgment, supporting the Colombian thinking, 
they have got to get the riverine forces down there to control 
the lines of communication. They have got to get mobility down 
there. And they have got to put at least three, if not more, 
counternarcotic battalions of the Army and then allow the 
police to go in and time that with alternative economic 
developments so we are not just driving people off the land. 
That is what we are trying to do.
    In addition, last year, we put $350 million into Colombia. 
And since we did not have the same confidence that we have now 
in the General Tapias leadership, Minister of Defense Ramirez, 
and others, this almost all went to the police. So I think this 
is a balanced program that----
    Mr. Gilman. Well, General McCaffrey, General Serrano has 
been pleading for Blackhawk helicopters so he can get to the 
higher altitudes and eradicate the heroin crop, the poppy crop 
that he has said that if he is given the wherewithal to do 
that, he can eliminate that crop within a 2-year period.
    How many Blackhawks have we delivered to General Serrano to 
do this work? How many does he now have from our Nation 
available to do the kind of thing that he wants to do to 
eradicate the heroin crop?
    General McCaffrey. Well, he has got 47 aircraft.
    Mr. Gilman. I'm asking about Blackhawks, General.
    General McCaffrey. He has got six Blackhawks. He has got 
three more en route. Let me just tell you, Mr. Congressman, you 
know, I have done this kind of thing my entire life. I would 
not substitute my judgment for Minister of Defense Ramirez. 
There is 240,000 people in the armed forces of Colombia, and 
they control the national police also. The same minister has 
both sides of it.
    I sat there with the President of their republic, with 
their minister of defense, and with their foreign minister. 
This is their plan. And by the way, it makes a lot of sense to 
me. We do not wish to take the Colombian National Police and 
turn them into a force capable of engaging in open combat with 
the FARC front.
    Mr. Gilman. I am not suggesting that, General McCaffrey. I 
am just suggesting that we give General Serrano the wherewithal 
to do what he wanted to do, and that is to eliminate the heroin 
crop, the poppy crop. And we have only given him, to my 
understanding, three Blackhawks that are operable and three 
that are not operable at the present time.
    I am saying let's give--and I am not saying detract the 
funding from the military. Give them what they need to do 
something in the southern area of Colombia. But also at the 
same time, let's make certain we are not shortchanging the 
Colombian antidrug police who have been doing such an 
outstanding job and can do an even better job.
    And it looks to me like we are concentrating on the 
military and forgetting the antidrug police. And I hope that 
you take another look at that and make certain there would be a 
little more equity in the distribution of those important 
funds. Both are trying to do the important work.
    Serrano has demonstrated he can do it, and I want to make 
certain that we are going to not neglect that aspect of the 
funding. Let me ask you----
    General McCaffrey. Let me if I can just say President 
Pastrana assured us that the Colombian National Police budget 
would be more than adequate to fulfill their task. I think 
let's just watch and see what happens. I think that is the 
case.
    Mr. Gilman. I hope we are not going to do more of watching 
and less of actual support that is sorely needed.
    What is the annual operating rate for the six Army 
Blackhawks that have been delivered? Isn't it less than 40 
percent?
    General McCaffrey. The six Colombian Army?
    Mr. Gilman. Yes, six Army Blackhawks.
    General McCaffrey. I don't have an answer for you. I will 
provide it for the record.
    Mr. Gilman. I have less than 40 percent.
    How many Blackhawk pilots does the Colombian Army have? 
Isn't it true that they are using civilian pilots to fly the 
old UH----
    General McCaffrey. Mr. Gilman, that is precisely what I 
tried to walk through. We need a system approach. They don't 
have a maintenance system, a training system, the hangars to 
rapidly absorb the most modern technology on the face of the 
Earth.
    Mr. Gilman. And yet they are offering 30 Blackhawks. They 
don't have the maintenance operable.
    General McCaffrey. We will have a plan over the coming 
years that will provide a trained, maintained, balanced force 
to support their Army. That is what I----
    Mr. Gilman. How long will it take us to do that, General?
    General McCaffrey. Well, I mean it takes 18 months to get a 
Blackhawk pilot. It takes 10 months to build the plane. It 
takes 2 to 5 years to put together a credible system. I don't 
know. We will be working at it for a long time.
    Mr. Gilman. Well, at the same time, don't the antinarcotic 
police have 150 trained chopper pilots now?
    General McCaffrey. The Colombian National Police do not 
have a system to support a sudden infusion of Blackhawks, 
period. It doesn't exist. As a matter of fact, were I the 
President of Colombia, I would not be putting Blackhawks in the 
Air Force, the Army, the police, or anywhere else. I wouldn't 
do it. They have elected to do that. And we are going to have 
to support them in making it happen.
    Were I the President of Colombia, they would all be in the 
Air Force in one spot. But we will support their own thinking. 
We will have to do it in a very judicious way, and I'll bet we 
pull it off if we get CINC U.S. Southern Command engaged in 
monitoring this.
    Mr. Gilman. But you're talking about a 2-year period. In 
the meantime----
    General McCaffrey. It will be longer than that.
    Mr. Gilman. Pardon?
    General McCaffrey. I think it will be longer than that. You 
are looking at 30 Blackhawks, 33 UH-1H. They are going to buy 
17 more Blackhawks beyond that.
    Mr. Gilman. How long will that take to make them operable?
    General McCaffrey. Well, I mean, they will have to go in 
only when we see a lay down of a system that can absorb them.
    Mr. Gilman. How many years are we talking about to make 
this operation useful?
    General McCaffrey. Well, the part of it that I am here to 
brief you on is 2 years.
    Mr. Gilman. In the meantime, though, the drug police are 
operable and can use a few more Blackhawks put into place. They 
can achieve success and not wait 2 or 3 years.
    General McCaffrey. Well, we will look very carefully at 
your own viewpoint, Mr. Gilman.
    Mr. Gilman. I would hope you would.
    General McCaffrey. Thank you.
    Mr. Gilman. I was quite disturbed, distressed to read in 
recent news reports that President Pastrana is quoted as saying 
that the fugitive FARC commander who ordered the brutal 
execution of three Americans would not be extradited to the 
United States. Is our administration going to press Pastrana on 
that issue? Do you feel that extradition would interrupt the 
peace negotiations between the Colombian Government and the 
FARC?
    General McCaffrey. I don't know the status of an 
extradition request for that person. I would be glad to provide 
it for the record. Each one of these are, by name, two attorney 
generals. I don't know what the status of that extradition.
    Mr. Gilman. That doesn't come within your purview as our 
drug czar.
    General McCaffrey. Well, the first extradition in 10 years 
from Colombia just occurred. We are very encouraged by that. We 
actually extradited a Colombian citizen charged with drug-
related offenses. So it is a tremendous statement of courage on 
the part of the Colombians. They finally did that.
    And we think there is 30 more targets of the millennium 
operation that we are now after. We want those 30 people out. 
And we are getting very courageous support from the Colombians 
about this. You need to talk to Mr. Ledwith. One of the most 
brilliant law enforcement operations I know of was Operation 
Millennium, six nations. And we are going to try and extradite 
many of those subjects.
    Mr. Gilman. Well, I would hope that you would continue to 
pressure President Pastrana in that direction. I think it 
affects our whole strategy of what we are doing in Colombia and 
make certain that we get cooperation from him.
    Thank you very much, Mr. Chairman.
    Mr. Mica. I think we have time for two more Members. There 
are two votes coming up, and we are going to run the clock. Ms. 
Schakowsky, you're recognized. We will catch one from the other 
side.
    Ms. Schakowsky. Thank you, Mr. Chairman. I would like to 
include for the record an article by Robert White that appeared 
in the newspaper.
    Mr. Mica. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6788.033
    
    Ms. Schakowsky. Also, I wanted to ask, because I have so 
many questions, if the record could be open so I can submit 
them in writing.
    Mr. Mica. Without objection, we will keep the record open 
for 2 weeks.
    Ms. Schakowsky. Thank you very much. General McCaffrey, my 
unease about this whole plan revolves around three areas. One 
is our objective. When I look at the materials that you have 
presented and listened to your testimony here today, I have to 
ask you: What is our objective in Colombia? What are the 
specific measurements of that? And how do we know when we have 
achieved victory?
    Now I hear you talking about a much longer term plan. It 
seems to me we only have the most general of overviews. 
Included in that are questions: How many lives are we willing 
to say are worth it? How much money are we willing to continue 
to put in? How many additional people is it satisfactory to 
have displaced within Colombia?
    You said you don't know how many American troops will be 
dedicated or even put at risk in this plan. Aren't those things 
that need to be clearly spelled out, our objectives, and how do 
we know if we have achieved them. What are the benchmarks?
    General McCaffrey. Well, I think you are quite correct. 
There is no question. You have just outlined our challenge. By 
law, 2 years ago, the Congress told me to devise the 
performance measures of effectiveness. This is it. And there is 
a classified annex. And we actually have very specific targets 
that we are trying to achieve in the Andean Ridge and in 
Colombia, and they are measurable.
    And we know what we are trying to achieve, and that is to 
eliminate 520 metric tons of cocaine and 6 metric tons of 
heroin and a criminal organization which is causing devastating 
impact on our regional partners. And there are ways to go about 
determining whether we are achieving our purpose or not.
    And as I have tried to suggest, it is achievable. This is 
not a hopeless proposition. When we do it, we ought to not just 
go after police and military. There ought to be a broader 
Colombian and regional strategy to take into account the 
immense suffering of the people. I think that is exactly what 
we have to achieve, and we have to be able to tell Congress 
that that is what is happening over the coming years.
    Ms. Schakowsky. I want to ask you about the push into 
southern Colombia. As you pointed out, this is an enormous 
country. We are talking about a region the size of California, 
20 times the size of El Salvador. And by the way, I just wanted 
to point out that one of the observations that Robert White 
made was that we should recall that, ``in El Salvador our 
bloody divisive 12-year pursuit of military victory proved 
fruitless. We finally settled for U.N. broker accord that 
granted the guerillas many of their demands,'' and by the way, 
he also points out that the Colombian military has no 
experience in carrying the war to the insurgents.
    So we are talking about a huge area. And we are focusing in 
on Putamayo and Caqueta Departments in southern Colombia where 
two-thirds of the coca is now grown. But since the Amazon Basin 
is so huge, what is to say that, when we focus there, maybe 
even succeed there, that it won't simply move to another part 
of the Amazon Basin, and that we will be just where we were and 
even further now into what has been characterized by some as a 
Vietnam-like quagmire.
    General McCaffrey. Yeah. Well, I think those are all 
legitimate concerns. I would argue strongly that Colombia is 
not El Salvador. Colombia isn't Mexico. Colombia isn't Vietnam. 
These are not useful historical or metaphorical analogies. 
There are 36 million Colombian people involved in abject 
misery, much of which is driven by the massive production of 
cocaine and heroin which is fueling an internal struggle that 
has now devolved into sheer savage banditry.
    And it is our view that we should, ``we'' meaning the 
regional partners, stand with elected Colombian democratic 
officials with a broad guage support of alternative economic 
development, support for judicial systems, as well as support 
for the police and army.
    I basically agree with your concerns. It is not hopeless. 
They can push into southern Colombia. There is no shortage of 
courage in Colombia. There is no shortage of political will to 
rid themselves of something that is unraveling their economy 
and threatening the peace process.
    Why would you talk if you are a FARC front that is getting 
hundreds of millions of dollars a year out of the drug cartels, 
taxation though it may be. They are taxing them in the growing 
fields, taxing them in the laboratories, and taxing them down 
the riverine systems. The FARC and the despeje are acting with 
outrageous impunity. I can't imagine politically where they are 
doing this. They are causing the campesinos to begin growing 
coca.
    Ms. Schakowsky. So are you saying until there is a 
demonstrable military victory and control of the south, that 
then there is no hope of peace, and that that will be one 
measure of our progress.
    General McCaffrey. I think it's the viewpoint of the 
Colombian leadership that as long as the drug money is fueling 
the FARC, the ELN, and these paramilitary criminal 
organizations----
    Ms. Schakowsky. Which are hardly mentioned in this plan.
    General McCaffrey. Well, I am not sure that that is the 
case. The Colombian police and the President and the mayors and 
the journalists are cognizant of the tremendous threat posed by 
all those units as well as somebody that is obviously at the 
heart and soul of it, these criminal organizations, these 
literally hundreds of criminal groups that are actually 
producing the drugs and moving them up into the United States. 
But that is what that support is designed to achieve is to 
knock those people out.
    What are they after? They are going to chop down the coca 
and chop down the opium poppies. And to get in there, you can't 
have 2,500 cops go south and do that. It is worth your life. At 
El Billar a couple years ago, they sent one of their elite 
counterinsurgency battalions out, and they lost the whole 
battalion. This is big business down there. This is high threat 
environment. This is driven by drug money.
    Ms. Schakowsky. Can I just say, Mr. Chairman, that the 
questions that I will submit also deal with--you have talked 
about how democratic the Colombian Government is, but I wanted 
to raise some questions, and I will do that in writing about 
that.
    Mr. Mica. This is very important. And I am going to impose 
on the General. We are going to vote right now, and then we 
will come back. I have Mr. Souder and two others that want to--
--
    General McCaffrey. I have got to leave for the great State 
of Wyoming to address a joint session of the legislature and 
meet the Governor and State authorities so.
    Mr. Mica. We will be back here in 15 minutes, start 
promptly, and I will have you out, 5 minutes a piece, at 5 
minutes of 1 p.m. This meeting stands in recess.
    [Recess.]
    Mr. Mica. I would like to call the subcommittee back to 
order. The Director has limited time. We will go in 
availability of Members arriving.
    Although he is not a member of our subcommittee, he is 
chairman of the Western Hemisphere Subcommittee of the House. 
Mr. Ballenger, you are recognized for questions.
    Mr. Ballenger. Thank you, Mr. Chairman. I would like the 
opportunity if I may, General McCaffrey, to ask you the 
question: Is the administration wedded to the 30 Blackhawks? 
What I would like to do is, I think you probably know the 
numbers, but they cost about $14 million each. Huey IIs, which 
are rebuilt Huey, old Hueys, I have ridden in one, and it seems 
to have close to the same capabilities as the Blackhawk, and 
they only cost $1,400,000. So somewhere along there, you can 
get seven or eight of these Huey IIs for the same price as one 
Blackhawk.
    And not only that, the delivery time of the Blackhawk is 18 
months, which the Huey II I think they can start delivering in 
July at the present time. I think they also have the 
maintenance capabilities in Colombia for this. And pilot 
training is much simpler for Huey IIs.
    And as far as I can tell, you might be able to cut down on 
the total number of helicopters and supply something for the 
peaceful purposes, shall we say crop alternatives and so forth. 
Could you react to that statement?
    General McCaffrey. Well, of course the Colombian armed 
forces and police are trying to control a giant country with 
240,000 people. Very few--when you look at the Colombian police 
probably have 2,500 people they can move around. The Colombian 
Army probably have 20,000 generously. They need range. They 
need altitude. They need lift capabilities. I can assure you, 
sir, the Huey II is not the same as the Blackhawk. I won't go 
into my ode to the Blackhawk, but it is an incredible piece of 
day-night machinery with the kind of range I think will be 
required to get back in the south.
    They will have a mixed fleet, though. There are 33 UH-1Ns 
in there, and it will be rebuilt.
    Mr. Ballenger. Is it not true that UH-1Ns are pretty old 
pieces of equipment already that was used, and we bought it 
from Canada? And its capabilities are nowhere near what Huey 
IIs are.
    General McCaffrey. Well, I think you should probably ask 
the CINC, who will probably have a more informed viewpoint on 
this than I will. The UH-1Ns out of Canada were in pretty good 
shape. They will be refurbished. They are going to provide a 
tremendous and more immediate responsive capability.
    But at the same time, I think the 28 Blackhawks they 
already have, the 30 that we are proposing that they receive, 
and the 17 additional that they will purchase will give them a 
modest capability to try and reinsert democratic institutions 
in the south of Colombia.
    Mr. Ballenger. Well, just in moving the troops, the 
battalions that we are speaking of in the south; if it takes 18 
months to get the first Blackhawks, are we sure that the 
Colombians are still going to be there 18 months from now; 
whereas, on the Huey IIs, you can get delivery in almost a 
couple of months. And not only that, the numbers you can get 
for the taxpayers' dollar. Can you get the numbers to be able 
to move a battalion much more rapidly than you could with the 
Blackhawk. I realize there are some differences in lift 
capabilities, but the numbers that would be available at a rate 
of 10 to 1 in savings is something worth looking at.
    General McCaffrey. Well, it has been very carefully 
analyzed. I think the program we sent over has a great deal of 
logic behind it. We, again, had been working on this for just 
about a year. We do have a time space lift notion on what we 
can do to support them. There should be a mixed fleet. You are 
quite correct. We shouldn't just have a pure fleet of 
Blackhawks in Colombia right now. There won't be a delay of 18 
months before something happens. Blackhawks are there now. More 
will arrive in a deliberate fashion, about as rapidly as the 
maintenance and spare parts.
    Mr. Ballenger. Yeah, but when you say the maintenance and 
spare parts, that is your 18 months that you said earlier it 
will take that long to train the pilots, the maintenance, and 
the various and sundry other parts. So, in reality, even though 
you have Blackhawks there and everybody knows, and not only 
that, but the maintenance capabilities of a Blackhawk, as I 
understand, is about 20 percent of the fleet the question was 
asked earlier. What is the flying capability of that fleet in 
operation? And I understood that 20 percent is pretty average 
for them.
    General McCaffrey. I wouldn't think so. I hope not. But 
that certainly is a concern. A Blackhawk helicopter properly 
maintained under contract is a tremendously robust machine. 
When these poor police and Colombian military units are trying 
to achieve, they get shot at all the time up through 50 caliber 
weapons. They take hits. And the Blackhawk helicopter can 
absorb multiple hits. We have seen them take 20, 30 rounds and 
keep flying. You put armored kits on it, and we will be able to 
save lives and achieve our purpose, which really is to destroy 
cocaine and heroin production affecting our own country.
    Mr. Ballenger. One more question if I may. Before we 
finally get to the finish on this product, and considering the 
number of votes that would be necessary to pass it, I have 
noticed a couple of people on the other side of the aisle 
speaking about funds for crop alternatives, more peaceful 
efforts and so forth to generate that. Again, the idea that you 
can get seven Huey IIs for the price of one Blackhawk, with the 
same number of helicopters, maybe you needed a few more because 
of their lift capabilities, you could generate some money that 
maybe would get some peaceful donations vote-wise on the other 
side of the aisle.
    General McCaffrey. Well, I think that we ought to--we have 
tried to table a coherent well thought out plan. And we ought 
to argue it in my view on its merits, every single subelement 
of it. And I think the mobility package looks to be a pretty 
good one for this force. And, again, to put it in perspective, 
the entire package we are talking about is far less than one of 
the nine divisions in the Gulf war. We are a huge country. And 
for a force, you know, that is trying to confront a criminal 
institution that kills 52,000 people a year, that is really 
what we are after.
    Mr. Ballenger. I can understand that. But again I look at 
the viewpoint that it might be the taxpayers of the United 
States, in comparing the situation, who might look more at the 
dollars than it. In other words, why shouldn't a Ford be just 
as good as a Cadillac? Everybody would argue the point that we 
would rather have Cadillacs. But if you can get a Ford 
tomorrow, and you have to wait 18 months to get a Cadillac, 
what makes sense?
    General McCaffrey. Well, of course our collective judgment, 
I hope the American people have some confidence in it as well 
thought out as we could make it, is that this package 
represented a decent way to go about serving our interests.
    Mr. Mica. Thank you. I recognize now the gentleman from 
Indiana, Mr. Souder.
    Mr. Souder. I thank the chairman. I wanted to make a couple 
points for the record. I have a few questions, too. One is that 
there has been an unfortunate perception here I think that the 
FARC are some sort of romantic revolutionaries rather than drug 
thugs. They have become funded by the drug movement, provided 
protection for the drug movement. And sometimes, I think, as 
the General pointed out, there is 3 percent or less support in 
the FARC in the country. Sometimes I think there is more 
support here in Congress than there is in Colombia for the 
FARC, and it is a very disappointing process.
    As far as the right wing paramilitary groups, if they don't 
get directly tied to drugs, then we would be intervening in a 
domestic conflict if they aren't tied to drugs. If they are 
tied to drugs, we ought to go after them just like we are going 
after the FARC and anybody else.
    Furthermore, the right wing is not an American concept, 
it's a Neo-Nazi type right wing, which in my opinion is also a 
left wing socialist type of approach. Those who are watching 
this can be very confused by the rhetoric that is going around.
    I wanted to pursue a little, because I take this a little 
personal, I know we have had a long-term disagreement about the 
Blackhawk helicopter question regarding funds for the CNP 
versus Peru and Bolivia.
    I offered this amendment, I believe, still when you were at 
SouthCom, General McCaffrey, and we then proceeded to argue 
this as more senior Members took the amendment, the committee 
chairman and so on over the years. But the truth is, in the 
context of the drug budget, given the President's limitations, 
taking the helicopters can be seen as taking the money from 
Peru and Bolivia. But we asked for the designation to come from 
unobligated INL funds which were being transferred to the 
Balkans. That was not the decision of the drug czar or the 
people even at the lower levels of the State Department who 
were dealing with narcotics.
    But to act like this was some kind of law that, when we 
passed the Blackhawks, it meant that we came from Peru or 
Bolivia, it was not my intent or anyone else's intent in 
Congress.
    There was an administration like decision that the Balkans 
were a critical place to put our funds, funds from Latin or--
that could have been devoted to this problem in antidrugs were 
diverted. The AWACS were diverted, and that was a systemwide 
decision, not a drug policy decision.
    And I just want to say for the record, because this has 
been thrown around a number of times, implying that my intent 
in that amendment was to move it from Bolivia into Colombia, my 
intent was to say we had a national interest stake way back in 
1985, which you so eloquently told us in our first visit that I 
attended at SouthCom around I think it was early 1996 with 
Congressman Zeliff and now Speaker Hastert. And then when 
General Clark was at SouthCom, he warned us we were in danger 
of losing Colombia and what was happening there. Then he went 
over to the Balkans to command that. Now General Wilhelm has 
been telling us. This isn't something new.
    What is new is that the President of Colombia is now clean. 
The defense minister is committed to reforming the Defense 
Department. General Tapias in the military is committed to 
reform. That is new. But I wanted to clarify that, too.
    Now, my two questions relate to, one, you made a reference 
to Venezuelan overflights. And Congressman Ballenger, 
Congressman Delahunt, Congressman Farr, and I met with 
President Chavez as well as our Ambassador. We are hopeful that 
we can work out some kind of procedures. It is a very delicate 
process with Venezuela. But there is no question that if we put 
this pressure on in Colombia that Ecuador, which is clearly 
going through political transformations as well, that is a kind 
way to say it, and in Venezuela, that we could push this 
problem out. And I would like to hear and we will ask the other 
panelists, too, how we are going to deal in particular with 
Ecuador and Venezuela. We usually talk about Peru and Bolivia.
    And the second thing is you said that we went back and 
revised the data that came up with this kind of emergency 
process in Colombia. Could you explain why we didn't have that 
data earlier, what caused the revisions, and elaborate on that 
a little bit?
    General McCaffrey. I think your point on the spillover 
effect in Venezuela and Ecuador is quite correct. And Under 
Secretary Pickering is in Venezuela today, and will consult 
with the government. We are concerned. I went into Venezuela 
and saw President Chavez and presented our worries about what 
was happening.
    I gave him a computer-generated DIA reproduction of 
airborne drug flights in and out of the Andean Ridge prior to 
his change in air exclusion and since then. And it is 
unmistakable that Venezuela is being used in a major way by 
international drug criminals coming out of southern Colombia 
and out-dropping, or air dropping or air landing drugs in 
Haiti, Dominica Republican, Jamaica, and to some extent, up 
into Central America. And we have got to do something about it. 
And it is a regional problem. It is not a Venezuelan and United 
States problem. It is one that affects certainly Colombia's 
ability to air and to de-cos. Aircraft are going back in, 
loitering in their airspace, in some cases landing and waiting 
out the interdiction capability, which is coming out of, of 
course, out of Aruba and Roosevelt Road.
    So we have got to do something about it, and I hope in a 
very respectful and transparent way gain the support of the 
Venezuelan authorities for a regional air interdiction 
solution. And Mr. Pickering will try and continue that dialog.
    Mr. Souder. Can I ask a direct followup while you're on 
that point, that when we went and met with President Chavez, I 
think he understands the nature of it. Clearly, there is a 
difficult domestic situation. He has made public statements 
that have made this very awkward, as we are finding in other 
Latin American countries and South American countries of how do 
we deal with a rising tide of nationalism in these countries. 
There seems to be some willingness of looking at, if we help 
them put in new radar, train people to operate the radar, 
working with shared information. But it looks like we may be 
heading into some new areas as we deal with some of these 
different countries. I am hopeful that we will not drive him 
away from us, but rather look how to be inclusive in the 
process.
    General McCaffrey. Well, I think you're quite correct. I 
read the Embassy cable out of your visit. I think your own 
interventions were helpful to this process. We will have to see 
how we can move ahead. But I think it is a difficult situation 
right now that is causing problems to regional drug 
interdiction.
    Gosh, I'm trying to think.
    Mr. Souder. The new data.
    General McCaffrey. One of the most professional groups I 
deal with, and among many in the intelligence collection 
business is CNC. And, basically, it's run by the CIA, a 
brilliant group of people. They have been using satellite 
photography for several decades now to analyze things on the 
ground. And one of them they have been following are crops, 
crop production estimates. And so there--as I suggested to 
other people, when you look at this drug issue, data is a 
problem. There are islands of hard data. There are islands of 
decent data, where, if it's big, you're happy; if it drops, 
you're sad. Then there are extrapolations in some of these 
issues.
    One of the hard data is hectarage undercultivation. If it 
is outdoor growth of opium, poppies, or marijuana, or coca 
bushes, we are photographing it; and we know essentially in a 
year-to-year whether it's going up or going down and where it 
is. And we put it on maps and give it to our allies.
    We did go in, and we just finished doing this with Mexico a 
week ago. And we did it with Colombia. DEA lead went in and 
tried to do a revised analysis of efficiency of laboratory 
process, an alkaloid content of the plants. And it was a 
brilliant piece of work. Colombian intelligence system had to 
get in there and get crop samples all over the country. And we 
have done that very quietly in the last several months.
    Out of that, CNC then did a revised analysis of the 1998 
production and came up with over 400 metric tons. And so that 
we didn't have in a historical sense a big discontinuity with a 
footnote revised algorithm. They then ran it backward for I 
think 3 or 4 years to say--and, again, it was with assumptions, 
how quickly do these new, quote, ``industrial processes'' come 
into play. From mosh pits that are now in 55 gallon drums, 
lacerating the leaves with weed wackers, packing them tightly, 
pouring kerosene on them, and getting much increased yields of 
cocaine.
    So that is what they did. Then we did an analysis of the 
1999 data, and using the new algorithms as well as the new 
hectarage undercultivation and got a 20 percent increase in 
cultivation and a matching 20 percent probable output of 
cocaine out of the growing region. Really first rate work by 
the CIA.
    Mr. Souder. Thank you.
    General McCaffrey. And DEA was very involved also.
    Mr. Mica. Thank you. Mr. Ose from California.
    Mr. Ose. Thank you, Mr. Chairman. I want to make sure I 
understand something, General. If I heard correctly, it takes 
10 months to build a helicopter, 12 months to build a hangar 
for the helicopter, and 18 months to train the pilots, I wasn't 
quite sure if that meant the pilots and the ground crew on 
maintenance, which totals up to 40 months if you add it end to 
end.
    Are these----
    General McCaffrey. That would be one classic stupid way to 
do it.
    Mr. Ose. You have to understand I am in the Federal 
Government now, so I am obliged to ask that question.
    General McCaffrey. I mean, that is the danger, though. You 
make a good point. You have to see a system. You have got to 
start a pert. diagram process to have it all come together. And 
the last thing that happens is you roll Blackhawks off a plane. 
But you are quite correct. We have to be very prudent in how we 
go about this.
    Mr. Ose. Do we have the pilots for the Colombian military 
or the national police being trained today pending the arrival 
of these Blackhawks?
    General McCaffrey. No.
    Mr. Ose. So in effect----
    General McCaffrey. I mean, there is a training program. 
First of all, let me defer if I can. The good answer to this 
question will come out of Ambassador Romero and the CINC. They 
may have to do it for the record. But there is now--for this 
package of 63 aircraft, there will be a plan detailed to do all 
these things. But Congress has got to pass the money.
    Mr. Ose. I understand.
    General McCaffrey. And then we will make sure, though, that 
that kind of thinking is implicit in the delivery scheme.
    Mr. Ose. OK. Let me revert then to the three helicopters 
that are in Colombia right now, the Blackhawks.
    General McCaffrey. There are actually 28 Blackhawks there.
    Mr. Ose. There are three that are being used by the, I 
can't remember, the military and national police, that lack the 
armor or at least lacked the armor which had to be custom built 
for installation. Have those three helicopters received the 
custom armory they need to fly into the despeje?
    General McCaffrey. Well, they are not going to fly into the 
despeje. They would be used by the CNP probably to operate 
against opium production and up in the Andean Ridge, up in the 
northeast. We will provide an answer for the record. I have got 
a note that says two out of the three do. But let me just 
provide it for the record so you get exact data.
    Mr. Ose. All right. Two other questions if I might. I would 
like to look downstream and figure what I am being asked to 
spend versus what the likely outcomes are if I don't spend the 
money. This might be relatively unfair, but I am going to ask 
it anyway. Could you speculate on the future in Colombia as it 
relates to the drug threat to the United States if we don't do 
this.
    General McCaffrey. Well, I think, Mr. Congressman, you make 
one point that we have got to take into account. This is not 
North Korea. This is not Myanmar. This is not far off 
Afghanistan. The drug production in Afghanistan is 
unbelievable. They are the No. 1 heroin producing nation on the 
face of the Earth. And that heroin is causing incredible damage 
in Western Europe and Russia and the Ukraine and other places.
    But these people, the Colombians, are a 3 hour flight from 
Miami, and a half million have fled already. And you know maybe 
a million of these poor people have lost their homes. And drug 
production has gone up 140 percent. And violence is endemic. 
And they are a very important economic partner to us. And the 
fact that they are a democracy is vitally important to us. We 
don't want a narco-state right on our doorsteps of the Gulf 
Coast and south Florida.
    So I think it is vitally important that we stand with their 
democratic leadership in the coming years. And oh, by the way, 
there is a spillover effect. This is directly affecting Panama. 
There are more than 1,000 FARC guerrillas up in the Darien now. 
And the next thing we know, the paramilitary will follow, and 
the only losers will be the campesinos, in this case the 
Panamanians. They are across the border in safe areas in 
Ecuador. They are hijacking aircraft out of Venezuela. They are 
kidnapping ranchers. This is a regional threat to our Latin 
American neighbors and a direct threat to the United States.
    Mr. Ose. I am trying to make sure I understand from where 
the direct threat originates. And when I hear you saying it is 
coming from the narco-terrorists who are supporting either the 
FARC or the paramilitary units.
    General McCaffrey. Well, I think the threat is the drugs. 
It is 520 metric tons of cocaine and 6 metric tons of heroin. 
And it contributes to mayhem in American society: Health costs, 
social costs, economic costs, criminal justice system. 52,000 
dead a year. We had 48,000 dead in 7 years of Vietnam. This is 
a huge deal for American society. And it is the drugs. And 
unfortunately, those drugs generate billions of dollars in 
profits. And that is causing destruction in democratic 
institutions throughout the hemisphere. That is a problem.
    Mr. Ose. Last question if I might. Some would suggest that 
we need to split our effort, if you will, between say the 
paramilitary units, the FARC, teaching new cropping patterns, 
and what have you. What is the No. 1 priority in your 
estimation?
    General McCaffrey. Well, I think from a U.S. perspective, 
it has been quite straightforward. Our No. 1 objective is the 
reduction in the supply of cocaine and heroin that is 
destroying the region and the American people. So that is where 
our focus is.
    And the paramilitary as well as the FARC are heavily 
involved with that activity. ELN somewhat less so. ELN makes 
most of their money kidnapping people, chopping their ears off, 
selling them back this aircraft they have got; they are selling 
the people back one at a time. But a bunch of the ELN are, of 
course, also involved in drugs. That is the problem, the money 
that comes out of the cocaine and heroin producing regions of 
Colombia.
    Now, our principal responsibility ought to be to reduce the 
consumption of drugs. That is actually the central piece of 
this national drug control strategy. That is why we sent a 
$19.2 billion, fiscal year 2001 budget, over here. For the 
first time in our country's history, Donna Shalala has got $3.8 
billion in drug treatment money in there. So we are putting our 
mouth and our money behind that strategy. But this piece of it 
we argue has to also be done. We have got to stand with 
Colombia, Peru and Bolivia.
    Mr. Mica. Thank you. Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman. Certainly it comes as no 
surprise to any of us in this room that we are facing a 
situation today, with Colombia being, by far, the largest coca 
cultivation country in the world and on the brink of political 
and financial disaster, and this has been happening over the 
last several years.
    Given the power of the groups that the Colombians are 
fighting, the FARC, the ELN, and perhaps other groups as well, 
and given the history of dealing with armed groups, that both 
our Nation has as well as other nations both in that region and 
in other parts of the world, in particular I have in mind 
recent United States military operations against Mr. Milosevic. 
We didn't negotiate with him, and not surprisingly we beat him. 
President Fujimori in Peru doesn't negotiate with the 
guerrillas and the drug traffickers in his country, and not 
surprisingly he beats them. The Government in Bolivia does not 
negotiate with drug traffickers and guerillas in their country, 
and not surprisingly they beat them.
    Also, unfortunately, but not surprisingly, in Colombia, 
efforts to negotiate and appease the guerrillas and the 
narcotraffickers have not been successful.
    Are there not some lessons here, General McCaffrey? Is 
there any reason for anybody to be optimistic that attempting 
to negotiate with these people or to appease them or to simply 
make a show of force will bring them to the negotiating table 
in any meaningful way?
    General McCaffrey. Well, Mr. Congressman, I am unalterably 
in favor in every case of trying to talk, not fight. In every 
instance, if there is some way you can get out of using 
military power and police power, you ought to do it.
    Now, I think your point, though, has an underlying 
assumption that can you just talk, or do we need to strengthen 
the capabilities of the state, police, and the armed forces to 
the judicial system so that prosecutors can act so that there 
is a prison system that works? If those pieces of it aren't 
there, clearly there can't be successful negotiations.
    But I would also, if I may, suggest that these decisions 
fundamentally have to be made by the Colombians. And we can 
wish them well, perhaps advise them. But these should not be 
U.S.--a U.S. calculus on how to balance the economy, the peace 
process, and the guerillas.
    Mr. Barr. Why do we take such a hands off approach vis-a-
vis Colombia when we don't in other parts of the world? This 
administration has been very eager to jump the gun and dictate 
policy in other parts of the world. I am not saying that is 
good or bad. But why is it they are so hesitant and say we 
can't do anything here when we have in other parts of the world 
and when the type of action that I think you and I and others 
know actually works against these guerillas, and that is very 
clear, strong, consistent, aggressive military might against 
them. Why don't we tell them that? I don't understand why we 
can't tie our assistance to certain types of policies that we 
know work that demonstrably have worked in neighboring 
countries. Why such a hands off approach in Colombia in our own 
backyard when we are more than willing to jump in with all 
sorts of military might and dig at a time policy in other parts 
of the world?
    General McCaffrey. Well, I think we are very heavily 
involved. I think his plan we sent over, the $1.6 billion, is 
fundamentally dependent upon some very strong action by the 
Colombians, the Peruvians, the Bolivians. We are not hands off. 
We have got enormous United States Embassies, and a very strong 
robust team in all three of these Andean Ridge nations.
    I think we think they are headed in the right direction, 
but they lack adequate energy and resources for the police in 
the armed forces, alternative economic----
    Mr. Barr. Energy is a matter of will.
    General McCaffrey. I really--to be blunt, Mr. Congressman, 
I think their political will, their courage, is not lacking.
    Mr. Barr. Well, it certainly isn't on the part of General 
Serrano.
    General McCaffrey. Remember, there is 240,000 troops down 
there, police and armed forces. There is a lot more than 
General Serrano. We wouldn't want to focus on a person. This is 
a 36 million person nation under internal attack, fueled by 
drug money. I am not really disagreeing with your point, I'm 
just saying the negotiations are always better than fighting if 
you can make it work. And in this case, I don't see any way 
that the United States can substitute our own calculus for 
Colombian thinking.
    Mr. Barr. But it's not just our calculus, it's the calculus 
that's worked demonstrably very well in Peru and Bolivia. Why 
can't we say, look, if we are going to make this aid available 
to you, and hopefully the State Department will finally get the 
message that the law of this land is the law of this land and 
do what they have been told to do, presuming that happens, and 
I know that is a big presumption to make, if we send the 
assistance down there, and yet the Colombian Government 
continues to try and appease the FARC and to negotiate with 
them while losing territory and continuing to lose men, aren't 
we defeating ourselves and almost guaranteeing the failure of 
our effort? Why don't we tie that assistance to some very tough 
negotiations and mandates to the Colombians if we are going to 
be partners in this effort?
    General McCaffrey. Well, with the exception of the despeje, 
which is part of the negotiation process, there has been no 
time out given by the Colombian Government to the criminal 
organizations. The counternarcotics battalion was trained and 
did deploy and is now conducting combat operations against the 
FARC fronts in the coca growing regions as we sit here. Those 
helicopters are headed down to Larendia. There is armored cab 
units being moved into place.
    So there is no question their strategy is to try and regain 
government control in the south, reinsert the police, use 
alternative economic development, and eliminate coca and opium 
production. To be blunt, I think it will work if we stay with 
them over time.
    Mr. Barr. Thank you. Thank you, Mr. Chairman.
    Mr. Mica. Last for just a couple of minutes, Mr. Mark 
Green, Congressman Green from Wisconsin has requested 
questioning.
    Mr. Green. Thank you, Mr. Chairman, for extending the 
courtesy to appear briefly.
    General McCaffrey, I represent northeastern Wisconsin. 
Within northeastern Wisconsin is the Menominee Nation and 
Menominee County. One of my constituents, Washina Watalk, was 
tragically murdered in Colombia. Late last year, the House of 
Representatives passed a resolution demanding extradition of 
those responsible. Unfortunately, of course, we all heard just 
recently the President in Colombia essentially deny granting us 
extradition.
    What is it that I can say to my constituents back in 
northeastern Wisconsin that will give them some reason for hope 
of justice in this matter?
    General McCaffrey. Well, I think the brutal murder of those 
three people was a tragedy. And from both a classified and 
public source reporting on it, it showed the essential savage 
nature of the FARC units that are involved. These people are 
posing no threats to them. They were innocent lives that were 
tragically and brutally thrown away.
    I will be in Colombia next Tuesday. I will certainly learn 
more about it and be glad to communicate back to you. I think 
the public statement of President Pastrana was that they should 
be prosecuted under Colombian criminal law.
    Mr. Green. If I can just follow up, and follow up on what 
my colleague, Congressman Barr, has been saying about putting 
some conditions, expressing some sense of U.S. policy with the 
money that we send down there. Certainly I think it would be 
appropriate to do so with respect to extradition treaties and 
how those are implemented. Again, this House passed 
overwhelmingly I think, with perhaps one or two negative votes, 
a demand for extradition. So I would certainly suggest to you 
that that should be a very high priority. And as this House 
considers the package that has been put together, I certainly 
hope to make that an important issue in the debate.
    General McCaffrey. I understand. I think about the 
extradition, and to be honest, I have been astonished at the 
political courage of the Colombians, political and physical 
courage. They have revised the law. President Pastrana from the 
start said he would stand behind extradition. We have 
extradited the first Colombian citizen for a drug-related 
crime. We are going after all the 30 Millennium Operation 
suspects. And they are paying the price for it already. This 
has already resulted in three major bomb blasts. So this is not 
a theoretical proposition.
    At the same time, I would urge us, though, when it comes to 
extradition that we let the Attorney Generals and such go on as 
a legal process and not as a political one. We have got to 
preserve the rule of law dealing with evidence and extradition.
    Mr. Green. I guess I would just add to that. I understand 
what you are saying. On the other hand, these were United 
States citizens who were killed down there, and we are forced 
to rely upon the Government of Colombia in implementing this 
aggressive plan.
    General McCaffrey. Sure.
    Mr. Green. Certainly that is part of it, our ability to 
rely upon them must be justified by action. So again I 
understand what you are saying. But, inevitably, this becomes 
part of the political arena. And I appreciate your comments and 
your attention.
    Mr. Mica. Well, I thank you for coming. And I also want to 
thank General McCaffrey for coming and being such a patient 
witness today to hear viewpoints of Members of Congress.
    General, this is only a sampling of those who wanted to 
attend today and participate. I am sure there will be more 
hearings and discussion hopefully in the next few weeks. 
Hopefully we can move this package together rapidly. I think 
everyone wants to see something done. I think the results of 
this package may determine how many more kids die on our 
streets. And it is of great importance and concern to all the 
Members of Congress. So we thank you for your efforts to help 
put this together. We look forward to working with you.
    And there being no further questions at this time, although 
we will leave the record open, we will submit those and leave 
the record open for 2 weeks. Thank you, sir.
    General McCaffrey. Yes, sir.
    Mr. Mica. I would like to call our second panel this 
afternoon. The second panel consists of four witnesses. First 
is General Charles Wilhelm, Commander of U.S. Southern Command. 
Second is Mr. William Ledwith. He is the Director of 
International Operations of the Drug Enforcement 
Administration. The third witness is Ms. Ana Maria Salazar. She 
is Deputy Assistant Secretary of Defense for Drug Policy and 
Support. The fourth witness is Ambassador Peter Romero. He is 
the Assistant Secretary for Latin America with the Department 
of State.
    As you may know, this panel is an investigations and 
oversight panel of the House of Representatives. We do swear in 
our witnesses. Also, if you have lengthy statements or 
additional material you would like submitted other than what 
you are presenting verbally, we will be glad to do that. We 
would like to try to get some limit on time. But we will try 
not to be too strict given the importance of this. If we can 
have all of the witnesses stand please and be sworn.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative. I 
would like to welcome back all of these witnesses. First, we 
are going to hear from General Charles Wilhelm, Commander of 
the U.S. Southern Command. Pleased to have you here and also to 
hear your testimony at this time. You are recognized, sir.

STATEMENTS OF GENERAL CHARLES WILHELM, COMMANDER, U.S. SOUTHERN 
COMMAND; WILLIAM LEDWITH, DIRECTOR OF INTERNATIONAL OPERATIONS, 
  DRUG ENFORCEMENT ADMINISTRATION; ANA MARIA SALAZAR, DEPUTY 
ASSISTANT SECRETARY OF DEFENSE FOR DRUG POLICY AND SUPPORT; AND 
AMBASSADOR PETER ROMERO, ASSISTANT SECRETARY FOR LATIN AMERICA, 
                      DEPARTMENT OF STATE;

    General Wilhelm. Mr. Chairman, distinguished members of the 
subcommittee, I welcome this opportunity to appear before you 
to discuss the crisis in Colombia and the things we are doing 
to help Colombia and its neighbors confront and defeat the 
threats posed by narcotics traffickers.
    Mr. Chairman, Congressman Barr, I had a prepared opening 
statement. It was a bit lengthy, and I think most of that 
ground has already been covered.
    Mr. Mica. Without objection, then, we will make that part 
of the record. Thank you. You are recognized.
    General Wilhelm. Thank you, sir. My distinguished 
colleagues on this panel are well qualified to address a broad 
range of policy and programmatic issues related to the crisis 
in the Andean region. I will focus my opening comments at the 
operational level, concentrating on the counterdrug assistance 
that Southern Command provided to Colombian security forces 
during the past year and the future initiatives that we 
contemplate if supplemental funding is approved.
    Mr. Chairman, during the first week of December, I had the 
opportunity to go to the Pentagon and to brief Secretary Cohen 
and the chairman of the Joint Chiefs of Staff on what I termed 
the way ahead in Colombia.
    In structuring that briefing, I broke it down into three 
component parts. The first part I described as action plan 
1999, the second part action plan 2000, and the third part 
action plan 2001 and beyond. I think for the purposes of our 
hearing this morning, if I briefly describe what we have 
accomplished and what we hope to accomplish with our colleagues 
in Colombia during this three-phase plan, it will provide an 
adequate foundation for the discussion to follow.
    First of all, action plan 1999: these are initiatives that 
are complete. During 1999, we trained 931 members of the 
Colombian Army and effectively stood up the first Colombian 
counterdrug battalion. That battalion obtained its initial 
operational capability on December 15th of last year.
    In tandem with that initiative, we created a Colombian 
Joint Intelligence Center which was co-located with the 
counterdrug battalion at the base at Tres Esquinas. This 
Colombian Joint Intelligence Center contains members of both 
the armed forces and the Colombia National Police, and we have 
three United States representatives there who will continue to 
provide instruction and technical advice and assistance as the 
Joint Intelligence Center carries out its mission of providing 
fused intelligence and target folders to the Colombian--the 
first of the Colombian counterdrug battalions and later the two 
remaining battalions and the brigade headquarters, which will 
constitute the Colombian Counterdrug Brigade.
    Also, during the past year, we joined forces with our 
colleagues at INL at State Department, most notably Mr. Randy 
Beers, and we put the first elements of an aviation battalion 
in place.
    Today, there are 18 UH-1N helicopters in Colombia which 
will provide tactical mobility initially for the first 
counterdrug battalion and subsequently after being augmented by 
up to 15 more UH-1Ns for the entire Counterdrug Brigade.
    So that takes me to action plan 2000. Now I should footnote 
my comments about action plan 1999 by stating that the funding 
for this was really carved out of existing programs at Southern 
Command, at State Department, and at DEP&S, which Mrs. Salazar 
represents today. It was a process really of reprioritization 
of other initiatives. But the funds were identified, were made 
available. All those organizations have been created. And, in 
fact, they are operating today.
    Action plan 2000 is dependent on the passage of a 
supplemental funding package. The key aspects of plan 2000 
include the creation of the second and third battalions, which 
will round out the Counterdrug Brigade. We will also train a 
brigade headquarters. And we will provide a significant range 
of support to the Colombian armed forces and other elements of 
the security forces in Colombia to carry out interdiction 
activities which are essential for the achievement of our 
campaign objectives.
    The year 2001 and beyond is less certain at this time. We 
have contracted MPRI, Military Professional Research Institute, 
to conduct an analysis and study of Colombia's armed forces and 
to develop an operational concept, to force structures and 
doctrines for Colombia's security forces beyond the CD brigade. 
That would take us into the out years.
    All of these measures support a campaign plan that we have 
developed to better integrate our counterdrug efforts, not just 
in Colombia, but throughout the Andean Ridge and, for that 
matter, on up through Central America and through the nations 
of the Caribbean that are in the region that we refer to 
collectively as the transit zone. This plan has been developed 
in three phases.
    Phase 1 we term regionalization and stabilization. This is 
a 2-year program which is designed to give the nations in the 
region the capabilities that they need to successfully oppose 
the drug threat.
    Phase two we term decisive operations. During phase two, 
which would also be about 2 years in duration, we would 
anticipate that the nations of the region would begin to 
deliver blows to the drug trafficking apparatus that would 
render it ineffective.
    Then from year 5 on, we would enter a sustainment phase 
during which the nations of the region would adapt to the 
changing patterns of narcotics trafficking which we have seen 
before and would essentially become self-sufficient in 
confronting these threats.
    So in terms of a long-range strategy and something that 
really almost always occurs in these dialogs, that in essence 
is our exit strategy from this struggle.
    I would like to conclude my opening remarks by identifying 
one area that I think merits additional consideration on our 
parts. I am very much in favor of a Colombia centric plan to 
confront this challenge, but not a Colombia exclusive plan.
    Mr. Chairman, you and Congressman Barr and other members of 
the panel have already mentioned that there are other 
stakeholders in there, the surrounding nations. The 
supplemental as it is currently framed does contain support for 
Bolivia and Peru, though, quite candidly, I think not in the 
amounts that are necessary for them to sustain the success that 
they have achieved.
    There has also been suggestions that funding be provided 
for Venezuela, Ecuador, Brazil, and Panama. I subscribe fully 
to that because, in every sense, this cannot be described as a 
unilateral or a bilateral undertaking. I think, by every 
definition, it is a regional problem that commands a regional 
solution. As we look at the effects of drugs, I think there can 
be a reasonable suggestion that this is also a hemispheric and 
a global problem as we look at the transit routes being taken 
by drugs as they head to Europe and other parts of the world.
    Sir, I look forward to your questions during the Q and A 
period that follows.
    [The prepared statement of General Wilhelm follows:]

    [GRAPHIC] [TIFF OMITTED] T6788.034
    
    [GRAPHIC] [TIFF OMITTED] T6788.035
    
    [GRAPHIC] [TIFF OMITTED] T6788.036
    
    [GRAPHIC] [TIFF OMITTED] T6788.037
    
    [GRAPHIC] [TIFF OMITTED] T6788.038
    
    [GRAPHIC] [TIFF OMITTED] T6788.039
    
    [GRAPHIC] [TIFF OMITTED] T6788.040
    
    [GRAPHIC] [TIFF OMITTED] T6788.041
    
    [GRAPHIC] [TIFF OMITTED] T6788.042
    
    [GRAPHIC] [TIFF OMITTED] T6788.043
    
    [GRAPHIC] [TIFF OMITTED] T6788.044
    
    [GRAPHIC] [TIFF OMITTED] T6788.045
    
    Mr. Mica. Thank you. And we will suspend questions until we 
hear from all the panelists.
    The next witness is Mr. William Ledwith, and he is Director 
of International Operations with the DEA. Thank you. You are 
welcome.
    Mr. Ledweth. Good afternoon, Chairman Mica and members of 
the subcommittee. It is a pleasure for me to appear here today 
and testify in the narcotics crisis in Colombia.
    We in DEA believe that the international trafficking 
organizations based in Colombia who smuggle illegal drugs into 
our country pose a formidable challenge to the national 
security of the United States.
    DEA is proud to play a key role in the United States 
Government's long range strategy to assist Colombia in their 
counterdrug effort.
    There is a wide range of witnesses here today who can, 
taken together, give you a broad picture of the current 
situation in Colombia. I am here to comment on the law 
enforcement aspects of dealing with the international drug 
trafficking organizations operating in Colombia today.
    DEA's mission in Colombia, as in other foreign postings, is 
to target the most powerful international drug syndicates that 
operate around the world, supplying drugs to American 
communities and employing thousands of individuals to transport 
and distribute their drugs.
    The international drug syndicates headquartered in Colombia 
and operating through Mexico and the Caribbean control both the 
sources and the flow of drugs into the United States. Virtually 
all of the heroin produced in Colombia is destined for the 
United States market. In fact, Colombia has, over the past 5 
years, become the leading sort of heroin in the United States. 
Recent DEA statistical data indicates as much as 75 percent of 
the heroin seized and analyzed by Federal authorities in the 
United States is of Colombian origin. Over half of the cocaine 
entering the United States continues to come from Colombia 
through Mexico and across United States border points of entry.
    Colombian drug trafficking groups are no longer the 
monolithic organizations they were over most of the past two 
decades. Experienced traffickers who have been active for years 
but who had worked in the shadow of the Cali drug lords have 
proven adept at seizing opportunities to increase their role in 
the drug trade. In addition to trafficking their own cocaine, 
the organizations operating out of Colombia supply almost all 
of the cocaine to the Mexican crime syndicates. The Mexican 
organizations purchase cocaine as well as accepting cocaine in 
payment for services from Colombian trafficking groups.
    This change in the manner in which business is conducted is 
also driven by the new trafficking groups arising in Colombia 
but have chosen to return to the Caribbean in order to move 
their cocaine to the United States.
    The Colombians have franchised to criminals from other 
countries a portion of the mid-level wholesale cocaine and 
heroin trade on the East Coast of the United States. The 
Colombian groups remain, however, in control of the sources of 
supply. These subordinates operating in the United States, and 
not the Colombians, are now the ones subject to arrest, while 
the top level Colombians control the organization with 
increasingly encrypted telephone calls.
    Colombia has always been the world's No. 1 producer of 
finished cocaine hydrochloride. Colombia now also has the 
dubious honor of also being the world's largest producer of 
cocaine base. Over the past several years, Colombian cocaine 
cultivation and cocaine production have been increasing 
dramatically.
    Colombian traffickers continue to become more self-
sufficient by increasing cocaine base production within 
Colombia itself to offset the decline in base previously 
brought in from Peru and Bolivia. There continues to be deep 
concern in DEA as in the rest of the administration and in the 
Congress about the connection between the FARC and other groups 
in Colombia and the drug trade.
    The presence of the insurgence in Colombia's eastern 
lowlands and southern rain forest, the country's primary 
cultivation and cocaine processing regions, hinders the 
Colombian Government's ability to conduct counterdrug 
operations. The frequent ground fire sustained by Colombian 
National Police eradication aircraft operating in insurgent and 
occupied areas shows the extent to which some insurgent units 
will go to protect the economic interests of their local 
constituency.
    Some insurgent units raise funds through extortion or by 
protecting laboratory operations. In return for cash payments, 
or possibly in exchange for weapons the insurgents protect 
cocaine laboratories in southern Colombia.
    The most recent DEA reporting indicates that some FARC 
units in southern Colombia are indeed directly involved in drug 
trafficking activities, such as controlling local cocaine base 
markets.
    Some insurgent units have assisted drug trafficking groups 
in transporting and storing cocaine and marijuana within 
Colombia. In particular, some insurgent units protect 
clandestine air strips in southern Colombia.
    The Colombian National Police continue to pursue 
significant drug investigations in cooperation with the DEA. On 
October 13, 1999, the Colombian National Police, the Colombian 
Prosecutor General's office, DEA, the United States Attorney's 
Office, and the Department of Justice Criminal Division carried 
out Operation Millennium, a long-term complex investigation 
targeting the inner workings of several of the most important 
international drug trafficking organizations operating in 
Colombia and Mexico. This operation resulted in the indictment 
and arrest of one of the former leaders of the Medellin drug 
cartel along with the indictment of 30 other significant 
defendants from Colombia.
    The United States has requested extradition of these 31 
defendants. If that extradition is completed, this operation 
will be one of the most successful and significant drug 
enforcement events since the elimination of the Medellin 
cartel.
    DEA will continue to direct assets and resources at the 
command and control structures of the major drug trafficking 
organizations operating throughout Colombia. All DEA programs 
in one form or another will focus on the identification and 
immobilization of major drug trafficking organizations.
    To further augment these objectives, programs such as the 
Andean initiative, sensitive investigative units, and the 
intelligence collection programs will be the primary support 
for DEA's enforcement efforts.
    These units will be encouraged to work simultaneously with 
DEA domestic offices in the United States in coordinated 
transnational investigations, targeting all aspects of these 
organizations so as to maximize both the effect and the return 
in our investment.
    To conclude, we can and should continue to identify and 
build cases against the leaders of the new criminal groups from 
Colombia. A growing number of initiatives hold particular 
promise for success. The special program of vetted units funded 
by the Congress under the vetted unit initiative will make it 
possible to continue to conduct high level drug investigations 
in the Colombian region without fear of compromise. This is by 
far a most important investigative tool.
    We intend to carry out even more of the cutting edge, 
sophisticated investigations like Millennium as part of a joint 
DOJ Criminal Division, DEA, and Colombia National Police 
bilateral case initiative. Such operations benefit from the 
closest possible cooperation from the DEA and Colombia National 
Police. These operations will effectively demonstrate that even 
the highest level traffickers based in foreign countries cannot 
manage drug operations inside the United States with impunity.
    DEA supports Plan Colombia. DEA will continue to work 
closely with specially trained and vetted Colombian law 
enforcements units, other Colombian law enforcement agencies, 
and Colombian prosecutors to initiate joint investigations.
    Colombia faces dramatic challenges to the rule of law, many 
of which are directly related to drug trafficking. Plan 
Colombia addresses many of these elements. The support to 
multilateral investigations, counterdrug units, and money 
laundering sections of the Justice initiative portion of Plan 
Colombia can support DEA, and Colombia National Police, DOS and 
Colombian prosecutors' efforts to fight drug trafficking in 
Colombia.
    Other sections of the Justice initiative for Plan Colombia 
can provide more indirect support for DEA, Colombia National 
Police, DOS, and Colombian prosecutors' efforts to investigate 
major Colombian drug trafficking organizations. These sections 
include support to money laundering, asset forfeiture, training 
for police prosecutors and judges, security for victims and 
witnesses, prison assistance, and procedural and legislative 
reforms to the Colombian legal system.
    Thank you for the opportunities to testify before the 
subcommittee today. I am happy to respond to any questions you 
may have.
    Mr. Mica. Thank you. Again, we will suspend questions and 
now hear from Ana Maria Salazar, who is the Deputy Assistant 
Secretary of Defense for Drug Policy and Support. You are 
recognized.
    Ms. Salazar. Thank you. I am pleased to have the 
opportunity to testify once again before this committee. And I 
would like to convey to you that Secretary Cohen is not only 
aware of some of the concerns that have been expressed in this 
committee, but he has also been in conversations with the 
Colombian Government. He has met with President Pastrana and 
met various times with the minister of defense.
    I want to say that the Department is committed to the 
congressionally mandated counterdrug mission. And the 
Department has been performing this mission with distinction 
for more than a decade.
    I would like to make my remarks short. If you will allow 
me, I would like to submit to the record a written statement.
    Mr. Mica. Without objection, that material is made part of 
the record.
    Ms. Salazar. Thank you, Mr. Chairman. I believe it would be 
helpful for me to start out by enumerating the principles that 
guide our support to Colombia.
    Our legal authorities limit our assistance to the following 
areas, provision of nonlethal equipment, counterdrug training, 
counterdrug information sharing, and minor engineering 
projects.
    Second, U.S. military forces have not and will not 
participate directly in counternarcotics operations in the 
field.
    Third, United States forces have not and will not become 
involved in the Colombian Government's counterinsurgency 
conflict. Furthermore, the Government of Colombia has not 
solicited our assistance in their counterinsurgency efforts.
    Last, we monitor the activity of our DOD, Department of 
Defense, presence in Colombia very carefully. We are confident 
that we can continue to provide counternarcotics assistance as 
we have been doing for the past 10 years without being drawn 
into this conflict.
    Now, in response to the Plan Colombia, I--the programs that 
the Department of Defense will be responsible for executing 
were developed by the CINC and his team and our interagency 
partners, including DEA and the Intelligence Community.
    And more importantly, the Department of Defense packet part 
of the supplemental was in response to what the Colombians 
asked us for. The Department of Defense programs in the 
supplemental are not new. They are enhancements to the mandated 
counterdrug responsibilities in the region.
    Now, General Wilhelm gave you a summary of the different 
programs that the Department of Defense is not only sponsoring 
or supporting this moment in Colombia, but would hope to 
support if the supplemental was passed. Instead of me going 
through what these programs are, I would just like to add two 
more comments that, to some of the descriptions of the programs 
provided by General Wilhelm.
    I would just like to emphasize that, as we undertake the 
training of these battalions, we will not have a substantial 
increase in our footprint; that is, our military presence in 
Colombia.
    Another comment I would like to make, that we plan to 
enhance existing intelligence collection efforts in parts in 
base to some of the requests we have received from General 
Wilhelm, but also based on the requests we have received from 
the Colombians. We believe that is an essential element for 
ensuring the success of these programs.
    We feel that the supplemental is a balanced and executable 
plan. However, we do know that there are challenges, and I 
would like to enumerate some of these challenges that we 
foresee.
    Military reform. First, the Colombian military is not 
optimally structured to conduct sustained counterdrug 
operations. And I believe General Wilhelm mentioned some of the 
issues that he has encountered and some of the problems that we 
plan to do and what we plan to do in order to support them.
    Second, human rights. We have expressed to the Colombian 
government the importance of human rights, the practices and 
procedures the United States has put in place, such as vetting 
every single person that receives training from the United 
States Government is one example. Another example is United 
States soldiers who train their Colombian counterparts who 
serve as examples, which we also believe have made a 
difference.
    Also important I believe is President Pastrana's reforms 
that he has indicated such as the overhaul of the military 
justice system, and General Tapias' interest in going after 
high level officials within the Colombian Army who he believes 
or there is some indications that they have participated in 
human rights violations. Nonetheless, we must remain vigilant. 
There is also room for improvement.
    Last, I want to make a comment about the counterdrug versus 
the counterinsurgency issues. As I alluded to before, the 
Department of Defense will not step over the line that divides 
counterdrug from counterinsurgency. We have safeguards in place 
to assure that our existing policy remains inviolate. These 
safeguards include extensive reviews of where United States 
forces will be deployed for training as well as end use 
monitoring regime, which includes looking after as to how the 
assets we provide Colombia will be used.
    In conclusion, Mr. Chairman, the Department of Defense 
fully supports the supplemental request to support Plan 
Colombia. We believe this package represents a sound, 
responsive, and timely assistance. President Pastrana asked for 
our help to control the flow of illegal drugs coming into the 
United States. It is time to move forward. And I hope that with 
your support we can do this soon.
    Thank you, Mr. Chairman. I look forward to your comments.
    [The prepared statement of Ms. Salazar follows:]

    [GRAPHIC] [TIFF OMITTED] T6788.046
    
    [GRAPHIC] [TIFF OMITTED] T6788.047
    
    [GRAPHIC] [TIFF OMITTED] T6788.048
    
    [GRAPHIC] [TIFF OMITTED] T6788.049
    
    [GRAPHIC] [TIFF OMITTED] T6788.050
    
    [GRAPHIC] [TIFF OMITTED] T6788.051
    
    [GRAPHIC] [TIFF OMITTED] T6788.052
    
    [GRAPHIC] [TIFF OMITTED] T6788.053
    
    [GRAPHIC] [TIFF OMITTED] T6788.054
    
    Mr. Mica. Thank you. Our last witness on this panel is 
Ambassador Peter Romero, Assistance Secretary of State for 
Latin America. You are welcome, sir.
    Mr. Romero. Mr. Chairman, members of the committee, with 
your indulgence, I had prepared a statement and I would like to 
submit it for the record.
    Mr. Mica. Without objection, the entire statement will be 
made part of the record.
    Mr. Romero. What I would like to do with your indulgence, 
is to talk a little bit about three issues that were touched 
upon but not really delved into by the committee as the panel 
started and even before and with Barry McCaffrey.
    First of all, let me say, just to give you some political 
context to the politics of negotiations with the FARC and 
others in Colombia, President Pastrana was in a dead heat back 
in 1998 with his adversary running for the Presidency, a guy by 
the name of Horacio Serpa. And he decided that what the country 
really wanted more than anything else was peace. And he leaned 
into the peace issue, talked about how to get it done, made 
contacts with the guerrilla groups, and won those elections 
where he was trailing by 6 percent, and came out ahead by about 
6 percent. He visited the FARC headquarters, did some other 
dramatic gestures, and said that peace was going to be his 
highest priority.
    Now, he was inaugurated in August 1998, and it is February 
of the year 2000. And there is unmistakable evidence that the 
FARC didn't necessarily share his optimism about the peace 
talks. Quite to the contrary, their strategy from the very 
beginning was to talk and fight, with the emphasis on the 
latter as opposed to the former. And 18 months or so later, we 
are just now beginning to see some fruit from all of the hopes 
of the Colombian people.
    A couple months ago, the Colombians put about 10 million 
people out of a population of about 36 million in the street in 
support of peace. There have been a number of other 
demonstrations. Let me just sum them up by saying that there is 
overwhelming and widespread support for continued negotiations 
with all of the irregular forces down there.
    For our purposes and for the purposes of the Colombian 
Government, that does not mean that they can't talk and fight 
at the same time. It is obvious that the FARC guerrillas have 
adopted that strategy. I think the Colombian Government very 
much knows that that is what they need to do.
    In terms of the push into the south and to the area called 
Putamayo, if I might beg your indulgence, this is the area 
right around where the highlighter is. And this is an area east 
of the Andes and the plains and jungles. This whole area, 
encompassing about 60 percent of the land mass of Colombia only 
has about 8 percent of the population. And most of that 8 
percent is located in this Putamayo area. It is a population of 
about 263,000 people, mostly rural. 31,000--or 65,000 directly 
get their income from coca growing. And 60 percent of the 
economy down there is derived from illicit crops such as coca.
    It is going to be difficult. There were mass demonstrations 
in the summer of 1996 when the government tried to stop the 
introduction of precursor chemicals into the region. There is 
absolutely no doubt that the guerrillas animated the general 
population to disrupt the police deployments to the area.
    So that is the main reason why our Plan Colombia package 
emphasizes the military. But the emphasis that is on the 
military does not end there. It incorporates the police. It 
incorporates civilian agencies. PLANTE, the alternative 
development agency, will go in to provide for alternative 
crops. There will be microcredits. There will be human rights 
observers down there. They will hold local elections. There 
will be all of the things that are essential to the democratic 
process at the grassroots.
    If the $145 million that we have identified in our support 
for Plan Colombia is not enough, it is only because, in the 
initial stages, the emphasis has to be on winning this area 
back under the control of the Colombian Government.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Romero follows:]

    [GRAPHIC] [TIFF OMITTED] T6788.055
    
    [GRAPHIC] [TIFF OMITTED] T6788.056
    
    [GRAPHIC] [TIFF OMITTED] T6788.057
    
    [GRAPHIC] [TIFF OMITTED] T6788.058
    
    Mr. Mica. Thank you. I appreciate all of our witnesses' 
statements. Let me get right into some questions.
    Ms. Salazar, one of my concerns is that it doesn't appear 
that supporting this anti-narcotics effort has been either a 
priority of the administration or DOD. Let me have this chart 
here. I requested a GAO independent study of what is taking 
place and got these results back just a month ago, as you know, 
and we held a hearing on this.
    But this shows SouthCom requesting--these are the requests 
here in the tall order, and the red was actually what was 
delivered. You actually see a decrease in what is being 
provided to SouthCom in this effort. What is happening?
    Ms. Salazar. During my, and I appreciate the opportunity I 
had to testify about this approximately 2 weeks ago. And what--
and, there is a number of issues here. We are very conscious, 
the Department of Defense is very, very conscious of the CINC's 
request for more intelligence asset support and also detection 
and monitoring support. And as we had stated before, a number 
of these assets are used not only in counterdrug missions for 
the Americas but are used in other missions around the world.
    Mr. Mica. So they are being diverted to other nations 
around the world.
    Ms. Salazar. And as we had explained in the prior instance, 
we are talking about missions to Kosovo or Iraq. Now, with that 
said, sir, I mean, there has been a number of us within the 
Department that, and I am probably one of the loudest voices, 
that we have fought quite vehemently and underlied the need to 
provide the CINC this type of support.
    But when you have these other types of missions which are 
the main priority for the Department of Defense coming on 
board, it is difficult, and I find myself putting myself in the 
Secretary's shoes and having to make the decisions and Generals 
and the Joint Staff and how they have to make these decisions 
with relatively very few assets in trying to allocate those 
assets in the best way possible.
    Mr. Mica. Well, you know, as a Member of Congress, I am 
concerned. I cited 15,973 Americans lost their lives in the 
most recent statistics I have due to drug related causes. The 
General corrected all of us and said 52,000. Did I hear him 
correct? I think you heard that. How many Americans died in 
Kosovo, Ms. Salazar?
    Ms. Salazar. I couldn't give you the numbers.
    Mr. Mica. Were there any civilian casualties even before we 
went in?
    But, you know, the situation just got out of hand. And we 
have tried repeatedly, I have been on this panel and in this 
committee since 1993, and you could almost predict what was 
going to happen.
    To the package, Mr. Ledwith, are there any vetted units 
that you spoke about the need for in this package?
    Mr. Ledweth. Are there vetted units asked for in that 
package, sir?
    Mr. Mica. Yes.
    General McCaffrey. No, sir, there are not.
    Mr. Mica. And you think that is a key element that we need 
at least from the enforcement side?
    General McCaffrey. Our experience with vetted units, sir, 
is they have allowed us to work in investigations at the very, 
very highest level without fear of compromise. Operation 
Millennium comes to mind. We would not have been able to 
conduct that operation without the tremendous input of the 
Department of Justice, the Colombia National Police, the DEA, 
and of course the vetted units.
    Mr. Mica. General Wilhelm, in the report that I requested, 
can you brief me, during the holidays, you said we can only 
detect ``15 percent of the activity 15 percent of the time.'' 
And with our loss of the base in Panama today, what is our 
capability to detect drugs coming into the country?
    General Wilhelm. Mr. Chairman, that was a correct recital 
of what I told you during our meeting in Miami over the 
holidays. On any given day, we can cover about 15 percent of 
the area 15 percent of the time. You may recall that I 
mentioned that, to a very large extent, that is more a 
statement about the size of the area than it is the sufficiency 
of resources.
    Mr. Mica. But given the loss of Panama as a base and 
operating or forward operating location, what is our capability 
now say compared to a year ago?
    General Wilhelm. It is much reduced, sir. We closed the 
runway at Howard on May 1st of last year. Prior to that time, 
during any given year, we operated 21 different kinds of 
aircraft in the counterdrug struggle and conducted about 2,000 
missions a year.
    To replace Howard, as you know, sir, we have developed the 
concept of the forward operating locations that General 
McCaffrey spoke about. Right now, we have the capacity at the 
FOLs, Curacao, Aruba, and Manta, Ecuador to run about a third 
of the missions that we ran out of Howard. The key point there 
is the need for expedited funding so that we can develop the 
capacities and the capabilities of those FOLs, so we can 
restore the capabilities that we had prior to the Howard 
closing.
    As I know you are aware, Mr. Chairman, there is $38.6 
million in the supplemental during fiscal year 2000 to do the 
horizontal construction at Manta, Ecuador, and I really need to 
underscore the importance of Manta. For Manta, we did sign the 
long-term 10-year agreement, which was of concern to the 
Congress. That took place on January 18th. Manta is the one 
site that provides coverage of Peru, all of Colombia, and most 
of Bolivia. So when we are talking about the deep Source Zone 
where the majority of cultivation takes place, where we have 
the majority of the laboratories, that is precisely the region 
we can access for Manta. That part of the supplemental is 
crucial to us, sir.
    Mr. Mica. Manta is the base in Ecuador that needs the most 
work; is that correct?
    General Wilhelm. That is correct, sir.
    Mr. Mica. Can you point that out on the map?
    General Wilhelm. It's right about here. Thanks, Pete.
    Mr. Romero. Taking a page out of your book, Charlie.
    General Wilhelm. On the coast.
    Mr. Mica. Thank you. We have seen in the last few weeks the 
FARC now going to Europe and looking to negotiate. Now, I 
cannot believe that the only reason they are going there is for 
peace purposes on their own. But I think that even the sheer 
threat of this enormous aid package has them inclined to 
negotiate before some of this arrives. Is that correct, Mr. 
Ambassador?
    Mr. Romero. Mr. Chairman, if you peel away FARC rhetoric 
about our package, which basically says things like this will 
only militarize the situation, prolong the war, et cetera, and 
you look at what has happened over the last couple of weeks, 
you get a very clear sense that the aid package is having the 
desired effect.
    I went down to Colombia with the Secretary a couple of 
weeks ago, and it was no mistake that when she went down there 
a few days after the aid package, our intention to go to you 
all for such package was announced here in Washington. The 
supreme leader of the FARC came out with a statement basically 
saying that there is just a few little minor details, but they 
are ready to crank up the negotiations seriously.
    I think that there is a causal effect. They did go to 
Sweden and Norway, and I'm told that they had a meeting at the 
Vatican today. I think all of that is a direct result of the 
fact that they see the writing on the wall.
    Mr. Mica. Plus, we have one unit--the situation has been a 
disaster as far as military incursions and operations against 
the FARC until just a few weeks ago when our one trained 
battalion finally was deployed, and I understand that was 
successful. So I think they see the handwriting on the wall.
    Finally, Ms. Salazar, I would like on my desk by the close 
of business next week the location of every Blackhawk 
helicopter that both the DOD and our reserve force have because 
we're going to figure out some way to get some assets down 
there sooner rather than later.
    With that, I yield to the ranking member.
    Mrs. Mink. Thank you very much.
    Mr. Ledwith, did I hear you correctly when--in response to 
the chairman's question about vetted units, that there was no 
addition in this plan to augment these programs that have been 
so successful?
    Mr. Ledwith. There is no specific line item that I am aware 
of at this time. We have had significant resources over the 
last few years, both by the administration and by Congress, to 
allow us to establish the vetted unit program. We've been able 
to expand it to many countries utilizing the congressional 
funding, and my understanding is there is not any specific 
language as to more vetted units in this bill.
    Mrs. Mink. In your opinion, would that be one way of 
strengthening the Colombian law enforcement agencies in doing a 
more comprehensive job in reaching out and getting all of these 
drug traffickers?
    Mr. Ledwith. We have found the vetted unit program 
throughout the region--and I speak regionally because it's 
regional issue--we have found the vetted unit program to allow 
us to target the highest levels of organizational structures 
and to work without fear of compromise. So, yes, the vetted 
program is a tremendous investigative tool, and it must be 
taken regionally, of course, because if the operations in 
Colombia impact on the----
    Mrs. Mink. How successful have they been up to now in 
Colombia?
    Mr. Ledwith. Our vetted unit program has resulted in the 
most major investigative successes enjoyed with the Colombian 
National Police.
    Mrs. Mink. Why not would a program like this be increased 
and given additional resources if they have been successful, if 
indeed one of the five points in the plan in Colombia is a drug 
strategy, counterdrug strategy?
    Mr. Ledwith. I can't answer that directly. I would say that 
we have had a significant infusion of resources in the last few 
years that have enabled us to project vetted units, at least 
eight vetted units in each of the countries in that region.
    Mrs. Mink. But the whole justification for the Colombian 
plan is that, notwithstanding what we have done up to now, is 
that there are these increased production and increased 
trafficking from Colombia into the United States. So clearly 
something more than what currently is in fact in place needs to 
be done in order for us to make a significant impact on this 
increased trafficking.
    Mr. Ledwith. I think anything that can be done to assist 
the Colombians in this effort is worthwhile, ma'am.
    Mrs. Mink. In your testimony, Mr. Ledwith, on page 7 you 
talk about the FARC units in southern Colombia and you note 
there remains, however, no information that any FARC or ELN 
units have established international transportation, wholesale 
distribution or drug-money-laundering networks in the United 
States. Would you expand on that sentence?
    Mr. Ledwith. It is a very dynamic situation. We're watching 
it very closely. As of this date, we have no definitive 
evidence that the FARC has expanded their activities outside of 
Colombia is what I am saying in that comment. They are very 
much involved in drug trafficking in a variety of levels within 
Colombia, but at this point we do not have definitive proof 
that they have taken those activities outside of Colombia.
    Mrs. Mink. Then you go on in that same paragraph to say 
northern and central Colombia continues to be the primary base 
of operations for paramilitary groups. Recent reporting 
indicates paramilitary groups have become more active in 
southern Colombia. You want to expand on that?
    Mr. Ledwith. We are also greatly concerned about the 
activities of the paramilitary organization, the human rights 
violations and a variety of concerns. So we watch them very 
closely. I meant to imply that we are not solely focused on the 
FARC.
    Mrs. Mink. And then you go on to explain that they're not 
significantly involved in poppy cultivation and marijuana but 
that, in the last paragraph you say, several paramilitary 
groups also raise funds through extortion or by protecting 
laboratory operations in northern and central Colombia. The 
Carlos Castano organization, possibly other paramilitary 
groups, appear to be directly involved in processing cocaine. 
Will you comment on that further?
    Mr. Ledwith. Yes. I would be saying that there is not a 
definitive institutional involvement, but there are limited 
circumstances in which there is a more direct managerial role, 
and that particular incident is one I would be referring to.
    Mrs. Mink. Which paramilitary groups are involved in drug 
trade?
    Mr. Ledwith. I would be happy to respond to you, ma'am, in 
a more private opportunity, if we may, with that information.
    Mrs. Mink. The reason for my inquiry here is that we did 
submit five questions to the DEA for response after the August 
hearing, and we have not yet received a reply. So I was going 
to interject those same questions into the record so I might 
get an understanding that those questions which were submitted 
to you in August would in fact be responded to me here in the 
record, for the record or to my office directly. I would 
certainly appreciate it.
    Mr. Ledwith. I'm very sorry to hear you were not given an 
appropriate response. I can assure you that you will be.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6788.059
    
    [GRAPHIC] [TIFF OMITTED] T6788.060
    
    [GRAPHIC] [TIFF OMITTED] T6788.061
    
    [GRAPHIC] [TIFF OMITTED] T6788.062
    
    [GRAPHIC] [TIFF OMITTED] T6788.063
    
    Mr. Mica. If may I followup, can you testify before us that 
there is any right wing paramilitary efforts being supported by 
drug trafficking?
    Mr. Ledwith. We have information that would indicate that 
certain paramilitary elements are deriving income from 
extortion of drug trafficking activities, yes, sir.
    Mr. Mica. Thank you.
    Mrs. Mink. I'm not through, but I'll yield my time. I'll 
take my second round.
    Mr. Mica. Our vice chairman then, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    If I could ask Mr. Macklin to put up two pictures, if you 
could put them both up, maybe hold the other one.
    We talk about negotiating with terrorists, and it's sort of 
a theoretical discussion that we've had. My view is you 
negotiate with terrorists and you lose, and I think that's the 
experience of people that have tried that.
    These two pictures are Jorge Briceno Suarez, alias Mono 
Jojoy, chief military officer of the FARC, and No. 2 is Henri 
Castillanos, alias Remanya, Eastern Bloc commandante for FARC. 
Would any of the four of you like to sit down with these 
gentlemen and think you would be successful in negotiating with 
them? I didn't think so.
    With regard to our loss of operational capability out of 
Howard Air Force Base and the other facilities we maintained 
until recently in Panama, how long has it been that we have 
known that the capability that previously we maintained at 
Howard, for example, would be lost in 1999? Was this something 
that popped up in 1999 or had we known for quite some time that 
we would lose that capability?
    General Wilhelm. Congressman Barr, I will take that 
question.
    As you know, the decision to close the facilities at Howard 
came at the end of an extended series of negotiations with the 
Panamanians which were really oriented toward preserving a 
post-2000 presence in Panama. Quite frankly, when I assumed 
command of Southern Command in September 1997, I did so with 
about a 95 percent expectation that in the year 2000 I'd have 
somewhere between 2,500 and 3,500 troops on the ground, that 
that 8,500 foot runway would be open and that we would be 
conducting the counterdrug operations, the intelligence, 
surveillance and reconnaissance support missions that I 
discussed previously from Howard.
    As we all know, I was wrong. The negotiations did not pan 
out, and we were left very much short-sheeted. We had a lot to 
do, not much time to do it in, and, of course, we had 
international negotiations.
    Mr. Barr. In what agency of our government was the decision 
made not to make any contingency plans whatsoever to have that 
capability sustained somewhere else?
    Basically, it seems what happened is we had these 
negotiations, and they didn't go anywhere. And we could argue, 
I suppose, over why they didn't go anywhere, but apparently we 
had no contingency plans whatsoever. Where was the decision in 
our government made to have no contingency plans? And now we're 
basically playing catch-up, trying to both maintain some sort 
of capability with regard to monitoring the air routes, at the 
same time as we're engaged in ongoing negotiations with the 
very basics of how to construct and maintain and pay for those 
facilities. Was this the Department of State that made the 
decision to not have contingency plans, was it Defense, DEA, or 
was it the military?
    General Wilhelm. Congressman Barr, again, if I could, let 
me just answer for my part of the U.S. Government, U.S. 
Southern Command. We did begin to frame contingency plans long 
before the negotiations were terminated with Panama; and, in 
fact, we did an inspection of the region. We made an assessment 
based on geography, range, operational reach, capabilities of 
existing air fields and probability of successful negotiations 
as to where----
    Mr. Barr. If the military did its job, and I certainly 
believe that's accurate, where was the decision made not to 
implement any of that? Was that a policy decision that the 
Secretary of State made or the Secretary of Defense or the 
President?
    General Wilhelm. Sir, I'll lead off, and then pass perhaps 
down to Ambassador Romero. From my point of view, sir, we 
actually started the ball rolling to identify and to start 
getting dialogs going on a bilateral basis with the Netherlands 
for Curacao and Aruba and with Ecuador for Manta before the 
talks were terminated with Panama. I met personally with 
President Mahuad in Ecuador. I met with President Fujimori in 
Peru because we had a couple of candidate sites there, and I 
met with the Governor General in the Netherlands Antilles and 
with the commander of the Netherlands forces in the Antilles.
    I'd have to pass it on to Ambassador Romero to comment on 
the Washington side of that.
    Mr. Romero. Well, first of all, I think if you're talking 
about Howard Air Force Base you're talking about an 
installation whose geography and infrastructure was just about 
as optimum as it gets in terms of counternarcotics flights in 
the region, and I think Charlie will support me on that. I 
don't think that there was a hiccup between the time that we 
essentially decided that there was no way ahead with respect to 
the Panamanians and the time that we actually launched people 
into the field to start talking to those governments where we 
thought forward operating locations in the alternative would 
work.
    First of all, we got interim agreements almost immediately 
on those three locales. We nailed down a permanent agreement 
with the Ecuadorians in, I think, record time, and we are 
scheduled to sign the agreements with the Netherlands Antilles, 
with Curacao and Aruba within the next 2\1/2\ weeks. We still 
need another one in Central America because the flow, I'm told, 
is moving west into the Pacific, and there needs to be better 
coverage in that area north of Colombia and up on the western 
side of the isthmus.
    It's architecture that we're putting together, but then 
there's a lot of shortfalls in terms of installations and 
infrastructure that General Wilhelm was talking about that we 
will need to put together. It's just not automatically down 
there in the places where we need them.
    Mr. Barr. I know it's clearly not automatically down there, 
but it seems to me that there are a few instances in the 
history of our relations with other countries where we have not 
had more forewarning of something that was going to happen.
    This treaty was signed in the late 1970's, and knowing 
these countries, as you all do, having engaged in many, many 
negotiations with other countries with regard to base rights 
and landing rights and so forth, you all know that it takes a 
long time. It just seems to me that looking, as the General has 
said, that even with all of the 1997, 1998 assets available, 
SOUTHCOM will be able to cover 15 percent of key trafficking 
routes 15 percent of the time, a very, very small percentage of 
coverage.
    And yet we're still trying to negotiate--it's my 
understanding we don't even have, as the General stated in his 
written testimony, all-weather, 24-hour operations. Those 
aren't even set to begin for several months. And I'm mystified 
as to there seems to be a huge gap here between an anticipated 
event that we've known for 20 years was going to come, even 
though there was a possibility at some point in time that we 
might have been able to negotiate a continued presence in 
Panama, that was just a contingency, and here we are with 
virtually no capability at all right now except for very small 
coverage. I'm just astounded that we have this huge gap there.
    Will we have additional time, Mr. Chairman?
    Mr. Mica. Yes, I think we're going to go around.
    Mr. Barr. OK. I would like the record to reflect when I 
requested of the four panelists if any of them would like to 
sit down and negotiate with these two men with any degree of 
likelihood of success that nobody raised their hand.
    Mr. Mica. I might just say that at this point one of the 
problems we have in Manta, I understand the runway is in such 
bad shape some of the key aircraft can't use it. In Aruba, we 
have limited take-off capability, particularly now in the 
tourist seasons when those planes get priority.
    Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    I want to apologize to the panel that I was not able to 
hear your testimony. If my questions have already been 
answered, just refer me to your testimony, and I will move on.
    It's my understanding, General--correct me if I'm wrong--
that over 200 U.S. military personnel are in Colombia on any 
given day right now on intelligence training and radar 
missions; is that correct?
    General Wilhelm. No, ma'am, not entirely. This is a fluid 
number. It depends on what we happen to be doing on a given 
day. It can go from a low of 80 to a high of about 220. I think 
a good daily average over the last year as we have been 
involved in training these new Colombian army units has been in 
the range of about 150 to 180. I think that's a good ballpark 
average.
    Ms. Schakowsky. I wanted to ask then how the U.S. military 
presence will change as a result of this stepped-up program, if 
at all?
    General Wilhelm. I think it will change in some subtle 
ways, and I have recommended that it change in some subtle 
ways. We have a pretty ambitious training program for the year 
2000, assuming that the supplemental is approved, but honestly 
I believe that we can achieve most of what we need to do at the 
force levels that we've had during the past year. We'll train 
two battalions, with just a minor overlap, just to make it 
specific.
    We conducted this training in three phases. During the 
first two phases we used about 57 soldiers each time from the 
7th Special Forces Group. The third phase, which involved 
integration training, was a little bit more complex, and we 
went up to about 65 with some additional specialists who were 
conducting intelligence and other training. I suspect we're 
going to stay in the ballpark during the year 2000. The area 
that I would like to see some adjustments is in our management 
capabilities.
    If this supplemental is approved, the military group that 
works for me in Bogota right now and supports Ambassador Kamman 
and the country team I believe will be far too thin to really 
do the management tasks that will confront it. Also, we have a 
colonel right now who is very well qualified, but I believe 
that our interests would be very well served by putting a 
general officer on the ground in Colombia. He provides 
seniority, probably access to some meetings and conferences 
where I think our participation would be indicated. I think 
we're just going to need more depth to do the job the way it 
needs to be done.
    General McCaffrey, during his testimony, commented about 
the need to develop an integrated interagency mechanism, here 
in Washington, to oversee the same task. They will be asking 
the questions. I need enough people with the right seniority 
and the right skills to provide the answers from Colombia. Not 
a big upsurge, but some increase in numbers and some increase 
in seniority.
    Ms. Schakowsky. Thank you.
    I wanted to ask a couple of questions about the human 
rights performance of the Pastrana government and of the 
security forces.
    You know, we could put up a lot of pictures of unsavory 
people in Colombia, and I'm sure that none of them would be the 
kind of individuals that we would want to sit down with. 
Nonetheless, we are engaged in a struggle to find, at some 
point, a solution that would stabilize the Government of 
Colombia, and I'm concerned about the poor performance 
according to the State Department that the Pastrana government 
has on human rights.
    I know that we have the Leahy amendment which says that the 
security forces cannot receive U.S. counternarcotics aid if 
there's credible evidence of gross human rights violations. But 
the State Department has found that three of the six army 
brigades that operate in the major drug trafficking areas have 
not taken effective measures to bring soldiers responsible for 
gross human rights violations to justice.
    So I'm asking, and I'm not sure to whom, maybe you, 
Ambassador, what you would recommend that the Colombian 
Government do to root out the soldiers that are believed to 
have engaged in these human rights violations?
    Mr. Romero. As someone who was pretty low on the totem pole 
back in the early 1980's and involved in Central America, I 
have to tell you that had President Reagan gotten the response 
from the Salvadoran Government that we are getting from the 
Pastrana government vis-a-vis human rights, President Reagan 
would have been kicking up his heels. President Pastrana has 
cashiered four generals. He has removed about two dozen 
colonels and majors, some of them are under indictment, others 
are still being investigated.
    We, for our part, are implementing faithfully to the Leahy 
amendment. Those units that you were talking about, if they 
don't pass muster they will not get U.S. assistance, whether it 
be materiel or training.
    The counternarcotics unit that Charlie is standing up have 
all of their officers vetted for human rights to ensure that 
they haven't engaged in gross violations of human rights. This 
is not something that we only insist upon; this is something 
that President Pastrana insists upon. That's not to say that 
there are no human rights violations or, more accurately, that 
there aren't connections between some officers and paramilitary 
groups--there are--but I think that President Pastrana has done 
a good job and continues to be committed to rooting out those 
bad officers and getting rid of them.
    Ms. Schakowsky. Are you satisfied that progress has been 
made on upgrading the penal code? You say four generals. I know 
about three in the information I have.
    Mr. Romero. I have got the fourth one here that I can give 
you.
    Ms. Schakowsky. That they're not currently under 
investigation for their role in human rights abuse and they 
aren't going to be brought to trial, that there's 500 
outstanding arrest warrants issued by the Attorney General's 
office against paramilitary groups and, as you know, have the 
security forces really act decisively regarding those 
outstanding warrants.
    The penal code--I understand that some of the provisions--a 
provision that crimes against dignity could not be tried in a 
military court system or was removed so that jurisdiction over 
cases of human rights violations will be conducted on the 
current practice on a case-by-case basis, and some of the most 
important, in some of our views, provisions were not in the 
penal code. Are they making the progress that is satisfying to 
you?
    Mr. Romero. I don't think any of us are satisfied, but I 
have to tell you that I think if there had been this much 
progress back in 1980 in El Salvador that war would have been a 
whole lot shorter. We are firmly convinced that when you have 
gross violations of human rights, you're only politicizing the 
countryside and forcing kids to sign up with one side or the 
other. And I think that President Pastrana, when you look that 
he's been in office for 18 months and what he's been able to 
implement within that armed force it's pretty spectacular. Are 
we satisfied? We're not satisfied.
    Ms. Schakowsky. Do you feel that built into the aid that 
we're giving there are enough accountability measures so that 
at every step of the way that we can go back and assess 
compliance with standards of human dignity?
    Mr. Romero. The Leahy amendment in its practice provides 
that there has to be followup and there has to be 
accountability, and only then will we be able to certify that a 
unit, even in this particular case, who has had officers who 
committed gross violations, that they have taken the steps 
necessary to correct it and to punish those responsible. And, 
in this case, if they don't take those measures, then we'll be 
pressing the Colombian Government, and we'll be cutting off aid 
to that unit.
    Ms. Schakowsky. Thank you.
    Mr. Mica. Thank you.
    Mr. Souder, as soon as you get settled, we're pleased to 
recognize you.
    Mr. Souder. Thank you.
    I have, if I could--and I'm sorry I got tied up with 
arguably one of the most important groups in your district, 
that is broadcasting people from the TV and radio, and I wanted 
to come back over. But if I could followup on a couple of the 
questions that I had raised earlier, maybe start with General 
Wilhelm--it's good to see you again--as well as Ms. Salazar 
who, in Santiago, went through some of our discussions before 
as we argued about helicopters and a number of other things.
    I raised the question and I would like to hear an official 
response on some of the concerns I raised about the military 
units.
    Because, in the Defense Department, they come up with these 
new antinarcotics groups, there is a concern about whether 
they're going to use draftees, about whether they're going to 
be high school graduates and about whether there's going to be 
pay such that it becomes an elite division. Defense Secretary 
Ramirez told me that was their goal, and they were moving in 
that direction. But, as I understand it, draftees only have to 
serve 1 year, and we're talking about having to train pilots, 
we're talking about people who need long-term commitments. What 
specific guarantees do we have on behalf of the taxpayers of 
the United States that if we try to build a new unit that this 
is in fact going to be a fully vetted, well-trained, long-term, 
committed people who will be able to operate the helicopters 
and the equipment?
    General Wilhelm. Congressman Souder, I will lead off on 
that, if it's all right, sir.
    First of all, there has really been a high degree of 
selectivity as to who is in these units, starting with 
individual vetting of the officers in the first counterdrug 
battalion. This battalion was really formed of soldiers who 
came from two sources. One were professional career soldiers 
who volunteered to become members of the counterdrug battalion. 
The second were a limited number of conscripts who changed 
their status and became professional soldiers and accepted a 
longer term of service.
    And I know you're aware, sir, that there are two pay scales 
in the Colombian military. The professional soldier is paid at 
one level and the conscript at another. So those conscripts who 
volunteered to join the CD battalion and to become professional 
soldiers then immediately went to the higher pay level.
    Education in and of itself, with the exception of one 
category of soldiers, isn't treated quite the same in Colombia 
as it is in the United States. To my knowledge, sir, there is 
really no specific criteria on enlistment for high school 
graduates in the Colombian Army. The exception are the 
Bachilleres.
    Mr. Souder. May I ask you a followup question to that? My 
understanding is if you have a high school degree you can't be 
sent to a combat zone without your approval.
    General Wilhelm. These are the Bachilleres, sir. Somewhere 
between 35 and 40,000, depending on who you talk about, who, 
based on their education level, sign a contract but they're 
immediately exempted from combat duties.
    You may recall, sir, during one of our first meetings when 
Minister Rodrigo Lloreda was still the minister of defense that 
was really the cardinal vector in his reform of the armed 
forces program. He wanted to do away with the Bachilleres. 
Defense Minister Luis Ramirez, who has replaced Minister 
Lloreda, has continued on that track. He is supported fully by 
General Tapias and by General Mora, the commander of the army. 
They are still very much committed to ending the Bachilleres 
program.
    What they contemplate, sir, is to reduce the overall end-
strength of the army, not a one-for-one conversion of 
Bachilleres to professional soldiers, but something less than 
that. But then whatever revenues are saved can be devoted to 
modernization and to including--or to improving force 
capabilities.
    Mr. Souder. Thank you.
    Ms. Salazar, did you have anything to add?
    Ms. Salazar. I really don't have any other comment to add 
except that another area we're looking at is kind of responding 
to some of your concern, is that with any type of program like 
this, one of the things we look at is also trying to make sure 
that we develop the Colombians, in this case Colombian's 
capability, to train trainers who then would have the 
responsibility of being able to support the training capacity 
that this unit would have as some of these people are moving 
out, just out of normal attrition. We have to expect there's 
going to be movement of these people. That's an important 
aspect of the program.
    Mr. Souder. Mr. Ledwith, we're pleased that we finally have 
started some of the extradition process which has been bogged 
down for a long time in Colombia. What would you say was the 
critical thing that moved that forward?
    Mr. Ledwith. I think the process is going forward at an 
appropriate rate right now. We have some 40 extradition 
requests pending with the Government of Colombia. The 
Government of Colombia has been dealing with them in a very 
forthright nature.
    We have seen the first Colombian citizen expedited here 
some time ago. Jaime La Hernosa was brought here to face heroin 
trafficking charges in New York.
    I think we're proceeding in the appropriate direction at 
this time, sir. I think we also need to allow the judicial 
process to work its way through the Colombian system while we 
do this.
    Mr. Souder. If I could make one other brief comment, and 
General Wilhelm, if you want to comment I invite you to do so, 
that General McCaffrey had made a statement. In fact, he made 
it multiple times, which I agree with in fundamental principle, 
that we need to respect the Colombian Government's systems and 
that, as we debate the national police and the Defense 
Department, we need to respect the fact that they would like to 
buildup the Defense Department.
    There's no question that there are both personal and 
political rivalries inside Colombia about how to approach this. 
But I think it's important that we don't overstate that as we 
get into this package.
    Because, the fact is, I'm very proud from the time I talked 
to you--I'm proud of how you behaved in throwing yourself into 
this job to try to help Colombia buildup their military and try 
to save this country. Because if we can save it, we have some 
hope of licking the drug problem here. If we lose it, we are in 
deep trouble.
    And you understood firsthand that you were going to go down 
there and help them, but the truth is, as we develop the 
package and as you have told me personally, as did General 
Clark and General McCaffrey before that, their military is very 
backward, and they're developing that. But I'm saying as far as 
what they need and how to attack this, command and control is a 
word we've talked about, and there are different systems.
    The important variable of that is in talking with their 
government--and I fully support trying to get a package if in 
fact we can--is they depend a lot on our input as to what that 
package was, and for us to act like the mix of the package was 
only their choice rather than us inputting; it was a mix, and 
we can continue to mix it.
    Furthermore, the Europeans have chosen in their package not 
to help the military. They want to do all the alternative 
development stuff. So, that means our package is skewed toward 
the military side.
    And I also heard General McCaffrey say that the Colombian 
Government wants to take care of the national police, us 
putting the dollars into the military. It's nice if they want 
Blackhawks. I mean, I'm supportive of Blackhawks, too. But the 
truth is--I want to make that clear--that we want to figure 
out, too, and have an input into the mix. And we have a right 
as the U.S. Government, since we're representing taxpayers and 
their dollars, to input into that mix, too. And while we need 
to be sensitive to their internal structures and not say 
buildup the national police solely when they're asking for 
defense, it doesn't mean that we don't have some discretion in 
our package to talk about that. Nor does it mean that their 
package was solely developed by them without input from our 
Defense Department, our State Department, and others.
    And I felt it was important to say that for the record, and 
if I have made any misstatements on that or any clarifications 
that you want to add, you can do so.
    General Wilhelm. Congressman Souder, I think that is a good 
and very valid statement.
    I tried to get out of the mode of talking about their 
package and the package that we developed and talk about our 
package, more of a consultative approach to what Colombia's 
needs are.
    Sir, it's true that the performance of their armed forces 
left a great deal to be desired, certainly from about mid-1998 
back to about 1995 or thereabouts. I probably wouldn't say they 
were backward. They suffered a real loss of credibility. Part 
of it was their own doing. A lot of it was due to the human 
rights violations which Ms. Schakowsky discussed, which plagued 
the armed forces; and indeed in 1993 the armed forces were 
really charged with about 53 percent of the human rights 
violations.
    Today, the breakout is about 70 percent to the 
paramilitaries, over 25 percent to the guerrillas, and 
somewhere between 3 and 5 percent to the military, which is a 
way of saying they cleaned up their act.
    They're proud of that. But I would tell you, if Fernando 
Tapias, the commander of the armed forces, were sitting here, 
he would contradict me. He would say, ``no, I'm not proud of 
it''; 3 percent is 3 percent too many. I've known him for a 
long time, and I think he really means that.
    Sir, your other statement about the relationship between 
the military and the national police I think does deserve 
perhaps a little bit broader airing. As we've gone through the 
process of developing this expanded assistance package, I, for 
one, have never suggested that one thin dime be diverted from 
the support to the national police. There are a lot of admirers 
of General Jose Serrano in this room, and I'm one of them. I 
believe that we should continue to make an investment in a blue 
chip stock which the Colombian National Police have been.
    My contention, and the one we talked about at the very 
outset, sir, was that I was afraid that Colombia's security 
forces had gotten out of balance. The Colombian National Police 
had a capability at this level, the armed forces at this level, 
and to really win the struggle therein, I felt they needed to 
be brought into balance. I really believed that that's what the 
supplemental, as it's currently framed, will do or start to do, 
and I've really pushed with both General Serrano and General 
Tapias that this really should not be competitive. They should 
seek to be complementary, one to the other. They're classmates. 
Personally, they get along well, and I think they have their 
two institutions moving on a positive and productive track.
    Mr. Souder. I thank the chairman.
    Mr. Mica. Thank you.
    Just to wind up a couple of questions, we'll go through 
here and see if anyone has any remaining.
    Mr. Ledwith, it's been testified that 75 percent 
approximately of the heroin coming into the United States 
according to your signature analysis comes from Colombia; is 
that correct?
    Mr. Ledwith. As much as.
    Mr. Mica. As much as. What percentage of cocaine today--60, 
70 percent probably?
    Mr. Ledwith. At the very least, sir.
    Mr. Mica. At the very least. So this doesn't appear to be 
rocket science to see where this stuff is coming from that's 
ending up on our streets.
    We also heard testimony from the drug czar and from our 
summit last week that 75 percent of the heroin in the world is 
produced in Afghanistan, which pretty much narrows down the 
hard narcotic sources. With that in mind, Mr. Romero, the 
only--now this war is a little bit like Jell-O, you push it 
down one place, it pops up another. Is there anything in the 
administration's plan to support the U.N. antinarcotics effort?
    Mr. Romero. I can't really speak to that effort. I do know 
that there is a normal budget for that.
    Mr. Mica. You have money in there for Peru and Bolivia. We 
know it might pop up back there. We also know, since the 
surveillance is down, coca production is slightly up, which the 
General told me about when I was in Miami during the holidays, 
so we know when we let up it pops up, but there's nothing in 
there for the U.N. right now. We don't have any program in 
Afghanistan. Only the U.N. program that we support through the 
UNODCP, Office of Drug Control Policy, supports that effort.
    Now I don't think we can pass this package without 
supporting that U.N. effort. I'm pretty far to the conservative 
side, but we just conducted that seminar with our U.N. 
partners, our European union partners, and we know that where 
75 percent of the supply is coming from in the entire world and 
75 percent of it is coming into the United States. We cannot 
pass this package, Mr. Romero and others in the administration, 
without some funds not only for Peru and Bolivia; 100 percent 
of the cocaine is produced in those three countries, right? OK. 
And there's not too many places that have the altitude or 
capability of production.
    Mr. Romero. If I might just add, I'm happy to tell you that 
there is money----
    Mr. Mica. How much?
    Mr. Romero [continuing]. For UNDP in the existing budget.
    Mr. Mica. No, I'm talking about in the supplemental.
    Mr. Romero. I do know that they are working the 
microherbicide issue in Colombia but----
    Mr. Mica. We don't even want to get into that, because we 
know we can use chemical and other treatment to do away with 
the drugs, and the administration has a horrible record on 
that, which I think the money is still sitting there, and I 
don't think they have done a darn thing yet.
    Mr. Romero. But to answer your question on the regional, 
there is a lot of regional money in this package.
    Mr. Mica. That is going to pop up, and they will get it 
from someplace else. So we need to support that effort.
    Finally, I read with dismay that they're putting a price 
tag, the Mexican traffickers, on our border agents. DEA has a 
$200,000 price tag or something which was reported in the media 
on our border agents. If they touch a hair on our border agents 
what do we have in store for them as far as U.S. retaliation? 
Do we have a price tag on these guys, the drug traffickers?
    Mr. Ledwith. Well, there certainly is a reward program, but 
we are keenly aware of the risks that the brave men and women 
of all of law enforcement face working overseas and along the 
border. We're concerned about developing intelligence that 
there are traffickers putting prices on the heads of law 
enforcement officials along the border.
    Mr. Mica. Is that going to be a priority of yours and can 
we also pay rewards to get these guys if they go after our 
guys?
    Mr. Ledwith. Sir, the safety of the men and women working 
for DEA and in all law enforcement, the military, is of 
paramount issue to us. That would be our first priority, sir.
    Mr. Mica. Thank you.
    Mrs. Mink.
    Mrs. Mink. I just have one final question to Deputy 
Assistant Secretary of Defense, Ms. Salazar.
    In your final page of your testimony you again reiterate 
the departmental policy regarding deployment of U.S. military 
personnel in counterdrug missions, and you state that the plan 
that we're debating here today will not require any change in 
policy because existing policy will carry over, and you said 
the supplemental does not require a change in U.S. policy. Is 
there a risk to U.S. personnel providing counterdrug support? 
You responded, yes, there is. And the final question, is the 
risk increased as a result of the programs being enhanced by 
the supplemental; and your answer was no. Could you explain 
that no answer?
    Ms. Salazar. Yes. I guess in part the reason for that 
comment was twofold. On the one hand--and I guess you know we 
had one very clear example that affected us in the last 8 
months. Any United States personnel, or anyone who's involved 
in counternarcotics activities and law enforcement activities, 
has a very dangerous business, and--but, with that said, we 
have had programs in Colombia for the last 10 years, and we 
have done, I believe, a very effective job in making sure that 
force protection issues of those, not only of DOD personnel, 
but also of the law enforcement personnel and the embassy 
personnel that's down there, are adequately supported and 
responded to.
    Now, the reason why I made that statement is because, as 
General Wilhelm had stated, we don't foresee an increased 
number of our footprints in Colombia. So in so much that we 
continue to provide and and enhance our current programs, which 
is what the supplemental does, we don't foresee any change in 
policy, although we will continue to be very, very concerned 
and make sure that we support the DOD personnel that is in 
Colombia at this point.
    I know, General Wilhelm, the issue of force protection has 
been of prime concern to you.
    General Wilhelm. Yes. Mr. Ledwith stated the position of 
the Department of Defense is essentially identical with that of 
the Department of Justice. There is no higher priority than the 
protection of our people on the ground.
    Congresswoman Mink, I was in Tres Esquinas last week, and 
in fact I spent a good portion of my time there really walking 
the ground and going over each and every element of the force 
protection plan. We are creating a critical mass, I will tell 
you that. The facilities are growing. We're going to be moving 
aircraft in there.
    By doing that, are we creating a target? As a military 
person I would tell you, yes, we are. To compensate for the 
development of that target we really need to improve the status 
of the physical measures and the procedural measures to secure 
the force. So we're doing all of that.
    For example, just one number, 15,000 rolls of concertina 
barb wire, the whole cantonment is circled with triple strand 
right now. They had built one concrete bunker to support the 
command post. I said, wrong answer; build three because you 
don't have the capacity that you need. We're pushing the 
defense out beyond that. I have instructed them to build 
revetments for the aircraft. So we're going to have to keep our 
eye on the ball. There's no question about it.
    As these facilities grow in size, they grow in 
attractiveness as targets. We won't allow the U.S. presence to 
get out of control, but there are other issues. It's our 
credibility and the support that we've provided to Colombia.
    I know Pete Romero remembers well a couple of disastrous 
attacks in El Salvador which really undermined the confidence 
in what we are doing. We cannot and will not let that happen in 
Colombia.
    Mr. Mica. Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    General, where are the Blackhawks going to go? To what 
units and services will those be given or are we leaving that 
up to the Colombians?
    General Wilhelm. No, sir. Again, this has been a 
consultative thing. There are an awful lot of Blackhawks here.
    Let me see if I can walk real quickly through the military 
array of airplanes just so that we're all proceeding from a 
common baseline.
    When this whole enterprise started, the army had seven 
Blackhawks. The air force had 18. Recently, the Colombians 
themselves, executed the unused portion of a former FMS case 
and got five additional Blackhawks, which went to the air 
force. Those airplanes are being armed for armed escort 
missions. The Colombians on their own hook, with their own 
financing, are buying 14 airplanes, Blackhawks, which are to be 
delivered during the year 2000, during this calendar year. 
Sikorsky says they can do that. Seven of those airplanes will 
go to the air force to be armed as escorts. Seven will go to 
the army as troop transports.
    Then the supplemental package of 30 additional Blackhawks, 
which our last liaison with Sikorsky said 14 months after funds 
are committed we will start a delivery stream initially with 
one aircraft, and then their planning estimate was two aircraft 
per month thereafter. So they could fill out the buy by the 
early part of the year 2002.
    As General McCaffrey stated, sir, I think we can sort of 
confuse ourselves a little bit when we get overly focused on 
the airplane. It may not be the long pole in the tent. The air 
crew may be the long pole in the tent.
    And I do want to make one thing clear about a progression 
of aviation capabilities. We have 18 UH-1Ns, twin engine Hueys, 
on the ground right now; and we plan to provide 15 more next 
year, for a total of 33. Those are interim aircraft. When the 
30 Blackhawks are delivered, the UH-1Ns will be removed from 
the inventory. Those are State Department assets. I suspect 
they will come back to INL.
    Our attempt then is to transition the pilots that we are 
training for the UH-1Ns to the Blackhawks. Transition training 
is a lot different from starting from scratch. So we will use 
the services of the Spanish helicopter battalion at Fort 
Rucker, AL, which does train on the Blackhawk helicopter, and 
it really won't take 18 months to train a pilot. If he can in 
fact fly a UH-1N, a much shorter period will be required to 
transition him to the Blackhawk. So this thing may not be as 
long as it sounded.
    Mr. Barr. But eventually Blackhawks will be in both the air 
force and the army inventories?
    General Wilhelm. That is correct, sir, and the national 
police.
    Mr. Barr. How many will be going to the CNP?
    General Wilhelm. Sir, I'd have to defer to State on that. 
Our target for the armed forces is 44. Let me round that one 
out. Pete.
    Mr. Romero. I'm told six.
    Mr. Barr. Is there any hesitancy in these Blackhawks going 
to the three services--in effect, the army, the air force and 
the national police--in some mix?
    Mr. Romero. In a different mix than what we've just told 
you?
    Mr. Barr. No, either that mix or some permutation of it.
    Mr. Romero. I think this is predicated on planning, 
counternarcotics battalions and that sort of thing, and I'm not 
enough of an expert to tell you there should be or could be 
more here.
    Mr. Barr. I'm talking from a policy standpoint.
    Mr. Romero. No.
    General Wilhelm. I would agree with that, sir. I think this 
correctly reflects aviation roles in missions as they're viewed 
in the Colombian armed forces. Transport is an army mission; 
armed support is an air force mission; and then, of course, the 
CNP operates in a law enforcement role. But from a policy 
standpoint for us, I don't see any implications.
    Mr. Barr. We heard earlier and we've heard a lot, General, 
about the training that the Colombian army has received and is 
receiving. I presume that we can all agree that we want to see 
the services down there, particularly the army and the CNP, to 
operate jointly and understand each other and have joint 
missions and so forth. Why then hasn't the CNP received the 
same training we're providing to the army? Wouldn't it be in 
our best interest to make sure that they're both on the same 
wavelength and on the same level?
    General Wilhelm. Sir, the answer to that question is sort 
of a yes-and-no answer. We trained the first counterdrug 
battalion in three phases. The first phase was one of their 
maneuver companies and their specialty platoons, 
reconnaissance, medical and mortar, their indirect fire 
capability. The second phase was the remaining two maneuver 
companies and the headquarters. The third phase was an 
integration phase, and during that phase the Colombian National 
Police did provide policemen from the counternarcotics units 
who did train with the first battalion.
    Quite frankly, sir, the cops didn't need the training in 
the first two phases. A lot of that was individual training and 
basic field craft required by the soldiers. The policemen 
already had their specialty training. So I agreed with the 
Colombians, with General Serrano and General Tapias, that the 
right time for integration was phase three.
    Congressman Mica has mentioned, though--it's been quiet on 
purpose; we didn't ballyhoo this--the first battalion has been 
out of garrison twice now, a single-company operation, a two-
company operation, in each case with Colombian National Police 
participation. They've taken down labs, identified transit 
points, captured base, precursor chemicals, and they've plotted 
active coca fields which are now targeted for eradication. So, 
quietly, they got out of garrison. It was a shakedown cruise of 
sorts, but it was real-world operations. The target folders 
that they were using were developed in the Colombian Joint 
Intelligence Center by a combination of soldiers and policemen.
    Mr. Barr. OK. So both from an operational standpoint as 
well and this is basically to all of you, from a policy 
standpoint, there will be appropriate training provided so that 
both the army and the CNP receive adequate training; and for 
joint operations, which we obviously encourage, they will be on 
the same level eventually?
    General Wilhelm. Absolutely sir, and really that is one of 
the cardinal principles in the training we're conducting. We 
want these forces to be entirely interoperable. We have got a 
couple of warts right now----
    Mr. Barr. When you say ``we'', that means DOD and State and 
DEA--everybody?
    General Wilhelm. DOD, State, DEA, Justice and, importantly, 
the Colombian Armed Forces and the Colombian National Police. I 
mentioned we've got a couple of potholes to fill. We ran into 
some problems with communications interoperability, and we had 
dissimilar families of radios that had legacy systems that the 
police and the army had. We're bringing that together now, and 
we'll solve that very soon. They will be using the Tatteran 
system that's been bought from Israel.
    Mr. Barr. Thank you.
    Mr. Mica. Thank you.
    Mr. Souder, any final questions?
    Mr. Souder. Yes, I have a couple.
    Mr. Ledwith, earlier General McCaffrey--and, in general, it 
kind of seems to be a pitch right now that we found all this 
new information about the amount of cocaine coming out of 
Colombia and that we have revised our past statistics as to the 
amount of cocaine. Was the DEA surprised?
    Mr. Ledwith. No, sir.
    Mr. Souder. So you kind of felt that this problem had been 
building for the last few years?
    Mr. Ledwith. Yes, sir.
    Mr. Souder. The reason I wondered is because every time I 
had gone down to Colombia, I had heard that it had been 
transferring, and both the DEA and others had been telling us. 
And I wonder, do you have any--want to make any public comments 
for the record why you feel all of a sudden we are having this 
big surprise?
    Mr. Ledwith. Well, sir, what--quite honestly, what needed 
to be done was the scientific work to back up the theory. There 
was a theory prevalent, as you're probably well aware of, that 
the math simply didn't work on the amount of seizures versus 
the availability. This raised certain concerns.
    We energized a process by which we tried to evaluate this, 
and the basis for it is locked in scientific evidence that, in 
essence, that we conduct similar laboratory operations and we 
utilize local methods and local practices and make cocaine. 
From this we make a determination as to the amount of cocaine 
that can be produced from specific crops, specific areas 
utilizing certain chemicals and profits that are currently 
available. And this process is still under way so that the 
final scientific evidence will not come out till April or May, 
but clearly the initial indications are that the Colombians 
have adopted certain methods to the production of cocaine that 
allow them to exceed the production potential that had been 
previously decided on.
    Mr. Souder. I thank you.
    I have a theory as well, and my theory is this, that not 
General McCaffrey, not General Wilhelm or anybody, his 
predecessors at SOUTHCOM or, for that matter, internarcotics at 
the State Department, but the theory was that the 
administration was focused on other parts of the world. We have 
had kids dying in Indiana because of stuff coming from Colombia 
for a long time, and it wasn't too hard for our local law 
enforcement to figure out on the street we were getting 
increased Colombian heroin and increased Colombian cocaine. 
That the question is, if we have thousands of Americans dying 
because of drug abuse, why weren't these scientific methods 
used earlier unless there was an overarching concern, which is 
what I believe has happened, to our war on narcotics?
    About the Balkans, as we went with now Speaker Hastert over 
into the Saudi Arabia and Operation Southern Watch and Northern 
Watch, we heard from the commanders there that they don't 
believe they need to be spending that many dollars on what 
they're doing. They know whenever Iraq goes up in the air and 
they know when they come down, and when we go up that we're 
spending millions and even billions of dollars annually over 
there and in the Balkans diverting from this, and we wanted to 
kind of look the other way.
    And that now, all of a sudden, we realize we're about to 
potentially lose Colombia, and everybody is focusing, and it's 
time to get our resources together. I'm glad everybody is on 
board, but pardon some of us for being a little skeptical 
about--not about the people who have been involved in it, but 
about the overarching priority.
    Now, Ambassador Romero, I have a couple of questions for 
you. One is that I think--and I want to make it clear, I think 
General Serrano and the Colombian National Police are heroes. I 
think it is the right approach what they're taking in the 
military, the defense minister and others, and I support that.
    But I also want to take as much as possible at face value 
the statements that say we're not going to undermine what 
indeed are the units that are already vetted, that have had a 
track record, that have public support.
    General Serrano's book right now on the drug wars is the 
No. 1 book in Colombia, outselling Marquez and any other author 
there. So we have a national hero. We have a process. But my 
understanding is that on Friday we were told there will be no 
Buffalo transport planes for the CNP because the State 
Department didn't feel it wasn't necessary even though it was 
in our report language that 15, not 25, Super Hueys--we 
appropriated for 25 and only 15 are going, and that our latest 
report shows that 6 of the 25 CNP pilot school slots went to 
the Army. Now, why wouldn't we increase the number of slots? 
Why would we take CNP slots?
    And I wondered in fact to some degree this does seems like 
a zero sum game, that I'm for building up the defense ministry 
efforts on antinarcotics but not if we can't get what even 
we've already said we wanted to get to CNP, and now pilot slots 
are taken.
    Mr. Romero. Congressman Souder, I am not responsible for 
running the operations on our counternarcotics program down in 
Colombia; and I think it is unfortunate that Randy Beers, who 
is in Colombia today, and is not here to answer that question, 
but I will certainly take it back to him.
    Let me just mention one thing and that is that, even before 
any idea of a supplemental or anything came to mind, we had 
been pushing the military and the police to collaborate. This 
is something that Charlie Wilhelm has been working on for a 
couple of years. We at State mention it every time we're there.
    There's been good progress, but not enough. There needs to 
be a whole lot more. They need to put aside their rivalries and 
their traditions and that sort of thing and work together, and 
hopefully they will under Plan Colombia.
    One last thing is that you can only do what the Colombian 
Government is ready to accept. And I think before June of this 
past year the Colombian Government was not ready to accept that 
they needed to make a bold move and to integrate their efforts 
and integrate their forces and reach out to the international 
community, and to do a comprehensive integrated plan like they 
put together and like we support.
    Finally they have come around to that, and better late than 
never.
    Mr. Souder. Mr. Chairman, if I could ask one more.
    Mr. Mica. One more final question.
    Mr. Souder. Funny you should bring that up, because that 
was the other question that I wanted to ask you.
    If your--and I apologize for missing your formal statement; 
all I have here in front of me is the draft statement which may 
have had some changes. But you refer to Colombia must 
reestablish its authority over narcotics-producing sanctuaries. 
In your written testimony, you don't mention the FARC per se. 
Partly what President Pastrana has done, in my opinion is, he's 
followed Christ's admonition: He's turned his cheek and he's 
turned his cheek and he's negotiated with the FARC and he's 
negotiated with the FARC.
    Do you believe it's possible to reestablish its authority 
over narcotics-producing sanctuaries without defeating the FARC 
in those areas?
    Mr. Romero. Well, I would hope that at some point in time 
the FARC would see the writing on the wall and decide that this 
is the best time to negotiate before the tide starts to turn 
and the government starts to reestablish a presence or, in many 
cases, establish for the first time a presence in many of these 
areas. That I think is the hope of President Pastrana and the 
Colombian people, but it remains to be seen.
    Mr. Souder. Do you believe, if they don't see the light, 
they should be defeated? Are they inextricably intertwined with 
the narcotics protection?
    Mr. Romero. I think that that provides about 50 percent of 
their financing. The other 50 percent comes from kidnapping and 
extortion and that sort of thing, war taxes that they exert, 
even on Venezuelans who happen to live on the Venezuelan side 
of the border.
    I think that the program is designed to take away primary 
sources of income at the same time that we cut back not only on 
production, but also put a lot of emphasis--we haven't really 
discussed this--on interdiction. I think if all of those pieces 
work with regaining the control of their territory, not just 
militarily but using the police, using the civilian entities to 
come in behind them, I think it can work. But it is not going 
to happen tomorrow. This is a long-term commitment.
    Mr. Souder. So you think it is, to some degree, more of a 
lobbying effort than a military effort to defeat them?
    Mr. Romero. To defeat them militarily would require 
probably four--structures and mobility and all of the things 
that we're talking about, probably several years to do.
    Mr. Souder. So do you disagree that only 3 percent of the 
public support the FARC?
    Mr. Romero. I agree with that. I don't think there's any 
more. I think 3 percent is probably exaggerated. But you're 
talking about a land mass that they operate in that is huge, 
with no infrastructure. It is not like you can get in the cop 
car, drive down the street and find the culprits. These are 
people whose main way of transportation is through river 
networks and are in a land mass that is absolutely huge.
    Mr. Mica. I thank the gentleman.
    Mr. Souder. I want to thank him for his comments. And I 
also want to say that I don't believe there's anybody more 
genuinely committed to trying to negotiate than President 
Pastrana; and it hasn't been working very well, and we need to 
show some force.
    Mr. Mica. I have one final question. Mr. Gilman has left, 
but he asked if I could ask this to Ambassador Romero.
    Could you please tell this subcommittee if nondrug-related 
offenses are covered by the United States extradition treaty 
with Colombia? For example, is murder and kidnapping included 
in the treaty as extraditable offenses? Could you comment on 
this?
    Mr. Romero. I would have to go back and look at the 
extradition treaty. It is fairly new.
    But I do know in the case of this--in the latest case of 
statements made by President Pastrana, I think there is a 
clause in the Colombia constitution which prohibits extradition 
of Colombian nationals for crimes committed in Colombia. Now, I 
don't know whether----
    Mr. Mica. I have a copy of the extradition treaty, and 
murder--assault with intent to commit murder is included in 
that. But I wish you would elaborate for the record. And we'll 
provide without objection a copy of this, provided by Mr. 
Gilman into the record, and we'll wait for your response.
    I thank the panel. This is an extremely important topic. 
You all play key roles in making certain that whatever package 
is approved by Congress is effective and does what we intend. 
As you see, there's some difference of opinion, but I think 
everybody is trying to get to the same point. And we thank you 
for your participation.
    Mr. Barr. Mr. Chairman, if I could, I have no more 
questions for the panel. I know they have been very patient and 
so have you.
    I still have some concerns over what seems to be a strong 
preference for training for the military as opposed to the CMP, 
based on some information that we have received. Could we do 
some followup letters to the witnesses perhaps?
    Mr. Mica. Absolutely. And I also anticipate, not next week, 
but the week after, to ask or subpoena Mr. Pickering and Mr. 
Beers and----
    Mrs. Mink. Robert White.
    Mr. Mica [continuing]. And a witness from the minority, 
former Ambassador Robert White to appear before this 
subcommittee, so we can get firsthand information about what's 
going on there, and additional background that you're 
requesting.
    Mr. Barr. Thank you.
    Mr. Mica. I thank each of you, again, for your 
participation and working with this panel. You're excused at 
this time.
    I'll call our third and final panel. Our third panel 
consists of three witnesses. The first is Ambassador Morris 
Busby. He's the former United States Ambassador to Colombia, 
and he's now president of BGI International. The second witness 
is Ambassador Ted McNamara. And Ambassador McNamara was the 
former United States Ambassador, also to Colombia, and he's now 
with the Council of the Americas. The third witness this 
afternoon is Mr. Lawrence Meriage, and he is vice president of 
Occidental Oil and Gas Corp.
    We have all three of our witnesses I believe here. And once 
again this is an investigations and oversight subcommittee of 
the Committee on Government Reform. It is our custom to swear 
in our witnesses. We also would ask that any lengthy statements 
or material, by request, be added to the record.
    If you would please stand and be sworn, gentlemen. Raise 
your right hands.
    [Witnesses sworn.]
    Mrs. Mink. Mr. Chairman, may I just extend a special 
welcome to Ambassador Morris Busby, to this subcommittee. And 
the reason for my particular pleasure in extending this 
individual welcome is that Ambassador Busby and I worked 
together in the State Department in the Office of Ocean and 
International Environmental and Scientific Affairs--very much 
apart from what we're discussing today.
    But it is really a pleasure to have this opportunity, 
Ambassador Busby, to welcome you specially.
    Mr. Mica. I said, knowing both of you, that's scary. But I 
was just kidding.
    Thank you for welcoming the Ambassador, and I'm going to 
recognize him first. He's been before our panel before. We 
appreciate his insight and knowledge about Colombia and about 
our antinarcotics effort in that region.
    Ambassador, you're welcome again and recognized.

STATEMENTS OF MORRIS BUSBY, FORMER U.S. AMBASSADOR TO COLOMBIA 
AND PRESIDENT, B.G.I. INTERNATIONAL; TED McNAMARA, FORMER U.S. 
 AMBASSADOR TO COLOMBIA, COUNCIL OF THE AMERICAS; AND LAWRENCE 
      MERIAGE, VICE PRESIDENT, OCCIDENTAL PETROLEUM CORP.

    Mr. Busby. Mr. Chairman, thank you very much, and if you'll 
allow me, Congresswoman Mink, thank you very much for your kind 
words. One of the things that I was most looking forward to 
when I was invited to testify here today was the opportunity to 
say hello to you. It was a great pleasure to work with you 
during those years.
    Mr. Chairman, I would like to thank you and the committee 
for the opportunity to appear here today. As you know 
personally, I have very strong feelings about Colombia. You and 
I and Congressman Souder and others traveled to Colombia 
together. I have always been inspired by the enormous bravery 
of the Colombian people as they've struggled against the 
violence that has engulfed their country. It is a very special 
honor for me now, as a private citizen, to offer you my 
opinions.
    Colombia policy has been a difficult proposition for the 
United States for the last two decades. Although the country 
has always been violent, the emergence of large-scale narcotics 
trafficking has complicated our relationship enormously. 
Colombia should occupy a high priority in our foreign policy 
and national security thinking. Unfortunately, that's not 
always been the case, and it is only recently that the 
administration seems to have awakened to the real dangers 
facing Colombia and the attendant risk to United States 
interests.
    Over the last 5 to 6 years the security situation in 
Colombia has dramatically worsened. The United States and 
Colombia engaged for much of this period in an unfortunate 
political skirmish brought on by the Presidency of Ernesto 
Samper. President Pastrana inherited a terrible situation, 
which has not improved. The guerilla groups are stronger than 
they have ever been and the government seems to have lost the 
confidence of the people. More importantly, the Colombian 
military and police are being challenged directly by the FARC 
and the ELN with mixed results, which is a major shift in power 
from years past.
    Three years ago yesterday I had the honor to testify before 
this committee on the same subject. At that time, I urged the 
administration to support Colombian counternarcotics in spite 
of our distaste for Mr. Samper. I also warned that if we failed 
to recognize the role of the so-called ``insurgent groups'' in 
the drug problem, we would fail in our counternarcotics 
efforts.
    Sadly, the situation in Colombia is worse than ever. The 
FARC and the ELN are stronger and better financed than they 
have ever been.
    Although the situation on the ground has worsened, the 
policy dilemma for the United States is no different. The 
guerillas are an integral part of the drug problem in Colombia, 
and it's naive to think we can divorce the two issues. There 
will never be a cessation of drugs coming out of Colombia so 
long as the insurgency is viable. You can't solve the 
counternarcotics problem in isolation.
    I appear here today to once again support increased levels 
of aid and assistance to the Government of Colombia. It's 
clearly in the United States' interest to help Colombia avoid a 
slide into instability and chaos.
    Please don't misunderstand or think that I am here 
advocating war. I am a vigorous proponent of a negotiated 
solution to the conflict in Colombia. A successful negotiation 
is the only realistic and moral outcome to this tragic 
conflict. But until both sides have a genuine interest and need 
for a negotiated solution, or until one side is so 
overwhelmingly strong as to force negotiations, the war is 
going to go on.
    What is needed in Colombia now is a significant change in 
the actual situation on the ground. Only then can real 
negotiations take place. The package of aid currently before 
Congress could cause that change to take place.
    However, I would like to sound some cautionary notes which 
temper my support for the administration's package. For years, 
the issues of drugs and guerrillas in Colombia have been so 
interrelated as to be virtually indistinguishable. The FARC and 
ELN are an integral part of the narcotics problem. So long as 
we refuse to recognize that fact, our counternarcotics efforts 
will fail. This has been self-evident for some years, even 
though through several administrations and Congresses we have 
pretended otherwise.
    We have been able to delink the policy issues surrounding 
drugs and guerrillas for two reasons. First, the Colombian 
Government was capable of keeping the guerrilla problem under 
control and coca production was largely outside Colombia. 
Second, we didn't want to admit that we were involved in a 
situation that had overtones of Vietnam and El Salvador. To do 
so would have reopened the painful debates of the past, and in 
those circumstances, we didn't need to do that. The 
deteriorating situation in Colombia now dictates that we help 
that beleaguered government, but we should be clear as to what 
we're doing.
    I am very much in favor of bolstering the infrastructure of 
the Colombian military police and judicial system in order to 
reverse the downward slide in the security situation and force 
the guerrillas to the negotiating table. But this aid package 
is not going to stop the flow of drugs from Colombia to the 
United States in the near term, and we shouldn't pretend that 
it will. Rather, it will help stabilize the situation so that 
counterdrug efforts can again become effective.
    We must avoid the kind of divisive debates that we had in 
the past. I urge the Congress and the administration to 
establish some agreed-upon measures of effectiveness. Everybody 
should understand clearly what the desired outcome of this 
assistance is meant to be. Not to do so will invite continual 
debate and misunderstanding as we go forward.
    Mr. Chairman, I have studied Plan Colombia. I don't want to 
be harsh, but it seems to be more a justification for receiving 
aid from the United States and others than a real prescription 
for success. I have known President Pastrana and many of his 
advisers for a decade, and I have the greatest admiration for 
them personally. However, I am not impressed with the manner in 
which the Government of Colombia has handled the situation, in 
particular the negotiations with the FARC and the ELN.
    Real negotiating leverage comes from power, political 
capital, and intellectual toughness. It seems to me that the 
Colombian Government has squandered its negotiating advantage 
in a futile attempt to simply get negotiations going and 
without having a real strategy in place.
    I think it will be important for Congress and the 
administration to carefully monitor how this aid is used to 
ensure that it is not wasted in supporting a peace process that 
is haphazard.
    I have long believed that a bipartisan approach is 
necessary if we are ever to successfully assault the problem of 
narcotics. I also strongly believe that the only lasting and 
true solution to our drug problem is to raise a generation of 
Americans who do not have this terrible taste for drugs. Until 
that day arrives, we must continue to fight drug demand in this 
country while simultaneously attacking drugs at the source.
    I consider increased aid to Colombia as a central part of 
any successful source country strategy in Latin America.
    Mr. Chairman, you asked my opinion as to what we are facing 
in Colombia. With my previous remarks as a prologue, I'll tell 
you that I am not encouraged. The FARC is a complex blend of 
terrorists, ideologues, drug lords, and kidnappers that draw 
support and manpower from poor farmers as well as hardened 
criminals. I see no evidence that the FARC leadership is 
seriously interested in a negotiated solution, nor do I believe 
the United States and Colombia clearly understand what the 
insurgents really want, if anything. In my worst moments, I 
wonder whether the Colombian peace process is really just 
political theater.
    Mr. Chairman, we're facing a very dangerous and explosive 
crisis in our hemisphere, which if not given policy priority 
and handled proactively and with intelligence, could degenerate 
with tragic consequences for the Colombian people and for our 
interests in this region. I strongly urge the Congress to 
approve a substantial package of assistance to Colombia. I 
strongly urge this committee and the Congress at large to 
exercise strenuous and intensive oversight of Colombia policy. 
And I strongly urge that you act quickly because I fear that we 
are losing one of our best allies in the hemisphere.
    Mr. Chairman I want to thank you once again for the 
opportunity to appear here today. I'll be more than happy to 
answer your questions and those of your colleagues.
    Mr. Mica. Thank you. We'll withhold questions until we have 
heard from the other two panelists.
    [The prepared statement of Mr. Busby follows:]

    [GRAPHIC] [TIFF OMITTED] T6788.064
    
    [GRAPHIC] [TIFF OMITTED] T6788.065
    
    [GRAPHIC] [TIFF OMITTED] T6788.066
    
    [GRAPHIC] [TIFF OMITTED] T6788.067
    
    [GRAPHIC] [TIFF OMITTED] T6788.068
    
    [GRAPHIC] [TIFF OMITTED] T6788.069
    
    [GRAPHIC] [TIFF OMITTED] T6788.070
    
    [GRAPHIC] [TIFF OMITTED] T6788.071
    
    [GRAPHIC] [TIFF OMITTED] T6788.072
    
    Mr. Mica. Next I'll recognize Ambassador Ted McNamara, who 
is now with the Council of the Americas, and a former 
Ambassador of the United States to Colombia.
    Welcome, sir, and you're recognized.
    Mr. McNamara. Thank you, Mr. Chairman. I will try and 
summarize the statement if I can.
    Mr. Mica. We can put the entire statement in the record, 
without objection.
    Mr. McNamara. First of all, I'm very pleased to appear 
before this subcommittee to speak in favor of a more robust 
United States policy of assistance to Colombia at a time of 
great need in that country. I was privileged to serve as U.S. 
Ambassador to Colombia from 1988 to 1991 during an earlier 
crisis in Colombia. Indeed, that crisis was at least as severe 
as the crisis that we're facing today there.
    Then, Colombia faced a massive narcoterror campaign of 
bombings, assasinations, kidnappings and both in the cities and 
in the countryside. The campaign was designed to terrorize the 
government and the population into submission to the malevolent 
dictates of the Medellin drug mafia. It failed. Colombia 
defeated the mafia in Medellin with United States assistance 
and democracy and democratic institutions were preserved.
    Many people think today that it's impossible for Colombia 
to face up to the challenge it now faces. I didn't believe back 
then that it was impossible to face up to those challenges, and 
I don't believe today that we're in a crisis that is so dire 
that Colombia will fail. Colombia can confront the current 
narco-guerrilla threat, but as in 1989 it will do so much more 
successfully if it has the moral, political, economic and other 
support of the United States and of its neighbors.
    This is not a bilateral problem. This is a regional and 
hemispheric problem. The media have given much attention to the 
strength of the guerrillas, to their control of 40 percent of 
Colombian territory, supposedly. But let's be clear. The 
guerrillas are not close to taking power in Colombia. In fact, 
if it were not for the great wealth accumulated from their 
criminal activities, the guerrillas would not be the threat 
that they are today. The areas they dominate, while large, have 
few Colombian citizens in them. The country, as a whole, gives 
them very little popular support, as we've heard earlier.
    I won't go into the five reasons that I have listed in my 
statement, why I think it is in United States national 
interests to assist Colombia. Let me just say briefly that I 
think it is in our national interest because however bad the 
situation is now, if we don't assist Colombia, it's going to 
get worse.
    Second, that Colombia's borders have already been 
transgressed by this crisis and it is no longer just a 
Colombian crisis, it is spilling over into the neighboring 
countries.
    Third, we should not doubt that these guerrillas and the 
other narcos, with whom we're facing this crisis, have their 
own interests in mind and not the best interests of the United 
States.
    The democratically elected Colombian Government is our 
friend and our ally in this effort. And we should be under no 
illusions that our national goals for strengthening democracy, 
human rights and market economies in Latin America would suffer 
a serious setback if Colombia were to suffer continued 
instability.
    Let me address the question of the guerrillas for just a 
moment. With respect to these guerrillas that have plagued 
Colombia for half a century, I believe it is time to call a 
spade a spade. The destruction of the Medellin and Cali cartels 
in the late 1980's and early 1990's removed a curtain behind 
which the guerrillas had hidden their narcotrafficking. It also 
opened up new narcotrafficking opportunities for them.
    Since the drying up of Soviet and Cuban funding in the 
1980's, the FARC and other guerrillas have increasingly raised 
money by relying on kidnapping, extortion and narcotrafficking, 
among other criminal activities. Colombia's guerrillas are 
heavily involved in narcotics. The FARC leadership traffics in 
drugs inside Colombia, they tax other traffickers, they protect 
the narcotics industry from the police and military raids. That 
means they're narcotraffickers. Meanwhile, the FARC peasant 
troops and low-level officials cultivate and process the 
cocaine for added personal income. And that, of course, also 
leads to the wealth and power of the FARC and the other 
guerrilla outfits. According to their Marxist logic, there's 
nothing wrong with it. It's perfectly legitimate since it 
weakens the enemy and supports the revolution.
    Let me address briefly the paramilitaries which have 
received quite a bit of attention at this hearing. The 
extensive network of paramilitaries, or self-defense groups, 
owes much to narcotrafficking. Many of these bands were created 
and funded by narcotrafficking organizations as well as by 
legitimate farmers and ranchers who were concerned at the 
inability of the military to protect them from the guerrillas.
    The paramilitaries also engage in narcotrafficking and are 
deeply dependent on that as a source of income. As a result, 
the combination of the guerrillas and the paramilitaries, you 
have two military organizations in the country which are 
richer, better equipped, and more capable of conducting 
military operations than the Colombian military itself. It's 
apparent that there's a very complex set of relationships 
involving these organizations. In some areas the 
narcotrafficking organizations cooperate with the guerrillas, 
and in other parts and in other areas of the country they fight 
them.
    And this highlights another aspect of the situation in 
Colombia that we need to recognize. Most of the violence, 
corruption, and human rights crimes in Colombia stem from the 
weakness of the state, not from its excessive strength. The 
rise of the paramilitaries demonstrates this. Unlike in Central 
America where governments organized supplied and supported the 
paras, or the paramilitaries, the Colombian paramilitaries have 
become powerful because the military has become weak. The 
paramilitaries do not depend upon the government for their 
source of materiel and for their support. They are 
independently organized and they are independently supported. 
They work sometimes with the government military officials in 
the regions, but for the most part they have their own agenda 
and go about their own activities.
    Another example of weak government is the judicial system, 
which has been weak for many, many years and tried to improve 
it over the course of the last few years. There have been some 
improvements. But the impunity that most criminals in Colombia 
enjoy leads to a private justice that encourages things like 
paramilitary organizations to arise.
    In the corruption and venality of the Congress of Colombia 
is another example of a disgracefully weak institution.
    I think, as has been said here by many of the witnesses, 
that we have to understand that President Pastrana came into 
the Presidency in a very weak position. Economically, he was 
weak because his predecessor, President Samper, practiced 
disastrous economic policies. After a rather hesitant start, it 
looks like President Pastrana has put in place a very good 
team, a very solid economic program, and there is some hope for 
a very positive outcome in the course of the next year to 3 
years on the economic front.
    Unfortunately, on the security side, President Pastrana has 
also inherited a very difficult and weak position. The 
mismanagement during Samper years, the lack of attention to the 
proper funding of military, and even police activities during 
that period has led to a weakened position for the Colombian 
Government as it faces the narcotics traffickers and the narco-
guerrillas.
    Under pressure from Washington, President Pastrana 
announced a three-legged strategy for peace. One was 
strengthening the military, the second leg was providing a 
social welfare program called Plan Colombia, and the third was 
negotiating with the guerrillas. It was a reasonable strategy, 
but it was never implemented. The first leg has not received 
the priority it deserves; the second leg, Plan Colombia, is 
virtually moribund. Only the negotiations have received 
constant, but not always wise attention and priority.
    A three-legged policy in which one leg is weak, the second 
one is broken, and the third one is somewhat hesitant is a 
precarious base on which to build a peace. Given Colombia's 
economic situation, repairing the two legs that are in dire 
need of repair will require United States resources. In 
addressing the question of military assistance, I think that 
the United States needs to understand once and for all that 
without a strong professional and effective military in 
Colombia there will be no peace in Colombia.
    The guerrillas will not negotiate until they're convinced 
they will suffer military losses. Fortunately the Colombian 
military is capable of modernizing itself and becoming a 
disciplined force. It did modernize itself to some extent and 
it met the challenge in 1989 through about 1993 when Samper 
came on the scene.
    Mr. Mica. Ambassador, if you could, begin to conclude 
because I want to give Mr. Meriage about 5 or 6 minutes.
    Mr. McNamara. Let me move then to the main points, I think, 
where we're going to have to see some adjustment by President 
Pastrana. Some of these were mentioned by Ambassador Busby.
    First, I think that the idea of a full peace agreement 
during the Presidency of President Pastrana is not a realistic 
goal, and it will simply encourage the guerrillas not to 
negotiate. I think President Pastrana should attempt to advance 
the peace process, get a partial peace, if possible, and leave 
it to his predecessor to come to a final conclusion. There is 
not enough time in the 2\1/2\ years he has left to negotiate a 
full peace.
    Second, the domestic political base which is the 
underpinning for the government's peace strategy is very narrow 
and very weak at this point. Even within Pastrana's own party, 
that's the case. The guerrillas know it and that's one of the 
reasons why they're not negotiating. Pastrana needs to broaden 
his support to include a wide spectrum from the country's 
political parties. He can get that wide spectrum support, I 
believe, and it would give additional strength and cohesion to 
his strategy of negotiating with the guerrillas.
    Pastrana needs to reach out to the others in the political 
spectrum. His negotiating team is weak, inward looking and 
lacking in strategic vision. It is not like his economic team 
which is very strong.
    I think the United States needs to state publicly that it 
understands that in Colombia fighting narcotraffickers means 
fighting guerrillas. This would give a great boost to the 
morale of the population and force the guerrillas to negotiate 
in good faith.
    Finally, I would say that we need to address the 
paramilitary problem soon. Americans and Colombians are going 
to have to face the fact that these criminal bands must be 
eliminated from Colombia. At the present time, there is very 
little attention paid to getting rid of the paramilitary 
groups.
    And with that, I will say that I hope that we will be able 
to get a very substantial package of assistance together for 
Colombia, and I think that it will mark a turning point in 
Colombia's efforts to face this particular crisis.
    Mr. Mica. Thank you, Ambassador. We only have about 4 or 5 
minutes, maximum. What's your pleasure? You want to vote and 
come back.
    Do we have two votes or one? Well, I hate to cut Mr. 
Meriage short. We have run over here. Well, I think we're going 
to have to go and come back. I'm sorry. I just don't see how we 
can do that. If you would stand in recess for 15 minutes, we'll 
vote. We have one--we'll be at the end of the first vote, and 
then vote and come back, and there may be some questions. So 
we'll stand in recess for approximately 15 minutes.
    [Recess.]
    Mr. Mica. If I could, I would like to call the subcommittee 
back to order. And we are on our third panel, on our third 
witness this afternoon. I know this has been a lengthy hearing, 
but it is an important hearing. And we wanted to hear the full 
testimony of our last witness, Mr. Lawrence Meriage. And he's 
Vice President of Occidental Oil and Gas Corp.
    I apologize, sir, for the late hour, but as you can see, 
there is a tremendous amount of interest in this subject among 
Members of Congress and a great debate about one of the most 
important packages we'll be considering this year.
    So, with that, I thank you for your patience again and 
you're recognized.
    Mr. Meriage. Thank you, Mr. Chairman. I am going to present 
a summary of my written testimony.
    Mr. Mica. Without objection, that will be made part of the 
record.
    Mr. Meriage. As the only private sector represented at 
these hearings today, I want to focus my remarks on four key 
points relating to United States-Colombia relations: first, the 
importance of United States economic interests in Colombia; 
second, how Columbia's increasing narcotics production problem 
is undermining those interests; third, the importance of United 
States investment in Colombia in general and particularly in 
the energy sector; and finally, our thoughts on the aid 
package.
    The United States-Colombia relationship is of great 
importance from an economic and commercial perspective. 
Colombia is the fifth largest economy in Latin America and our 
fifth largest trading partner in the region. United States 
exports reached nearly $5 billion in 1998, accounting for 
nearly 32 percent of Colombia's total imports. This Andean 
nation is our 26th largest export market overall.
    The United States also is the No. 1 foreign investor in 
Colombia.
    Finally, Colombia is the eighth largest supplier of foreign 
crude oil to the United States with more than 330,000 barrels a 
day shipped to Gulf Coast refineries in Texas and Louisiana. 
This factor is an important part of the diversification of our 
energy supply away from the Middle East.
    In the more than three decades Occidental has operated in 
Colombia, we have seen a steep rise in the number of armed 
subversive groups in the country. Much of the attention today 
and the testimony has been focused on what is going on in the 
south. In the north, where we operate adjacent to the 
Venezuelan border, the number of FARC and ELN units have risen 
dramatically, particularly in the last 5 years. At the same 
time in the same region there has been explosive growth in drug 
trafficking. These two developments are not unrelated.
    Along the border regions of North Santander we have 
observed lush green terrain on the Venezuelan side and large 
charred areas on the Colombia side where native vegetation has 
been burned to clear the land for planting coca and poppies. 
The combination of drugs and guerrillas has resulted in a sharp 
increase in the level of violence in these regions.
    Mr. Chairman, economic development and the creation of jobs 
in the legitimate economy are essential if Colombia is to break 
this cycle of drugs and violence. The economy is mired in its 
worse recession in recent history and one of the critical 
factors in the country's economic recovery is oil development 
which has been a linchpin of President Pastrana's plan for that 
recovery.
    Between 1994 and 1998 Colombia's oil sector accounted for 
nearly 23 percent of total foreign investment in Colombia. In 
1999 crude oil sales produced nearly $3.2 billion in revenues, 
or 24 percent of the central government's total income; but 
known reserves of crude oil are being rapidly depleted, and 
without new oil discoveries, Colombia will become a net 
importer of oil by 2004, which would have a devastating impact 
on the country's balance of payments, particularly if you're 
looking at prices at the current level.
    Because oil revenues are so important to the government, 
Colombia's oil infrastructure has been a prime target of 
terrorist tactics by Marxist guerrillas who control much of the 
remote countryside where oil is produced. For example, units of 
both the FARC and the ELN have attacked the government-owned 
pipeline that transports oil to the coast from the country's 
second largest oil field, Cano Limon, which we operate. The 
pipeline has been struck 700 times since operations began in 
1985, 79 times in 1999 alone. These attacks have caused 
cumulative losses totaling in excess of $100 million.
    Mr. Chairman, I share your view that the United States is 
confronting a crisis of dramatic proportions right in our own 
back yard. Indeed, we believe the very survival of Latin 
America's oldest democracy hangs in the balance. That's why we 
strongly support a substantial supplemental aid package for 
Colombia. Furthermore, we believe this package must be balanced 
between support for the police and the military. The 2,500 men 
of the Colombia National Police antinarcotics unit are badly 
outnumbered and outgunned by the guerrillas and paramilitaries, 
both of whom, as we have heard today, are supported by drug 
money.
    If I might add just parenthetically there's been some 
discussion today about cooperation between the military and the 
police and the central components. We have seen this in the 
regions where we are operating at the present time. Indeed, 
before the police can come into the areas in which we are 
operating that are controlled by the guerrillas, the first 
thing that happens is that units of the armed forces are 
deployed and then the police are deployed subsequent to that.
    For the counternarcotics activities of these police to be 
effective, they need the backing of the armed forces which have 
their own shortcomings because they lack mobility, modern 
equipment and intelligence gathering capabilities. The 
counternarcotics battle simply cannot be won without a 
stronger, better equipped and highly disciplined military 
force.
    I know human rights practices by the Colombian army have 
been a central theme in this debate over United States aid and 
they have certainly surfaced during these hearings. President 
Pastrana has taken major steps to remedy this problem and our 
own sponsorship of human rights programs in the areas where we 
operate has been an important catalyst.
    Finally, we are concerned that counternarcotics support in 
the aid package exclusively have target operations in the 
southern part of the country. I believe it is important not to 
overlook the worsening problem in the north along the 
Venezuelan border where an estimated 35 miles have been 
converted to drug cultivation in 1999 alone. Counternarcotics 
activities in the north not only will undermine the growing 
source of revenue for the enemies of civil society, but also 
will provide indirect support for the government's effort to 
stimulate economic growth in the region. Attacking the source 
of supply is not the only answer in addressing Colombia's drug 
problem, but it is an important part of a larger equation that 
must be solved.
    Failure to act decisively now virtually assures that we 
will have to deal with a worsening regional problem in our 
hemisphere.
    Thank you very much.
    [The prepared statement of Mr. Meriage follows:]

    [GRAPHIC] [TIFF OMITTED] T6788.073
    
    [GRAPHIC] [TIFF OMITTED] T6788.074
    
    [GRAPHIC] [TIFF OMITTED] T6788.075
    
    [GRAPHIC] [TIFF OMITTED] T6788.076
    
    [GRAPHIC] [TIFF OMITTED] T6788.077
    
    [GRAPHIC] [TIFF OMITTED] T6788.078
    
    [GRAPHIC] [TIFF OMITTED] T6788.079
    
    [GRAPHIC] [TIFF OMITTED] T6788.080
    
    [GRAPHIC] [TIFF OMITTED] T6788.081
    
    [GRAPHIC] [TIFF OMITTED] T6788.082
    
    [GRAPHIC] [TIFF OMITTED] T6788.083
    
    [GRAPHIC] [TIFF OMITTED] T6788.084
    
    [GRAPHIC] [TIFF OMITTED] T6788.085
    
    [GRAPHIC] [TIFF OMITTED] T6788.086
    
    [GRAPHIC] [TIFF OMITTED] T6788.087
    
    [GRAPHIC] [TIFF OMITTED] T6788.088
    
    [GRAPHIC] [TIFF OMITTED] T6788.089
    
    [GRAPHIC] [TIFF OMITTED] T6788.090
    
    [GRAPHIC] [TIFF OMITTED] T6788.091
    
    [GRAPHIC] [TIFF OMITTED] T6788.092
    
    [GRAPHIC] [TIFF OMITTED] T6788.093
    
    [GRAPHIC] [TIFF OMITTED] T6788.094
    
    [GRAPHIC] [TIFF OMITTED] T6788.095
    
    [GRAPHIC] [TIFF OMITTED] T6788.096
    
    [GRAPHIC] [TIFF OMITTED] T6788.097
    
    [GRAPHIC] [TIFF OMITTED] T6788.098
    
    [GRAPHIC] [TIFF OMITTED] T6788.099
    
    [GRAPHIC] [TIFF OMITTED] T6788.100
    
    Mr. Mica. Thank you for your testimony. In fact, I thank 
all three of our witnesses on this final panel. I'm going to 
turn first to my colleague, the gentleman from Indiana, Mr. 
Souder, for his questions.
    Mr. Souder. I thank the chairman.
    First, let me say an official hello to Ambassador Busby who 
had one of the great lines that I've repeated many times since 
it was my first trip to Colombia and he was along. I asked him 
whether the movie, Clear and Present Danger, was accurate and 
he said, ``No, I died in the movie,'' which would also go for 
Ambassador McNamara who went through that period too. And I 
want to say hi to him as a fellow Domer, honorary Hoosier.
    And also I wanted to make sure you knew that Andy Downs is 
now chief of staff to the new mayor of Ft. Wayne, which was a 
great honor at his young age. Because your roommate and close 
friend, Dr. Downs, is his son. They won the mayor race, and all 
of a sudden his son is chief of staff to the mayor of Ft. 
Wayne. It's been great. I appreciate your knowledge over the 
years in sharing that with me.
    I also want to thank Mr. Meriage for your testimony on the 
oil crisis and the interrelationship with the drug issue. 
Because when you look at whether or not what constitutes 
compelling national interest for the United States when we look 
at this, you can argue about many things that we deal with in 
the world; but narcotics alone is enough for a compelling 
national interest.
    But when you talk about our energy, and every American 
right now--we had the gasoline prices in Ft. Wayne go up 10 
cents in 1 day last week. And everybody is more aware of the 
questions of energy, and when we watch our No. 1 source, which 
is not the Middle East, the No. 1 source is Venezuela, add that 
to Colombia, and you have a major amount, probably close to--my 
guess is around 25 percent from those two countries, because I 
think Venezuela is 17; and we have an energy question, not to 
mention Panama.
    But I wanted to first ask Ambassador Busby, I know that you 
made some fairly strong comments about the FARC. And I wanted 
to know what your reaction was to the State Department in 
December 1998 going down to meet with the FARC in Costa Rica. 
As you said, they're designated terrorist organization. The 
State Department designated them that way. And do you think it 
was appropriate for our State Department to negotiate directly 
with somebody that they had said was a terrorist organization?
    Mr. Busby. Let me answer the question a little differently.
    You should understand that I don't have any problems in 
principle, or ideological hang-ups with negotiating or meeting 
with people on the terrorist list. In fact, I did that myself 
at one time. If you can accomplish something and you know what 
you're doing, then I don't have an ideological problem with it, 
on that particular thing; and I really, I hesitate to say it, 
but--well, let me put it this way.
    I think that if you're going to do something like that, you 
ought to have two or three criteria that you judge its 
acceptability by. One, you should have a plan, a strategy, and 
you should understand what it is you're trying to do. You 
should have a clear objective and an end-game before you do it.
    Second, I think you have to be well prepared for a meeting 
with a group like that; brief the Congress, think through the 
risks involved, think it through, and make sure that when you 
go do it, you've got everybody on board.
    And third, it should be well done, well implemented. I 
don't have anything else to say about that particular meeting, 
except that I don't think that it met my three criteria.
    Mr. Souder. Do you think it met any of the three criteria?
    Mr. Busby. No, sir.
    Mr. Souder. Ambassador McNamara, how do you view how our 
State Department should approach things with not only the FARC, 
but the ELN and the so-called rightist paramilitary groups too? 
Is that something we should be involved in, let Pastrana go? Do 
you have any further comments on the criteria that Ambassador 
Busby laid out?
    Mr. McNamara. No, I think those are very sound criteria 
when one negotiates, and I have spent almost my whole career 
negotiating. I started with North Vietnamese and Viet Cong in 
Paris, went on to Moscow, negotiated with people from the Arab 
world as well as from Latin America and China, finished my 
career negotiating with Panama.
    The question as to how you go into a negotiation, it seems 
to me that you go into a negotiation from a position of 
strength. The stronger party will come out of the negotiation 
better than the weaker party. And we and President Pastrana, I 
think, started down a path without having, as Ambassador Busby 
just said, a good, clear strategy. Without the clear strategy 
you're going to, A, make mistakes, and B, the stronger party, 
particularly if that stronger party has a good strategy, is 
probably going to come out better for it.
    I cited in my statement that I thought that President 
Pastrana made a mistake in giving the FARC that zone in eastern 
Colombia for just coming to the negotiating table. That 
convinced them, and I think the negotiating session in Central 
America probably convinced them even more, that they had the 
winning hand. They were the more powerful, and therefore 
Pastrana had to come to them; the United States had to come to 
them. That psychological perception, I think, in allowing that 
to accrue to the FARC as both Pastrana and the administration 
did, was probably--not probably, it was certainly a mistake.
    There's only one way to deal with these folks and that is 
from a position of strength.
    Mr. Souder. I wanted to ask one other question Mr. 
Chairman. It is--if you want to give some additional in writing 
because I know we've had a long day, but one of my concerns--
and both of you have been Ambassadors and held multiple other 
positions, as well as Ambassador to Colombia--is that I sense 
that we are fighting a couple of battles down there. One is 
we've seen this huge tide of nationalism, which you certainly 
saw in your Panama Canal negotiations, where they probably 
would have been willing to negotiate, but basically popular 
will is rising up. Then, when we go to get another base, we 
can't find anybody that will allow our military base in all of 
Central and South America, so we negotiate working out with 
multiple use of airports and off islands and all kinds of 
stuff.
    Clearly a meeting with President Chavez, it is not the kind 
of--you don't detect a really anti-American tone, even by him, 
about whom many people have concern; but more of how they want 
to do their own thing, they want to have pride. It is almost 
like they feel one way to assert that is kind of, once of a 
while, to do something to spite us.
    At the same time, they're really very strong supporters of 
the United States. They understand our importance in this zone 
and they kind of think that, so how they relate to us has 
become a huge problem. We're seeing this tide of nationalism 
occur when we're seeing democracy in Colombia battled. 
Fujimori, President Fujimori, in Peru is looking at it and 
saying, hey, it is kind of teetering over there, it gives him 
quite frankly some questions about, he'd like to continue as 
President and endangering democratic principles in Peru.
    Ecuador, which is right near the southern part, is 
certainly not the most stable democracy right now after their 
procedure. President Chavez has got to be looking at the north 
side, as we just heard about the dangers on the north border 
and more cultivation and whether they can control the north 
border. He's got to be saying, what's happening?
    This question of Colombia is spreading far more than just 
Colombia, and I'm wondering, in the rising tide of nationalism, 
how we're going to deal with some of that.
    If you could maybe just give us a few insights and then if 
you want to submit, because I think this is going to go far 
past and become more difficult than the Colombia we're looking 
at, because we're going to see this rise up all around it, 
which inhibits our ability to battle the drug problem which 
we're all having in our streets.
    Mr. Busby. Well, I would like to comment on that. It is a 
very insightful and interesting question. My feeling has always 
been that whether you're dealing bilaterally with a country 
such as Colombia, or trying to put together a regional program, 
it is a constant intellectual exercise and struggle to find a 
meshing of their interests and ours.
    Nobody down there is going to do something just because we 
ask them. That was one of the things I always kept preaching 
when I was in Colombia: They're not fighting narcotics for us. 
They're fighting narcotics because our interests mesh, and we 
were able to hold that together. And I think that if you look 
at it that way, then the onous comes back to our side.
    People expect us to lead, and we should. And you've got to 
find a policy, both bilaterally with the individual countries 
and regionally, that meshes, and with a good understanding of 
what they want.
    If you don't do that, then you are constantly battling both 
bilaterally and regional trying to get them to do something 
they don't want to do, or can't do.
    Mr. McNamara. I would agree with that and say it's not 
unlike how you put together a political coalition in the 
congressional district in a State or in the United States. You 
find out what the interests of the parties involved are, what 
are the common interests and how can your coalition hold 
together. It may hold together say, for example, in the NATO 
context for 40 or 50 years on a wide variety of issues, or it 
may, as in the Gulf war context, hold together only for a few 
months and for a single issue.
    In Latin America, I think that through the OAS and other 
institutions that we have built up, we can in fact have a long-
term partnership with most of the major countries in Latin 
America, not an alliance, because it wouldn't quite be an 
alliance but a long-term partnership. And they will follow our 
lead. But they will follow us if we are a leader. If we are not 
a leader, if we are not putting out front the essential 
elements of our interests and our policies and asking them and 
consulting with them on their interest and their policies, then 
we are going to find out when the crisis hits we haven't done 
the spade work that is necessary.
    You know, you can't put a coalition together and get 
elected to Congress in July and August of the election year. 
You do that 2 or 3 years before, and then when July and August 
and November come around, the coalition holds together. And it 
is not that much different in international affairs.
    Mr. Souder. Thank you.
    Mr. Mica. Thank you. Mr. Meriage, you cited in your 
testimony some 700 incidents of attacks against your facilities 
in Colombia and some 70 people, I guess, or 70 incidents in the 
last year, was it?
    Mr. Meriage. Seventy-nine.
    Mr. Mica. Seventy-nine. What's been the impact on employees 
of Occidental?
    Mr. Meriage. Well, the attack on the pipelines, from an 
employee perspective, are really the tip of the iceberg. There 
were discussions this morning about, you know, the economic 
impact of this aid package and whether a certain percentage 
should be put toward jobs. What our employees are confronting, 
and the work force out there is exclusively Colombian in the 
field area, is that they are regularly shaken down by both the 
FARC and the ELN. They are required to pay a war tax to both of 
the guerilla groups or they are not able to work. And that is 
the biggest impact that we are confronting with our employees.
    Mr. Mica. Have any of them been kidnapped or killed?
    Mr. Meriage. Yes. Over the years, we have had a number of 
instances where people have been both killed and kidnapped. 
Nothing that has happened in recent--in the last 2 years.
    Mr. Mica. It also appears from some tape that we have 
obtained from a surveillance company that some of the private 
sector operations, their oil lines in particular, have been 
fairly effective in hiring security and also sort of monitoring 
and policing their pipelines. Is that left up to you, pretty 
much, to conduct that type of operation?
    Mr. Meriage. The pipeline that has been attacked is owned 
and operated by Echo Petrol, the state oil company; and they 
are responsible for its maintenance and for its repair and for 
its protection. We are assessed a charge for that. So the 
protection really comes from the Colombian army that is 
stationed out in that area. But the pipeline is 483 miles long, 
and so there aren't enough troops in all of Colombia to protect 
that pipeline along its corridor.
    Mr. Mica. Has there been any noticeable decrease in oil 
production as a result of these attacks? I mean, is there a 
direct effect on the amount of oil that is available and the 
market due to these recent attacks? Or is this something that 
isn't really measurable?
    Mr. Meriage. It is measurable. And over the last 2 years 
what we have seen is a dramatic escalation in the increase of 
attacks. At one time, Congressman, Mr. Chairman, they had--the 
ELN was primarily targeting the pipeline. Within the last 3 
years, the FARC and the ELN together have been attacking the 
pipeline, and so we have seen economic disruptions.
    For the first time, really, since we have been operating 
that field since 1985, over the last 2 years, we have had to 
shut the field in completely. We have got about 500,000 barrels 
of storage at the field itself. When that storage is filled and 
the pipeline is still blocked, then we have to shut in the 
field. And we have experienced those incidents three times in 
the last 18 months.
    Mr. Mica. Now, the administration has crafted a package 
after consultation that has military elements, police elements, 
and some crop eradication and alternative development elements. 
I will just ask each of you, if you were going to modify the 
package, where would you put a little bit more emphasis? 
Ambassador Busby.
    Mr. Busby. I haven't had a chance to study the package. I 
haven't really seen it in any detail. But the preliminary sheet 
that I saw----
    Mr. Mica. Where would you increase emphasis?
    Mr. Busby. I question the wisdom of the number of Blackhawk 
helicopters that is in that package----
    Mr. Mica. OK.
    Mr. Busby [continuing]. Because of the lack of 
infrastructure, training, and logistics. It is a terrific 
machine. It is very complicated. It's high tech. But I wonder--
--
    Mr. Mica. And where would you put those resources?
    Mr. Busby. I would look at some different kinds of lift, 
different types of helicopters that could be put on the ground 
quicker, that could be just as effective. That is not to say 
you shouldn't have some Blackhawks in there, because you need 
them for their altitude capabilities and certain other 
purposes. But it just seems to me it shouldn't be the first 
crack out of the box unless there is a real justification for 
that.
    The second thing is there has been a lot of discussion here 
about human rights. And I think Ambassador McNamara, his phrase 
that human rights abuses stem from the weakness of the state is 
right on the money. That is exactly right.
    I would probably put more emphasis, more money, into 
infrastructure development, particularly of the judicial 
system, and increasing the ability, and the investigative 
capabilities of the state to really enforce the rule of law. 
Because I think that part of the reason for a lot of human 
rights abuses is that people are so frustrated because they 
know that nothing will happen to people, so they take matters 
into their own hand. So I was--I looked at the number, and it 
seemed very, very low to me.
    Mr. Mica. Thank you.
    Ambassador McNamara.
    Mr. McNamara. Well, in my opening statement, I did indicate 
two areas where I thought more attention needed to be given. 
One is, indeed, the system of justice in Colombia. The judicial 
system is woefully weak and inadequate to the needs of the 
country. And I suggested that the three-legged strategy of 
Pastrana should be expanded to a four-legged strategy, and that 
fourth leg ought to be the improvement of justice.
    I made it a central theme of my years as Ambassador in 
Colombia to strengthen that judicial system. Substantial 
efforts were made and I think some successes. In fact, bad as 
it is, it is much better than it was 10 or 15 years ago. It is 
still, however woefully inadequate.
    The second area, and I am not so sure that in the immediate 
short-term that it requires huge resources. It is not something 
that you can just throw money at. But I think a strategy for 
dealing with the paramilitary organizations has got to be an 
early part of overall strategy for dealing with these problems.
    The paramilitaries are part of the problem. They are not 
part of the solution. And you must strengthen the military. In 
fact, if you look historically, each time the military has been 
beggared in Colombia by one or another President, you have had 
a spike in the number of paramilitary forces and the amount of 
paramilitary activity. Each time the President, whether it was 
Barco or Gaviria or now Pastrana, has put resources into the 
military, you have a diminution of the paramilitary strength 
and paramilitary activity.
    It's not coincidental that those two curves are in a sign-
cosign relationship. When one goes up, the other goes down. 
When one goes down, the other goes up.
    I think dealing with the paramilitary problem is something 
we have not--we, the United States--nor Colombia has paid 
enough attention to.
    Mr. Mica. Thank you.
    Mr. McNamara. If I can make one last comment.
    Mr. Mica. Go ahead.
    Mr. McNamara. And, again, it's not resources, it's 
strategy. This is not a United States-Colombian problem. It is 
a hemispheric and a regional problem. And we really have to 
spend time, in answer to Mr. Souder's question, being the 
leader in the hemisphere, getting the other countries involved. 
There are a lot of countries that would get involved if they 
saw the leadership and responded to Colombia and United States 
urgings.
    Mr. Mica. Thank you.
    Mr. Meriage.
    Mr. Meriage. As I indicate in my previous remarks, we are 
seeing a serious problem emerging in the north. If you fly up 
in--over the area of North Santander in a helicopter, you can 
see the smoke flumes from the fires burning where the drug 
traffickers are burning off jungle. I think looking exclusively 
to the south and ignoring what is happening in broader areas of 
Colombia is a mistake.
    There is another problem, too, if I--that relates to the 
regional issue that Ambassador McNamara alluded to. We have an 
operation in Ecuador that is 40 miles from the Colombian 
border. There is some concern that, if this push starts in the 
south, relentless push in the south, what impact that would 
likely have upon areas close to the Ecuadorian border as well.
    Mr. Mica. Thank you.
    I would like to thank all three of our witnesses, both for 
their patience and also for their participation. It has been a 
long day. I think we are close to setting one of our hearing 
records as far as time. But this is a very important topic. It 
is going to be probably one of the most important packages 
before the Congress in the next few months here, hopefully even 
faster than that.
    We have heard a little bit today about the history of the 
situation, and it is unfortunate that some of you who did give 
us prior warning to the threat and the potential of the 
disruption were not heard, and the situation has dramatically 
deteriorated in that area. The important thing is that we learn 
by those mistakes and that we also address human rights, not 
only there, and that has been a great concern in the hearing 
today, but also the human rights of 15,973 Americans who lost 
their lives in drug-related deaths, most of those drugs coming 
from this area. That was in 1997. And we heard the drug czar 
today say 52,000 in related incidents of death.
    The United States has put forces in Somalia, Haiti, Bosnia 
and Kosovo, and we did have a loss of 30 American servicemen in 
Somalia. But we have never experienced anything domestically 
like what we are experiencing from the deadly substance that is 
pouring out of Colombia at this point.
    So it is important we don't make the mistakes of the past, 
that we put together a good, balanced approach, that we help 
Colombians help themselves in that way, and also help the 
United States rid itself of some of the deluge of our drugs on 
our streets and in our communities, killing our young people 
and Americans across the land.
    So, hopefully, this will be the beginning hearing; and we 
will have additional hearings with different committees. But we 
will leave the record open for additional comments for 2 weeks 
with agreement. We will submit, possibly, to you three 
witnesses and also additional questions.
    I want to, again, thank you for your participation, for 
your counsel, and again ask for you to work with us in the next 
few weeks and months as we finalize and put this package 
together.
    There being no further business to come before this 
subcommittee at this time, this subcommittee meeting is 
adjourned.
    [Whereupon, at 4:31 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6788.101

[GRAPHIC] [TIFF OMITTED] T6788.102

[GRAPHIC] [TIFF OMITTED] T6788.103

[GRAPHIC] [TIFF OMITTED] T6788.104

[GRAPHIC] [TIFF OMITTED] T6788.105

[GRAPHIC] [TIFF OMITTED] T6788.106

[GRAPHIC] [TIFF OMITTED] T6788.107

[GRAPHIC] [TIFF OMITTED] T6788.108

[GRAPHIC] [TIFF OMITTED] T6788.109

[GRAPHIC] [TIFF OMITTED] T6788.110

[GRAPHIC] [TIFF OMITTED] T6788.111

[GRAPHIC] [TIFF OMITTED] T6788.112

[GRAPHIC] [TIFF OMITTED] T6788.113

[GRAPHIC] [TIFF OMITTED] T6788.114

[GRAPHIC] [TIFF OMITTED] T6788.115

[GRAPHIC] [TIFF OMITTED] T6788.116

[GRAPHIC] [TIFF OMITTED] T6788.117

[GRAPHIC] [TIFF OMITTED] T6788.118

[GRAPHIC] [TIFF OMITTED] T6788.119

[GRAPHIC] [TIFF OMITTED] T6788.120

[GRAPHIC] [TIFF OMITTED] T6788.121

[GRAPHIC] [TIFF OMITTED] T6788.122

[GRAPHIC] [TIFF OMITTED] T6788.123


</pre></body></html>
